<html>
<title> - OVERSIGHT OF AND POLICY CONSIDERATIONS FOR THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION</title>
<body><pre>[Senate Hearing 113-698]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-698

                 OVERSIGHT OF AND POLICY CONSIDERATIONS
                    FOR THE NATIONAL HIGHWAY TRAFFIC
                         SAFETY ADMINISTRATION

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 16, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-895 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

         SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, 
                             AND INSURANCE

CLAIRE McCASKILL, Missouri,          DEAN HELLER, Nevada, Ranking 
    Chairman                             Member
BARBARA BOXER, California            ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
CORY BOOKER, New Jersey













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 16, 2014...............................     1
Statement of Senator McCaskill...................................     1
Statement of Senator Heller......................................     3
Statement of Senator Ayotte......................................    22
Statement of Senator Nelson......................................    23
Statement of Senator Klobuchar...................................    25
Statement of Senator Markey......................................    27
Statement of Senator Fischer.....................................    31
Statement of Senator Blumenthal..................................    33

                               Witnesses

David J. Friedman, Deputy Administrator, National Highway Traffic 
  Safety Administration, U.S. Department of Transportation.......     5
    Prepared statement...........................................     6
Joseph W. Come, Deputy Principal Assistant Inspector General for 
  Auditing and Evaluation, U.S. Department of Transportation.....    11
    Prepared statement...........................................    13
Jacqueline S. Gillan, President, Advocates for Highway and Auto 
  Safety.........................................................    42
    Prepared statement...........................................    44
Kendell Poole, Chairman, Governors Highway Safety Association 
  (GHSA).........................................................    64
    Prepared statement...........................................    65
Robert Strassburger, Vice President, Vehicle Safety and 
  Harmonization, Alliance of Automobile Manufacturers............    69
    Prepared statement...........................................    70

                                Appendix

Response to written questions submitted to David J. Friedman by:
    Hon. Claire McCaskill........................................    93
    Hon. Richard Blumenthal......................................    99
    Hon. Edward Markey...........................................   103
Response to written questions submitted by Hon. Edward Markey to 
  Robert Strassburger............................................   108

 
                        OVERSIGHT OF AND POLICY
                    CONSIDERATIONS FOR THE NATIONAL
                 HIGHWAY TRAFFIC SAFETY ADMINISTRATION

                              ----------                              


                      TUESDAY, SEPTEMBER 16, 2014

                               U.S. Senate,
      Subcommittee on Consumer Protection, Product 
                             Safety, and Insurance,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:54 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Claire 
McCaskill, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. We were trying to wait for Senator 
Heller. He is en route and will be here momentarily, but I'm 
conscious of the fact that we had votes, which has delayed the 
start of this hearing, and I want to accommodate my colleagues 
who are trying to work in a number of commitments they have 
this afternoon. So we're going to go ahead and begin the 
hearing.
    The recall by General Motors earlier this year of 2.6 
million vehicles for a defective ignition switch that went 
largely ignored by the company and Federal auto safety 
regulators for more than a decade has, once again, opened the 
eyes of the American public and policymakers to the challenges 
we face in keeping our vehicles and highways safe for the 
driving public.
    Over the past 2 years, this subcommittee has held three 
previous hearings on automotive safety issues, including one 
last summer on rental car safety and two this year, examining 
the issues surrounding the GM recall.
    Today's hearing is not about General Motors. But what we 
have learned so far from the GM recall has shown us we still 
have serious deficiencies in how both auto makers and auto 
safety regulators tackle the task of ensuring the vehicles on 
the road are as safe as they can be.
    This is not unfamiliar territory. In the aftermath of the 
Toyota unintended acceleration case in 2010, Congress adopted a 
number of auto and highway safety reforms. Even as the National 
Highway Traffic Safety Administration, that we commonly refer 
to as NHTSA, continues to implement those reforms, it is clear 
the measures enacted in 2012 have not been a comprehensive cure 
for the problems of regulating automobile safety, especially 
when it comes to manufacturing defects.
    This hearing will examine NHTSA's implementation of the 
safety provisions of those reforms, the MAP-21 reforms, assess 
the efficacy and needs of NHTSA's highway safety and motor 
vehicle safety programs, and consider other policy issues 
related to NHTSA's authority and resources.
    Just yesterday, a lengthy article in the New York Times 
identified troubling trends in NHTSA's ability to identify and 
respond to safety defects.
    Before the GM recall earlier this year, that article laid 
out that NHTSA had received 2,000 consumer complaints about 
unexpected stalling in the models GM ultimately recalled. But 
even a month before the recall, NHTSA was telling consumers 
there was, quote, insufficient evidence to warrant opening a 
safety defect investigation, end of quote.
    Just as troubling, the article cites example of NHTSA's 
failing to use its broad subpoena authority to compel 
information from automakers when investigating safety defects 
and even failing to compel answers to crucial questions about 
the cause of accidents related to potential defects.
    This morning, the House Energy and Commerce Committee 
released a report detailing their findings of NHTSA's failures 
in identifying and addressing the ignition switch defect in GM 
Cobalts and other models. Much like the institutional problems 
at GM that this subcommittee has explored, it appears that 
NHTSA itself operated in a siloed environment, where one 
division is often unaware of what may be happening in another 
division.
    In addition to vehicle safety, we will talk today about the 
highway safety programs NHTSA administers designed to decrease 
death and injuries by changing driving behavior, such as seat 
belt use, drunk driving, speeding, motorcycle safety, and the 
new modern threat of texting while driving.
    In 2012, 31 percent of the 33,594 roadway fatalities in the 
United States were attributable to alcohol-impaired driving, 
and 52 percent were not wearing seat belts. Making sure drivers 
are responsible behind the wheel can save tens of thousands of 
lives every year.
    The passenger vehicle of today looks vastly different from 
my first car, a Chevy Nova with a rusted out floorboard. 
Today's vehicles have airbags, crash avoidance technologies, 
and dozens of onboard computers helping to navigate the 
vehicle, keep the occupants safe, and reduce environmental 
impacts. While the auto industry has adapted relatively quickly 
as technology and consumer demand have evolved, I'm concerned 
that both Congress and NHTSA have failed to keep up.
    We know the industry is already moving toward vehicle-to-
vehicle technologies in which cars on the road will be talking 
to each other, and engineers are already working toward fully 
autonomous vehicles or a car that will drive itself. These 
technologies hold enormous potential to reduce both the human 
and economic toll roadway crashes have on our country.
    Congress and NHTSA must ensure that the legal and 
regulatory framework is in place to ensure the driving public 
is able to realize the benefits of those advancements in a way 
that is completely and totally safe.
    Before I wrap up, I just want to say that, while I believe 
Mr. Friedman has done a good job of running the Agency on an 
interim basis since the last Senate-confirmed Administrator 
stepped down in January, I would urge the White House to make 
filling the vacancy for the nation's top auto and safety 
official a priority, especially as the Agency evaluates its 
personnel and financial resource needs and continues to work to 
modernize in order to keep pace with an auto industry far more 
technologically advanced than it.
    NHTSA needs an Administrator and a Deputy Administrator, 
not one person doing both jobs. I am confident that Senator 
Heller and many of my Republican colleagues would work with us 
to ensure the speedy consideration and confirmation of a 
qualified nominee, especially as we face an environment that is 
colored with a crisis of manufacturing auto recalls that have 
been deadly on our roads.
    I appreciate all of our witnesses being here today, and 
look forward to their testimony. Senator Heller?

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Madam Chairman, thank you, and good 
afternoon. I appreciate you calling this hearing today. I 
appreciate our witnesses being here also and look forward to 
this important discussion on NHTSA and its progress of 
implementing various aspects under MAP-21.
    NHTSA plays a vital role in ensuring the highest standards 
in motor vehicles and highway safety so that we are continually 
working toward preventing crashes, and of course, keeping 
motorists safe.
    I think it goes without saying, both Chairman McCaskill and 
I are very interested in the processes at NHTSA, especially in 
light of the General Motors recall. As it relates to NHTSA, we 
have paid close attention to what information NHTSA was able to 
obtain from the car company, what it did with it, and what its 
role was in delay of getting these cars recalled.
    After multiple hearings, I've come to the conclusion that 
General Motors bears the majority of the blame. NHTSA cannot be 
effective when auto manufacturers withhold information. General 
Motors has admitted that they did not fully understand how 
their vehicles were built, which led to a decade-long delay to 
understand the root cause of the airbag non-deployment, which 
was an ignition switch that slipped from run to accessory much 
too easily. However, NHTSA could have performed better.
    Energy and Commerce Committee Republicans released a staff 
report this morning that finds, among other things, that NHTSA 
is struggling to keep pace with the industry it oversees. Of 
course, this is not a new problem.
    As some of you may know, in 2009, NHTSA was forced to 
enlist the help of NASA to supplement its understanding of 
computer controlled electronic systems, electromagnetic 
interference, and software integrity as they related to 
unintended acceleration. I hope we can use today's hearing to 
identify areas for improvement at NHTSA, including its internal 
process for identifying issues and connecting those dots.
    I'm also concerned the President has not filled the vacancy 
for the position of Administrator at NHTSA. The task of 
addressing any shortcoming at the Agency and implementing any 
necessary improvements may be challenging for a Deputy 
Administrator without the endorsement of the President's 
nomination and the Senate's confirmation.
    This is all very important to highway safety across 
America, but NHTSA is also becoming more important for the 
State of Nevada.
    Madam Chairman, you may have heard Tesla has selected 
Nevada for its gigafactory. I was proud to help bring Tesla to 
Nevada. The jobs it will create, coupled with the economic boom 
it will cause in the state, are both welcome benefits of this 
massive investment.
    Tesla's factory will bring over 6,500 direct, high-paying 
jobs and billions of dollars in economic impact. The project 
will increase the GDP in the region by more than 20 percent. 
The facility will be one of the largest in the world, with 5 
million square feet of the factory devoted to battery 
manufacturing. This makes Nevada the epicenter of clean vehicle 
technology.
    All of this means Nevada is growing. With that growth, we 
will need the necessary infrastructure to move people around 
safely and efficiently. That is why I'm also working on 
extending Interstate I-11 beyond Las Vegas to the northwest 
part of the state. It's also why I have such an interest in the 
programs that it administers.
    Nevada is going to need flexibility to address specific 
needs, state needs, and challenges, and I look forward to 
hearing from our witnesses, in particular, from the Governor of 
the Highway Safety Association on how best to allocate Federal 
funds to maximize state flexibility without compromising 
national safety priorities.
    Nevada was one of the leading states to develop a strategic 
highway safety plan even before it was required by law, because 
Nevada's highway safety goal is simple, zero fatalities.
    Nevada has emphasized five critical areas for reduction of 
fatal serious injury crashes that center on one, lane 
departures; the majority of roadway fatalities in Nevada are 
from lane departures; two, pedestrians; third, impaired 
drivers; fourth, occupant protection; and fifth, intersections.
    My point in explaining this is that other states may have 
critical areas, and that state may want to allocate funding 
differently than Nevada. As we work together towards a 
reauthorization of NHTSA, I want the record to note how 
different each state is. Therefore, we need a plan flexible 
enough so each state can come up with a strategic plan best 
suited for each individual state to achieve its goal of zero 
fatalities on the road.
    And with that, thank you, Madam Chairwoman.
    Senator McCaskill. Thank you. We have two witnesses today 
in the first panel, and our first witness is David Friedman who 
is the now--was the Acting Administrator and now is back to 
being the Deputy, correct, because you had served the maximum 
amount of time?
    Mr. Friedman. Correct. I served the maximum statutory time, 
but I continue to have all the authority to run and all the 
support I need to run the Agency.
    Senator McCaskill. And we will hear your testimony first, 
and then we will hear the testimony of Mr. Come, who is the 
Deputy Principal Assistant Inspector General for Auditing and 
Evaluation at the U.S. Department of Transportation. If you 
would begin, Mr. Friedman, thank you very much.

             STATEMENT OF DAVID J. FRIEDMAN, DEPUTY

ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Friedman. Thank you, Chairman McCaskill, Ranking Member 
Heller, and all the members of the Committee. I appreciate the 
opportunity to testify before you today.
    Over the past decade, NHTSA has had an impressive record of 
helping to reduce highway fatalities nearly 25 percent. 
Unfortunately, in 2012, fatalities increased. Much of that 
increase was from crashes involving drunk drivers, large 
trucks, motorcyclists, bicyclists, and pedestrians.
    While I'm encouraged by preliminary estimates indicating a 
decrease in crash fatalities in 2013, we still have much work 
to do. Each year, crashes cause more than 30,000 lives lost, 
each one a tragedy, and nearly $900 billion in economic and 
societal harm. This heavy toll was firmly in mind as we 
implemented MAP-21.
    By consolidating grants and alleviating administrative 
burdens through MAP-21, Congress helped the states to better 
focus their resources on traffic safety. I'm particularly proud 
of now rapidly NHTSA implemented key MAP-21 programs and 
supported our stated grantees throughout the application 
process.
    NHTSA has also taken several actions to enhance vehicle 
safety under MAP-21, a VIN lookup tool to help Americans check 
their vehicles for recalls, a final rule requiring seat belts 
on motorcoaches, a proposed rule to improve child seat safety 
in side impact crashes, and these are just a few of the 
examples of our accomplishments under MAP-21.
    We also recently confronted the challenge of the General 
Motors ignition switch defect. As I noted in May when we 
announced unprecedented oversight of General Motors and a 
maximum allowed $35 million fine, GM violated the law. They 
violated the law when they failed to act at a time when airbags 
were not working properly in millions of their products. 
Instead of fostering a culture of safety, GM encouraged one of 
denial and delay that cost lives and endangered the American 
public.
    We have pushed GM to accelerate the pace of this recall, 
and we are ensuring that GM fundamentally alters the way it 
approaches safety defects. We are also looking at lessons 
learned to improve the Agency's processes, and I would be happy 
to discuss them further today.
    As just one example, we are changing the way we communicate 
with the industry and within our own organization about the 
interaction between vehicle components and systems. As part of 
that effort, we obtained additional recalls from General Motors 
and two recalls from Chrysler based on our new understanding of 
the relationship between the ignition switch position and the 
airbag deployment. When we had the information, we acted.
    We are also working to establish a new normal when it comes 
to industry responsiveness to recalls. I have personally met 
individually with 12 major auto manufactures with a very clear 
message. There is zero tolerance for a failure to quickly 
notify the Agency of a safety defect. This reinforces the 
message we have sent to the industry over the past 5 years 
through record fines totaling more than $140 million for 
failing to live up to their responsibility under the law to 
find, fix, and report defects, and with the message we've sent 
through the nearly 13,000 recalls, we have forced auto makers 
to pursue over the last 10 years.
    Moving forward, we can strengthen NHTSA's hand in our 
highway safety mission with the President's long-term 
reauthorization proposal, the GROW AMERICA Act. GROW AMERICA 
will increase civil penalty limits nearly tenfold to $300 
million. Additionally, GROW AMERICA will require rental car 
companies and used car dealers to fix recalled vehicles and 
equipment before making them available to the public.
    To support our state partners, GROW AMERICA will increase 
NHTSA's highway safety grants nearly 20 percent and enhance 
state focus on pedestrian, bicycle, and older driver safety, 
and emergency medical services. It will also help states in 
their efforts to enact strong laws under graduated driver's 
licensing, distracted driving, and ignition interlock grants in 
MAP-21.
    GROW AMERICA also supports the development of cutting edge 
vehicle technology, such as automated vehicles and the vehicle 
to vehicle communication systems that can warn drivers of 
possible collisions where NHTSA has led the research path 
forward. Innovations like these will help NHTSA not just to 
protect people in crashes, but to avoid them altogether.
    In closing, to succeed in our lifesaving work, NHTSA is 
asking for additional resources in the GROW AMERICA Act and in 
the President's Fiscal Year 2015 budget. And when it comes to 
defects, I believe we need to go even further. We need the 
latest technology to identify defects and defect trends. We 
need to increase the public's awareness of the need to report 
potential defects and complaints to us. And we need the 
additional personnel to use these tools, analyze the data, and 
investigate the problems.
    I look forward to working with the Congress to obtain these 
resources that are so critical for NHTSA to fulfill these and 
other parts of our vital traffic safety mission as part of the 
long-term surface transportation reauthorization our country 
needs. Thank you.
    [The prepared statement of Mr. Friedman follows:]

Prepared Statement of David J. Friedman, Deputy Administrator, National 
       Highway Traffic Safety Administration, U.S. Department of 
                             Transportation
    Good afternoon, Chairman McCaskill, Ranking Member Heller, and 
Members of the Subcommittee. I appreciate this opportunity to testify 
before you today on the National Highway Traffic Safety 
Administration's programs.
    I would like to first thank the members of the Subcommittee for 
your work on reauthorizing the Nation's surface transportation 
programs. All of you are aware of the challenges we face in ensuring 
roadway safety, and I appreciate your work toward a long-term 
transportation bill. I look forward to working with the Committee to 
strengthen highway and vehicle safety through a comprehensive 
reauthorization.
    In 2012, highway fatalities totaled 33,561--1,082 more than during 
the previous year. In the same year, an estimated 2.36 million people 
were injured in motor vehicle traffic crashes, compared to 2.22 million 
in 2011. On average, nearly 4 lives were lost and nearly 270 people 
were injured on America's roadways every hour in 2012.
    The majority of the increase in deaths, 72 percent, occurred in the 
first quarter of the year. Most of this increase was due to increased 
fatalities involving drunk drivers, large trucks, unhelmeted 
motorcyclists, bicyclists and pedestrians. While this marks the first 
increase in fatalities since 2005, highway deaths over the past five 
years remain at historic lows. Fatalities in 2011 were at the lowest 
level since 1949, and the fatality rate in 2011 was the lowest ever 
recorded, at 1.10 deaths per 100 million vehicle miles traveled. Even 
with the increase in 2012, fatalities remained at levels not seen since 
1950. This steady progress is due in part to the safety standards 
implemented by NHTSA and the continuation of key behavioral and 
consumer information programs we conduct in conjunction with safety 
partners across the United States. Further, continued collaboration and 
coordination across the Department, with our partners in the Federal 
Highway Administration (FHWA), the Federal Motor Carrier Safety 
Administration (FMCSA) and the Federal Transit Administration (FTA), 
has allowed us to make additional inroads in improving highway safety. 
We are encouraged by preliminary estimates of crash fatalities for the 
first half of 2013, which indicate a 4.2 percent decrease in deaths 
compared to the same time-frame in 2012.
    The not-so-good news is that some groups are overrepresented when 
it comes to deaths and injuries. For example----

  <bullet> Fatalities among pedestrians and bicyclists increased by 
        over 6 percent. Pedestrian fatalities increased for the third 
        consecutive year to 4,743 lives lost (a 6.4 percent increase 
        over 2011). Bicyclist fatalities increased for the second 
        consecutive year and are the highest in 6 years with 726 lives 
        lost (a 6.5 percent increase over 2011).

  <bullet> Motorcycle rider fatalities increased for the third 
        consecutive year (a 7.1 percent increase over 2011).

  <bullet> Large-truck occupant fatalities increased for the third 
        consecutive year (an 8.9 percent increase over 2011).

  <bullet> Deaths in crashes involving drunk drivers increased 4.6 
        percent in 2012, taking 10,322 lives compared to 9,865 in 2011. 
        The majority of those crashes involved drivers with a blood 
        alcohol concentration (BAC) of 0.15 or higher--nearly double 
        the legal limit.

  <bullet> Nighttime seat belt use continues to be a challenge--in 
        nighttime crashes in 2012, almost two-thirds of the people that 
        died were unrestrained.

    In addition to this terrible human toll, highway crashes result in 
economic costs of approximately $277 billion annually, based on 2010 
data. And when the human toll is factored in as well, the cost to our 
Nation rises to $871 billion annually in economic loss and societal 
harm. Statistics like these indicate that we still have much work to 
do. I welcome the opportunity to talk about the GROW AMERICA Act, the 
President's proposal to reauthorize NHTSA's programs and address the 
safety challenges ahead. But first, I'd like to start with the agency's 
implementation of MAP-21.
MAP-21 Implementation
    MAP-21 consolidated various safety grant programs, including 
impaired driving, occupant protection, and State data grants, into a 
new Section 405 National Priority Safety Program, and added new grants 
for distracted driving, graduated driver licensing (GDL), and ignition 
interlock laws. This unified grant program provided for a single, 
consolidated application and annual deadline, easing the administrative 
burden on states and allowing them to focus their resources on the 
life-saving mission of traffic safety.
    MAP-21 has been a major priority for NHTSA and the Department. I am 
proud of how quickly NHTSA staff worked to implement key programs and 
get guidance out to the states. Less than two months after enactment, 
we issued a Notice of Funding Availability for the distracted driving 
grants, followed shortly thereafter by an interim final rule for the 
National Priority Safety Program grants. We conducted webinars with the 
State highway safety offices to walk them, step-by-step, through the 
new grant programs and the consolidated application process.
    As you know, one of the most important things a person can do to 
reduce the risk of death or injury on the road is to wear a seat belt. 
The most dramatic increases in seat belt use have been in the southern 
States, rising to 87 percent in 2013--up from 80 percent in 2011. Seat 
belt use continues to be higher in states that have primary belt laws, 
which permit law enforcement officers to issue citations solely for not 
wearing a seat belt without first requiring an officer to identify a 
separate traffic violation.
    In spite of this progress, motor vehicle traffic crashes continue 
to be a leading cause of death in the nation, exacting a terrible toll 
on the country, especially younger age groups. That is why programs 
such as GDL are so important, and I am pleased that Congress authorized 
incentive grants in MAP-21 to encourage more states to adopt such an 
approach for younger, inexperienced drivers.
    In establishing these programs to address graduated driver 
licensing, distracted driving, and ignition interlocks, Congress sought 
to incentivize states to pass and implement effective safety laws. The 
eligibility criteria for these grants are based on sound safety 
principles, but have proven challenging for many states to meet. In FY 
2013, 8 states received distracted driving grants, no state received a 
GDL grant, and 2 states received alcohol ignition interlock grants. In 
FY 2014, 1 state qualified for the stricter distracted driving grants 
available that year, none for a GDL grant, and 4 for ignition interlock 
grants. We are eager to improve on this record, while ensuring that we 
preserve the important safety benefits these programs were intended to 
accomplish. GROW AMERICA contains provisions designed to do that.
    On the vehicle safety side, NHTSA recently implemented a MAP-21 
provision to make information about recalls available on the internet, 
searchable by a vehicle's identification number or VIN. Until last 
month, consumers could find general recall information on the NHTSA 
website by vehicle make, model and model year. Now consumers can find 
out whether their own vehicle has an open recall just by typing in 
their VIN. The VIN look-up tool's ease of use will help consumers track 
recalls and respond quickly to any recall involving their vehicle. 
Already the tool has been enormously popular, receiving about 10,000 
``hits'' per day.
    Until MAP-21, the largest penalty NHTSA could assess for a single 
set of circumstances related to a defect or noncompliance was $17.35 
million. MAP-21 increased that amount to $35 million, and NHTSA used 
that new maximum this year in assessing a $35 million penalty against 
General Motors for its failure to report defects in ignition switches. 
Under the Obama administration, NHTSA has been aggressive in seeking 
civil penalties for timeliness issues, collecting more than $140 
million in penalties since 2010.
    MAP-21 also included a number of provisions focused on vehicle 
safety. In addition to the VIN look-up tool mentioned earlier, we 
issued a final rule requiring seat belts on motorcoaches. The agency 
has proposed a rule requiring that child safety seats be upgraded to 
provide better protection in side impact crashes. Many other rulemaking 
and research activities required by MAP-21 are underway.
    I'd like to turn now to a discussion of the GROW AMERICA Act, the 
President's reauthorization proposal.
Safety and the GROW AMERICA Act
    Safety is at the forefront of everything the Department does, and 
the provisions in the GROW AMERICA Act will enhance NHTSA's ability to 
improve safety. As many of the statistics noted earlier highlight, we 
have made tremendous progress, but significant work remains to be done. 
Therefore, the GROW AMERICA Act proposes a more than $7 billion 
investment over four years for safety programs across all surface 
transportation modes, including new infrastructure improvements that 
will advance safety.
Highway Safety Programs
    States are crucial partners in improving safety on our Nation's 
roadways. The GROW AMERICA Act seeks to foster enhanced State safety 
progress through enactment of effective drunk driving, distracted 
driving, and other key safety laws. GROW AMERICA does this by giving 
states additional funding and flexibility in meeting grant 
requirements. It allows the Department to be more engaged in motorcycle 
helmet policy discussions in states where statutory and policy 
proposals are considered.
    GROW AMERICA continues to support critical safety programs that 
have been the backbone of our success in highway safety, such as 
occupant protection and impaired driving, while providing needed 
adjustments to grant programs that originated in MAP-21--distracted 
driving, graduated driver licensing, and ignition interlock. It amends 
the criteria for these new grant programs to provide different pathways 
toward compliance, balancing the need to provide funds to the states to 
deploy important safety programs with the goal of fostering enactment 
of strong and effective safety laws. In addition, GROW AMERICA 
continues support for administering successful high visibility 
enforcement campaigns, such as ``Click It or Ticket'' and ``Drive Sober 
or Get Pulled Over'' as well as new campaigns like ``U Drive. U Text. U 
Pay''.
    In addition to this focus on our core highway safety grant 
programs, one of our priorities is to enhance efforts in support of 
pedestrian and bicycle safety. Americans are increasingly embracing a 
new approach to work and school commutes that includes less time behind 
the wheel and more time walking or cycling. Increased use of public 
transportation also means an increase in walking and bicycling to reach 
bus stops and train stations. Sadly, as more Americans are leaving 
their cars at home, we are also seeing an increase in deaths among 
pedestrians and bicyclists. As I noted earlier, pedestrian fatalities 
are up 6.4 percent over 2011, the third year in a row with an increase, 
and bicyclist fatalities are the highest in six years, up 6.5 percent 
over 2011. These are troubling statistics.
    We need to deploy new strategies to better protect Americans when 
they walk or ride bikes, and the GROW AMERICA Act does that. It 
requires states to spend NHTSA grant funds on bicycle and pedestrian 
safety if fatalities among these groups are elevated. DOT is putting 
the issue of pedestrian safety front and center, and this spring NHTSA 
awarded $1.6 million in new pedestrian safety grants to states with 
cities that have the highest rates of pedestrian deaths. We have a 
``Roll Model'' program that helps parents teach their young cyclists 
about safety and the rules of the road. We have joined with the Federal 
Highway Administration to launch ``Everyone is a Pedestrian,'' an 
education initiative and accompanying website with safety tips and 
resources for local leaders, city planners, and others involved in 
keeping pedestrians safe. Together with FHWA and FTA, we hosted a pilot 
biking and walking assessment in Ft. Worth Texas in preparation for the 
Secretary's initiative to improve non-motorized safety through work 
with our field offices and our stakeholders. Looking forward, we will 
continue to work closely with the other modal administrations on this 
initiative and are working to issue a national Action Plan. NHTSA also 
plans to work with the states to implement education and enforcement 
components of the Pedestrian Safety Action Plans.
    Older drivers are another ongoing area of focus for the agency. As 
the Baby Boomers age, research shows they are staying on the road 
longer than their predecessors and account for an increasingly large 
percentage of all drivers. While older drivers are safer drivers on 
average, they are often more frail than their younger counterparts, and 
more likely to suffer serious injury if involved in a crash. It is 
important that we continue to look for ways to mitigate the risks while 
maximizing the safe mobility of older citizens. The GROW AMERICA Act 
includes provisions for states to address older driver safety.
    Over the course of the GROW AMERICA Act, the Administration 
proposes to increase NHTSA grant funding to states by nearly 20 
percent. This additional funding is necessary to ensure that core 
highway safety issues, such as occupant protection and impaired 
driving, continue to be addressed, while also addressing growing issues 
such as pedestrian, bicyclist, and older driver safety.
    Spending Federal resources efficiently and effectively is a 
priority for the entire Department, and NHTSA takes this responsibility 
seriously in implementing our highway safety grant programs. To that 
end, we have hired new financial specialists to provide the agency with 
additional expertise, and we are working diligently to modernize the 
electronic infrastructure that tracks and provides accounting for the 
highway safety grant programs. This modernization will create a turnkey 
solution for the states and for NHTSA, encompassing the life cycle of 
the grant programs from application to financial oversight and 
reporting. These changes, many of which were identified in coordination 
with the States, will reduce the burden and increase the efficiency of 
grant application and monitoring processes.
Motor Vehicle Safety
    On the motor vehicle safety front, the GROW AMERICA Act will 
improve the safety of America's roadways by expanding our authority to 
protect consumers from vehicles and equipment with safety defects. The 
Act amends the agency's recall authority to require rental companies 
and used cars dealers to fix recalled vehicles and equipment before 
making them available to the public. There is no reason these entities 
should be allowed to pass along to consumers unremedied vehicles that 
have been recalled by the auto manufacturers. And in keeping with 
NHTSA's aggressive approach to adherence to the laws and regulations 
governing recalls, the GROW AMERICA Act will further increase the limit 
for civil penalties, from MAP-21 level of $35 million to $300 million, 
to hold companies accountable for vehicle safety defects and 
noncompliance. The GROW AMERICA Act will give NHTSA imminent hazard 
authority to allow the agency to respond quickly to remove hazardous 
vehicles and equipment from the market. And, while recent advances in 
vehicle automation, including electronic steering, braking, and 
throttle systems provide great promise for improving safety, we must 
think ahead to protect these systems from tampering. The GROW AMERICA 
Act does this by ensuring the agency's ability to seek enforcement 
actions against persons who tamper remotely with electronic control 
systems. Together, these changes provide valuable enhancements to the 
tools in the agency's safety arsenal.
    NHTSA's vehicle safety program has many facets, and reauthorization 
of those programs at the levels proposed in the GROW AMERICA Act will 
help us advance in many areas. As an upcoming study will demonstrate, 
vehicle technology improvements have led to dramatic improvements in 
vehicle safety from 1960 through 2012. Now, we see the potential to 
significantly reduce the number of crashes, deaths, and injuries on our 
Nation's highways through automated and vehicle-to-vehicle 
communication technology. Although realizing these benefits will take 
time, new technologies may shrink the death toll to a fraction of 
recent levels. We are pouring energy and resources into this area to 
ensure NHTSA plays a leading role in the emergence of these promising 
new technologies.
    We recently issued an Advance Notice of Proposed Rulemaking that 
may lead to implementation of vehicle-to-vehicle (V2V) communications 
in the Nation's light vehicle fleet, based in part on the data 
collected as part of the Intelligent Transportation Systems (ITS) 
Connected Vehicle Safety Pilot in Ann Arbor, MI. V2V provides the 
potential to address a large majority of vehicle crashes by giving 
drivers pre-crash warnings of possible collisions. V2V will also enable 
vehicle-to-infrastructure (V2I) applications, which may provide 
additional safety and mobility benefits and vehicle-to-pedestrian (V2P) 
applications, which will provide added warnings for vehicles and 
pedestrians. Additional data collected as part of the Safety Pilot 
along with other research efforts will be used to make an agency 
decision in coming months as to pathways to advance market penetration 
of V2V technology in heavy vehicles.
    Our research on crash avoidance technologies (including self-
driving vehicles) continues in collaboration with our State and 
industry partners, and we will soon make a decision as to pathways to 
advance market penetration of one of those technologies, automatic 
emergency braking, into the fleet.. We are also in the midst of a 
significant upgrade to our crash data collection systems and the 
underlying IT system. Also, working with EPA, we will issue a proposed 
rule to enhance the fuel efficiency/greenhouse gas reduction standards 
applicable to medium and heavy vehicles.
    The GROW AMERICA Act supports all of these activities, which will 
save lives, enhance mobility, and improve the environment.
Recalls
    I would like to take a moment to address an issue that I am sure is 
of interest to this Committee, and that is a matter of great importance 
to the agency--the status of the General Motors ignition switch recall. 
We have approached the recall from three perspectives: ensuring that 
the recall is completed expeditiously to protect the motoring public; 
holding GM accountable for its failure to give timely notice of the 
problem and ensuring that GM improves this process for current and new 
safety issues they encounter; and looking for lessons learned that the 
agency can apply to its defects investigation program.
    We have been closely monitoring GM to ensure that the recalled 
vehicles are remedied as quickly as possible and that the public is 
given correct information. I would like to thank Senator Boxer's staff 
for bringing to light an issue with the GM recall website that resulted 
in consumers erroneously being told their vehicle was not under recall 
if the parts necessary to remedy the vehicle were not yet available. We 
demanded that GM correct that issue immediately. We will continue our 
efforts and vigilance to ensure that this recall is completed in an 
efficient and timely fashion.
    GM clearly had information available that should have prompted the 
company to announce the recall much sooner than it did. We collected 
the maximum civil penalty of $35 million from GM for its failure to 
meet its timeliness obligations. The company also had a fundamentally 
flawed process and culture, requiring wide-ranging internal changes to 
improve its ability to address potential safety-related defects. So, we 
also entered into a consent order with the company that provides for 
our very close oversight of its defects investigation and recall 
process for some time. We are exercising that oversight vigorously and 
will continue to work to ensure that the changes the company has made 
this year and those they continue to make are effective and lasting.
    We have also looked very closely at the events leading up to and 
following the GM recall to determine how we might improve the agency's 
process and increase automaker compliance with the law. For example, 
based on our new understanding of the relationship between ignition 
switch position and airbag deployment, dialogue and new investigations 
have led to additional recalls at GM and other car companies.
    Further, we are now working to enhance communication with 
manufacturers and suppliers, and within our own organization, on the 
potential for unforeseen consequences of interrelationships between 
vehicle systems and on other factors that can delay or obstruct quick 
action on safety defects. We are also now requiring similar oversight 
of manufacturers who fail to meet their timeliness obligations.
    The safety recall system established by Congress works most 
effectively when manufacturers make safety their top priority, root out 
safety problems at the earliest possible opportunity, and timely inform 
the agency. Further, while every company has the right to challenge our 
conclusions about defects, when NHTSA raises serious safety issues with 
automakers, it is critical for them to work with us to quickly ensure 
the safety of their customers. In recent weeks, I have communicated 
these expectations directly to senior representatives of all major 
vehicle manufacturers as the agency works to establish a new normal 
when it comes to how all automakers deal with safety recalls.
    To ensure that NHTSA and its Office of Defects Investigation (ODI) 
can continue to monitor this vast industry effectively, we have asked 
for additional resources, such as more personnel. In the President's 
Fiscal Year (FY) 2015 Budget, NHTSA requested six additional FTEs for 
ODI. Clearly, investigating defects is important to all highway users, 
as is evident from the recent recalls of Toyota and General Motors 
vehicles. To increase the effectiveness of ODI's work, we believe that 
the following steps are necessary: enhance ODI's ability to use the 
latest technology to help identify possible safety defects; increase 
the public's awareness of reporting safety problems to NHTSA; and 
provide ODI with the personnel resources to address potential safety 
risks.
    With over 250 million registered vehicles in the U.S., the data 
collection and analysis burden will only continue to grow and we look 
forward to working with Congress to ensure that NHTSA has additional 
resources to fulfill its safety responsibilities and respond 
effectively to emerging safety issues through these activities.
Conclusion
    We at the National Highway Traffic Safety Administration are 
dedicated to our mission of safety. We will work with this Committee to 
strengthen these efforts in a comprehensive reauthorization plan.
    Thank you again for inviting me to testify, and I am happy to take 
any questions that you may have.

    Senator McCaskill. Thank you, Mr. Friedman. Mr. Come?

         STATEMENT OF JOSEPH W. COME, DEPUTY PRINCIPAL

          ASSISTANT INSPECTOR GENERAL FOR AUDITING AND

         EVALUATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Come. Chairman McCaskill, Ranking Member Heller, and 
members of the Subcommittee, thank you for inviting me to 
testify on our recent and ongoing work on NHTSA's oversight of 
vehicle safety defects and highway safety grants. My testimony 
today will focus on NHTSA's efforts to identify and secure an 
effective vehicle safety workforce and enhance its grant 
oversight.
    We testified before the Subcommittee last April on actions 
we recommended NHTSA take in 2011 to improve its processes for 
identifying safety defects. NHTSA has addressed nine of our ten 
prior recommendations, including establishing a process for 
documenting consumer complaint reviews. However, NHTSA has not 
fully addressed a critical recommendation to conduct a 
workforce assessment. This assessment would help the Agency 
identify and secure a vehicle safety workforce which has the 
right mix of skills for addressing technology advancements in 
the automotive industry.
    Although NHTSA has developed a new workforce training plan 
and obtained a draft workforce assessment, NHTSA officials say 
a final workforce assessment will not be available until 
November. In addition, new concerns have prompted our office to 
launch another audit of the Agency's oversight of vehicle 
safety defects.
    In March, Secretary Foxx asked us to undertake a review of 
NHTSA's safety functions and processes as it related to the 
recent GM recalls. Expanding on our prior work, we are focusing 
on NHTSA's pre-investigation process, which involves the 
screening of consumer complaints, external manufacturer 
communications, and other information related to alleged safety 
defects.
    As part of our ongoing audit, we are also determining if 
information on ignition switch issues or non-deploying airbags 
was available to NHTSA but not used in the GM defect analysis. 
We plan to issue our final report next spring.
    In addition to identifying vehicle safety defects, NHTSA 
promotes vehicle safety through highway safety grant programs, 
such as those that target alcohol-impaired driving. Last month, 
we reported that NHTSA's grantees we reviewed generally met key 
Federal requirements when spending highway safety grants. 
Specifically, our review of one of NHTSA's regional offices 
determined that grantees used grant funds for appropriate 
purposes and supported transactions with sufficient 
documentation.
    However, NHTSA lacks sufficient strategies for addressing 
delayed expenditures of grant funds. We identified 
approximately $539 million in unexpended funds across all 
regional offices between Fiscal Years 2006 and 2012. These 
unused funds represent potential loss through delayed 
opportunities to fund programs that reduce fatalities, 
injuries, and property damage.
    NHTSA also needs to improve tracking mechanisms to follow 
up on grantee deficiencies. The regional office we reviewed 
conducted management reviews of all its state highway safety 
grant programs and identified deficiencies ranging from 
improper use of funds to lack of monitoring plans. However, the 
office closed some findings and recommendations without 
sufficient documentation of corrective actions or management 
approval.
    Overall, NHTSA lacks a standardized mechanism for tracking 
deficiencies across all regional offices, although they have 
committed to developing a new database for doing that in 2015.
    Finally, we will continue to monitor NHTSA's efforts to 
provide effective oversight of auto manufacturers and highway 
safety grants to better ensure timely recalls of vehicles with 
defects and the most efficient use of safety grants.
    In our ongoing work on the GM recalls, we will carry out 
the commitment made to you in April by the Inspector General to 
determine what NHTSA knew of this safety defect, when it knew 
it, and what actions NHTSA took to address it. In addition, we 
will also identify any needed recommendations for improvement.
    Chairman McCaskill, this concludes my prepared statement. 
I'll be happy to answer any questions you or other members of 
the Subcommittee may have.
    [The prepared statement of Mr. Come follows:]

   Preprared Statement of Joseph W. Come, Deputy Principal Assistant 
   Inspector General for Auditing and Evaluation, U.S. Department of 
                             Transportation
    Chairman McCaskill, Ranking Member Heller, and Members of the 
Subcommittee:

    Thank you for inviting me to testify on our recent and ongoing work 
on the National Highway Traffic Safety Administration's (NHTSA) 
oversight of vehicle safety defects and highway safety grants. NHTSA 
administers highway safety and consumer programs intended to save 
lives, prevent injuries, and reduce economic costs resulting from motor 
vehicle crashes. In 2012, motor vehicle fatalities in the United States 
totaled 33,561. To carry out its broad safety mission, NHTSA has a wide 
variety of responsibilities--ranging from overseeing the automobile 
industry's efforts to manufacture cars that are free of defects to 
providing and overseeing grants to states and localities that fund 
initiatives to mitigate safety risks on the Nation's highways.
    My testimony today will focus on NHTSA's efforts to identify and 
secure an effective defects workforce to oversee automobile safety and 
enhance its oversight of highway safety grants.
In Summary

  <bullet> NHTSA's Office of Defects Investigation (ODI) has made 
        progress in strengthening its investigative processes but has 
        not completed a workforce assessment.

  <bullet> Ongoing vehicle safety concerns--particularly those related 
        to General Motors' (GM) recalls--prompt further assessment of 
        NHTSA's vehicle safety defect processes.

  <bullet> Enhanced monitoring tools are needed to improve NHTSA's 
        oversight of highway safety grants.
Background
    The National Traffic and Motor Vehicle Safety Act authorizes NHTSA 
to issue vehicle safety standards and to require manufacturers to 
recall vehicles and equipment that have safety-related defects or that 
do not meet Federal safety standards. ODI conducts tests, inspections, 
and investigations to identify safety defects in motor vehicles and 
equipment. Based on its findings, NHTSA can require manufacturer 
recalls notifying the public and correcting the defects. When 
conducting investigations, ODI can request that manufacturers provide 
data on complaints, injuries, warranty claims, modifications, parts 
sales, and other items.
    In 2011, we reported weaknesses in NHTSA's vehicle defect 
identification processes. Specifically, ODI needed to improve its 
processes for (1) recommending investigations of potential defects, (2) 
determining when to use third-party assistance, (3) documenting 
investigation information, and (4) ensuring an adequate and well-
trained workforce. In response to our recommendations, NHTSA has 
implemented more robust defect investigation processes such as 
developing a framework for obtaining third-party testing and preparing 
a checklist to enhance documentation of investigative evidence.
    The Moving Ahead for Progress in the 21st Century Act (MAP-21) 
authorized about $1.3 billion to fund highway safety formula and 
incentive grants for Fiscal Years 2013 and 2014. States distribute 
these grants to a wide network of sub-grantees nationwide. NHTSA's 
regional offices monitor States' and sub-grantees' use of grant funds, 
such as conducting triennial management reviews and ongoing oversight.
ODI Has Made Progress In Strengthening Its Investigative Processes But 
        Has Not Completed A Workforce Assessment
    As we reported in 2011 and testified before this committee in April 
2014, ODI lacked the processes needed to ensure that manufacturers 
recall vehicles and equipment with safety-related defects in a timely 
manner.\1\ Notably, ODI's central database for safety defect 
information did not track the disposition of consumer complaints. These 
complaints are ODI's primary means for determining whether an 
investigation is warranted. We identified similar weakness in ODI's 
processes for determining when to use third-party assistance, 
documenting investigation information, and assessing workforce needs.
---------------------------------------------------------------------------
    \1\ Process Improvements Are Needed for Identifying and Addressing 
Vehicle Safety Defects (OIG Report Number MH-2012-001), Oct. 6, 2011. 
OIG reports are available on our website at http://www.oig.dot.gov.
---------------------------------------------------------------------------
    ODI has addressed 9 of our 10 recommendations for enhancing these 
processes (see attachment). However, it has not completed a systematic 
workforce assessment, as called for in the Department of 
Transportation's (DOT) ``Workforce Planning Guide.'' \2\ As we 
reported, conducting a comprehensive workforce assessment would enable 
ODI to determine the number of staff and specialized skills needed to 
ensure manufacturers recall vehicles and equipment with safety-related 
defects in a timely manner.
---------------------------------------------------------------------------
    \2\ DOT's ``Workforce Planning Guide'' provides information on 
assessing staffing needs for DOT Operating Administrations that can 
facilitate more efficient and accurate alignment of the workforce to 
meet organizational goals, commitments, and priorities.
---------------------------------------------------------------------------
    Since 2011, ODI has taken some action to analyze its workforce 
needs including preparing a statement of work, identifying a 
contractor, and obtaining a draft assessment. However, ODI staff 
recently told us that the final workforce assessment will not be 
available until November 14, 2014.
Ongoing Vehicle Safety Concerns Prompt Further AssessmentS of ODI's 
        Processes
    Despite NHTSA's progress in improving its processes for identifying 
vehicle safety defects, concerns remain--particularly in light of the 
recent GM recalls. Since February 2014, GM has recalled 8.6 million 
vehicles sold in the United States related to a possible defective 
ignition switch that can cause the engine to shut down and disable 
power steering, power brakes, and airbags. Initially, GM's recall was 
limited to about 600,000 vehicles manufactured between 2005 and 2007, 
but eventually expanded to a total of four separate recalls impacting 
vehicles manufactured between 1997 and 2014.
    In March 2014, the Secretary of Transportation asked us to 
undertake a review of NHTSA's safety functions and processes related to 
the GM recalls. Expanding on our prior work, we are drilling down on 
NHTSA's pre-investigation process. During the pre-investigation phase, 
ODI's Defect Assessment Division screens consumer complaints, external 
manufacturer communications, and other information related to alleged 
safety defects (see figure). The information helps ODI determine 
whether to take actions, such as opening investigations or evaluating 
the adequacy of safety recalls.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Source: OIG analysis of ODI processes

    A critical part of the pre-investigation phase involves 
manufacturers' early warning reporting to alert the Defect Assessment 
Division of potential risks or issues. As the Inspector General 
testified in April 2014, NHTSA cannot do its job effectively if auto 
manufacturers withhold critical safety information--as we found to be 
the case with the Toyota Motor Company.\3\ Upon showing that a 
manufacturer withheld such information, NHTSA, the Department, and in 
appropriate circumstances, our law enforcement and Federal 
prosecutorial partners can seek sanctions against these companies for 
withholding such information. In May 2014, NHTSA assessed a $35 million 
civil penalty--the statutory limit--against GM for failing to report 
the defective ignition switch in a timely manner.
---------------------------------------------------------------------------
    \3\ Toyota admitted that it concealed and made deceptive statements 
about safety issues affecting its vehicles, misleading U.S. consumers 
and NHTSA. Toyota was charged with wire fraud for providing the 
misleading information and forfeited $1.2 billion.
---------------------------------------------------------------------------
    As part of our ongoing audit, we are determining if information on 
ignition switch issues or non-deploying airbags was available to NHTSA 
but not used in the GM defect analysis.\4\ We plan to issue our final 
report next spring.
---------------------------------------------------------------------------
    \4\ As part of our review, we are also determining whether NHTSA 
has effectively implemented its enhanced processes for identifying and 
addressing vehicle safety defects.
---------------------------------------------------------------------------
Enhanced Monitoring Tools Are Needed to Improve Nhtsa's Oversight of 
        Highway Safety Grants
    In addition to identifying and addressing vehicle safety defects, 
NHTSA promotes vehicle safety through administration and oversight of 
highway safety grants to states and sub-recipients. In August 2014, we 
reported that NHTSA grantees generally met key Federal grant 
requirements, but NHTSA lacks strategies for addressing delayed 
expenditures of grant funds, tracking mechanisms for following up on 
grantee deficiencies, or tools to identify and mitigate systemic 
nationwide issues.\5\
---------------------------------------------------------------------------
    \5\ Enhanced Monitoring Tools Are Needed To Improve NHTSA's 
Oversight of Highway Safety Grants (OIG Report Number MH-2014-088), 
Aug. 21, 2014.
---------------------------------------------------------------------------
    We focused on NHTSA's Region 5 office,\6\ which we randomly 
selected from NHTSA's 10 regional offices. Where appropriate, we 
identified vulnerabilities that applied across the Agency, including a 
lack of guidance and monitoring mechanisms.
---------------------------------------------------------------------------
    \6\ Region 5 includes Indiana, Illinois, Michigan, Minnesota, Ohio, 
and Wisconsin.
---------------------------------------------------------------------------
    NHTSA grantees we reviewed generally met key Federal grant 
requirements. Our sample review of 66 grant expenditures (totaling $5.7 
million) by Region 5 states and their sub-grantees for Fiscal Years 
2011 to 2012 did not identify significant lapses in the Region's 
oversight. Our review of Region 5 grantees determined that each 
transaction (1) met funding parameters of the grant programs, (2) were 
charged to appropriate grant funding codes, and (3) were supported by 
sufficient documentation. For example, we verified two Fiscal Year 2012 
expenditures by Indiana University's Automotive Safety Program for 
$130,996 and $98,950. These two expenditures were made under an 
$850,000 occupant protection program grant agreement, which provided 
funds for child passenger safety programs. We also confirmed that 
states met Federal grant administrative requirements. For example, we 
verified that grantees complied with requirements for indirect costs, 
such as rent and motor pools, which were charged to Federal grants.
    However, NHTSA lacks an overall strategy for addressing persistent 
delays in grantees' use of grant funds--a shortcoming that affects all 
regional offices. For Fiscal Years 2006 through 2012, we identified 
approximately $539 million in unexpended funds across all regional 
offices. For Region 5 alone, the amount of unexpended funds was nearly 
$67 million (or about 12 percent of the national total). Unused safety 
grant funds represent potential lost or delayed opportunities to fund 
programs that reduce fatalities, injuries, and property damage. 
Although Region 5 has taken some action to encourage states to 
liquidate these balances, NHTSA has not developed sufficient strategies 
to better ensure that states use grant funds in a timely manner--such 
as developing individual funding liquidation plans for each State with 
specific targets and mitigation strategies.
    In addition, NHTSA does not sufficiently track grantee deficiencies 
identified in its triennial management reviews of grantees. From Fiscal 
Years 2010 through 2012, NHTSA's Region 5 officials conducted 
congressionally mandated triennial management reviews of all six of its 
State grant programs. These reviews identified deficiencies, such as 
improper use of funds and a lack of monitoring plans. However, some 
findings and recommendations were closed without sufficient 
documentation. Weaknesses ranged from NHTSA not maintaining 
documentation to states not providing sufficient documentation to 
support closing a recommendation. For example, Region 5 officials 
closed 7 of 9 findings and 16 of 25 non-binding recommendations made in 
the triennial management reviews but could not provide sufficient 
documentation of States' actions to justify closing three of the 
findings and recommendations. Region 5 also lacked documentation of 
management's approval for closing recommendations. NHTSA's guidance and 
procedures, which apply to all regional offices, do not require 
documentation and management approval for key actions related to the 
disposition of grantee deficiencies. In our view, improved 
documentation would provide greater assurance that states are fixing 
identified issues.
    Finally, NHTSA lacks a standardized mechanism for tracking the 
disposition of grantee deficiencies across all regional offices, which 
would allow the Agency to identify and mitigate systemic issues on a 
national level. In 2008, we recommended that NHTSA implement an 
electronic tracking system for monitoring the disposition of oversight 
recommendations to states in order to efficiently share findings, 
follow up on unresolved recommendations, and enhance quality 
control.\7\ In response to our recommendation, NHTSA agreed to 
implement a spreadsheet tool to track the deficiencies agencywide. 
However, during our recently completed audit, we identified weaknesses 
in NHTSA's implementation of the spreadsheet. Notably, the spreadsheet 
is not directly linked to regional offices for real-time updates, and 
it lacks features to uniformly identify, classify, compare, track, 
mitigate, and report on systemic or recurrent grantee deficiencies. 
NHTSA committed to addressing these weaknesses by developing a database 
in 2015 that will allow users to track NHTSA's findings until 
resolution; conduct queries and analyses to determine State, regional, 
and national trends; and produce management reports.
---------------------------------------------------------------------------
    \7\ Best Practices For Improving Oversight of State Highway Safety 
Programs (OIG Report Number MH-2008-046), Mar. 25, 2008.
---------------------------------------------------------------------------
    NHTSA generally concurred with the four recommendations in our 
August 2014 report to improve its stewardship and oversight of Federal 
grant funds. We will continue to monitor NHTSA's implementation of our 
recommendations as needed to ensure that NHTSA improves its grant 
guidance and monitoring tools for greater assurance that states and 
sub-grantees are using Federal resources in a timely and appropriate 
manner.
    Overall, NHTSA has made progress in strengthening its defect 
investigation processes and ensuring that its grantees meet key Federal 
grant requirements. However, successfully implementing its enhanced 
processes, completing the workforce assessment, identifying and 
securing an adequate workforce, and enhancing grant oversight are key 
for NHTSA to carry out its broad safety mission.
    Chairman McCaskill, this concludes my prepared statement. I will be 
happy to answer any questions you or other members of the Subcommittee 
may have.
                               Attachment

      Status of 2011 OIG Recommendations for NHTSA's Vehicle Defect
                         Investigation Processes
------------------------------------------------------------------------
      Recommendation            Status              Actions Taken
------------------------------------------------------------------------
1. Revise the pre-         Closed           ODI provided documentation
 investigation processes   June 19, 2012     demonstrating that:
 to ensure that the                         <bullet> Artemis tracks
 review of each complaint                    complaint reviews (who and
 is recorded and that                        when),
 complaints are tracked                     <bullet> all relevant
 to associated                               complaint numbers are
 investigations in                           included in the resume for
 Artemis.                                    each phase of an
                                             investigation, and
                                            <bullet> investigation
                                             process documents have been
                                             updated to reflect these
                                             policy changes.
------------------------------------------------------------------------
2. Establish pre-          Closed           ODI provided documentation
 investigation processes   Dec. 5, 2012      demonstrating that a
 for retaining and                           process for using a case
 storing pre-                                management system had been
 investigation records,                      established to maintain pre-
 such as investigation                       investigation data.
 proposals and insurance
 company data.
------------------------------------------------------------------------
3. Require that decisions  Closed           ODI provided documentation
 made and actions taken    Dec. 5, 2012      demonstrating that:
 by ODI Defect Assessment                   <bullet> Defects Assessment
 Panels are recorded,                        Panel minutes are added to
 including justifications                    a standardized form and
 for not proceeding to                       uploaded to the repository
 investigations.                             for the relevant issue
                                             evaluation (IE),
                                            <bullet> IEs that do not
                                             proceed to investigation
                                             are marked with one of two
                                             codes: ``minimal hazard
                                             indicated'' or ``no
                                             actionable trend
                                             indicated,'' and
                                            <bullet> specifics
                                             concerning panel dates and
                                             IE dispositions are
                                             recorded in Artemis
                                             annotations for the
                                             appropriate IEs. These data
                                             can be analyzed and
                                             presented in report form.
------------------------------------------------------------------------
4. Establish systematic    Closed           ODI provided revised office
 processes for             Mar. 27, 2012     procedures including a
 determining when a third                    framework for obtaining
 party or the Vehicle                        third-party resources.
 Research Test Center
 should be used to verify
 manufacturer information
 or assist in identifying
 a potential defect.
------------------------------------------------------------------------
5. Revise the ODI          Closed           ODI established processes
 investigation process to  Mar. 27, 2012     for justifying and
 require justifications                      documenting investigations
 for continuing or                           that exceed timeliness
 closing investigations                      goals.
 that exceed timeliness
 goals for preliminary
 evaluations and
 engineering analyses.
------------------------------------------------------------------------
6. Revise the ODI          Closed           ODI provided documentation
 investigation process to  Mar. 1, 2013      that it developed an
 establish criteria for                      ``Investigation
 documenting evidence,                       Documentation Checklist.''
 such as associated                          This checklist is a process
 complaints, meetings                        for documenting evidence
 with manufacturers and                      collected by the ODI
 other stakeholders, and                     investigators--including
 third-party analysis or                     consumer complaints,
 testing conducted.                          meetings with manufacturers
                                             and third parties, and
                                             testing.
------------------------------------------------------------------------
7. Strengthen ODI's        Closed           ODI issued a revised
 redaction policy and      Oct. 13, 2011     redaction policy in August
 process to better                           2011.
 protect consumers'
 personal information
 from public
 availability, such as by
 using automated
 redaction software.
------------------------------------------------------------------------
8. Conduct a workforce     Open             ODI estimates that it will
 assessment to determine                     complete its workforce
 the number of staff                         assessment by November 14,
 required to ensure that                     2014.
 ODI meets its objectives
 and determines the most
 effective mix of staff.
------------------------------------------------------------------------
9. Develop a formal        Closed           ODI provided a copy of its
 training program to       May 29, 2013      new training plan.
 assist ODI staff in                         According to NHTSA
 acquiring knowledge and                     officials, this plan will
 staying abreast of ODI                      assist ODI in the
 processes and current                       development of its current
 and new automobile                          and future workforce;
 technologies.                               ensure the continuity of
                                             institutional knowledge;
                                             and ensure that
                                             investigators and other ODI
                                             staff become proficient in
                                             new automotive,
                                             investigative, and vehicle
                                             safety technologies.
------------------------------------------------------------------------
10. Develop and implement  Closed           ODI stated that it planned
 a strategy for            Oct. 13, 2011     to form an informal working
 increasing coordination                     group to discuss issues of
 with foreign countries                      mutual interest to the
 to enhance ODI's ability                    international enforcement
 to identify safety                          community. NHTSA would
 defects and to exchange                     chair the group, and the
 information on foreign                      group would meet twice a
 recalls.                                    year--with the first
                                             meeting taking place on
                                             November 17, 2011.
------------------------------------------------------------------------
Source: OIG analysis of NHTSA documentation


    Senator McCaskill. Thank you. Mr. Friedman, let's start 
with what I was most--there were a lot of things I was 
concerned about as I prepared for this hearing, but one of the 
things that was most concerning to me was the issue of a 
question being asked of the manufacturers, what caused this 
accident when there had been a death and the notion that this 
was an optional answer.
    Now, I know you've only been there a year and a half--a 
little less than a year and a half--and you've only been in 
charge since January, but can you briefly give us some 
reassurance as how in the world the regulators in charge of 
investigating deadly defects would say the cause of an accident 
is an optional question.
    Mr. Friedman. My understanding of the history of this issue 
is that in 2006, under the Bush Administration, that question 
was made optional in an attempt to encourage auto makers to 
volunteer more information that wouldn't necessarily be subject 
to confidential business information.
    Once I found out about this issue, and discussed with my 
staff the history of it, and discussed with them the fact that 
it hasn't seemed to have helped elucidate more information from 
the auto makers, I've had that practice stopped. So going 
forward with the next batch of requests from the industry, that 
will no longer be an optional question. I agree with you that 
it should not be optional.
    Senator McCaskill. Well, you understand that that reflects 
on a culture that is frightening, frankly.
    You know, I--it's not a secret I come from a background of 
being a prosecutor, and when you want to get to the truth and 
you want to find out what happened, if you make the answers to 
questions optional, that's a journey that is never going to be 
successful.
    So let me ask you this question. How--and I think you have 
evaded answering this a number of times, and I need a very 
straight--I don't want to hear how many times you've requested 
information. I don't want to hear how many times you've asked 
for information and gotten it. I want to know how many times--
since the last time you were here you were not aware of your 
subpoena power--I want to know how many times NHTSA has 
exercised its subpoena power in the last decade.
    Mr. Friedman. Well, Senator, some of the confusion from the 
last time we discussed this was that NHTSA is exercising our 
power to compel answers from car companies all the time, in 
every single one of the----
    Senator McCaskill. I know that. I want to know how many 
times you've issued a subpoena. You have the power to issue a 
subpoena. I want to know how many times you issued a subpoena, 
not how many times you've compelled information or used another 
method to get information.
    I want to know how many times that you've reached a dead 
end and not gotten the information that you need to know in 
order to figure out a safety defect. How many times has a 
legally binding subpoena been issued by NHTSA?
    Mr. Friedman. Senator, it's my understanding that each time 
we compel them to answer these questions that it is a legally 
binding subpoena.
    Senator McCaskill. OK. So you are not--do you have a lawyer 
here?
    Mr. Friedman. Yes.
    Senator McCaskill. OK. And is the lawyer saying that when 
you say we want you to give us this information and we will 
compel it that that's a subpoena, but you've never gotten to a 
subpoena? Because, you know, a subpoena is a discreet legal 
document. It is not something that--kind of like a subpoena or 
maybe it's a subpoena.
    I can assure you that when a corporation gets a subpoena 
from a Federal regulator, it is treated differently than a 
request for information. That's what I'm trying to get at.
    So your lawyers are telling you that there's no difference 
between your request for information and a legally binding 
subpoena?
    Mr. Friedman. My understanding is that those questions, 
when we issue them, are enforceable in court. We can go after 
the companies for fines if they fail to answer, that we have 
the full authority to force them to answer all of those 
questions if they fail to----
    Senator McCaskill. How many times have you been to court 
for someone to answer a question?
    Mr. Friedman. I don't know that we've done that in the 
last--certainly 20 or 30 years, because we haven't had to, and 
I think that's the power of what we do. We put the companies in 
a position where they understand, if they fail to answer those 
questions, there will be consequences, and so they provide us 
with the answers.
    I consider that a very important tool that we're able to 
get those answers, rather than have to be tied up in court 
before they will give them to us.
    Senator McCaskill. I understand the point you're making. It 
rings slightly hollow when the most important question was 
considered optional by your agency. That reflects, obviously, 
on an agency that is perhaps more interested in singing kumbaya 
with the manufacturers than being a cop on the beat.
    Mr. Friedman. Well, as I noted, I don't agree with that 
practice. I've had that practice changed. My understanding of 
the cultural decision and the concept behind that decision was 
that it was an attempt to provide manufacturers with a way to 
provide us information that wouldn't be so protected by 
confidential--or was easier to protect confidential business 
information so that it would come into our hands.
    Every time, our goal is to get all the information from the 
industry and--so that we can find and get these problems fixed. 
In that case, the decision was made or the assumption was made 
that we could get more information by making it optional. That 
assumption turned out to be wrong, and I've changed it upon 
finding out about that.
    Senator McCaskill. OK. So let me ask you this quickly, can 
you quickly--and we'll have another round, so I'll have a 
chance to ask other questions after all my colleagues have 
questioned, but can you quickly synthesize how 2,000 consumer 
complaints for the same defect could come into your agency and 
that the answer, in every instance, is there is not enough 
information to open an investigation?
    Mr. Friedman. Senator, the information in that article is 
very misleading. First of all, those 2,000 complaints tended to 
be associated with stalling. They were not necessarily 
associated with this specific defect.
    Senator McCaskill. But this defect caused stalling.
    Mr. Friedman. The New York Times looked through this data, 
and they came up with that number, but that number was not----
    Senator McCaskill. What number have you come up with?
    Mr. Friedman. We have come up with a lower number.
    Senator McCaskill. What is it?
    Mr. Friedman. In the three to four hundred range across a 
variety of different items. But even in that case, what you're 
talking about is an incident rate that is a few thousandths of 
a percent. It was not a very large signal in comparison to the 
stalls that we were seeing in other cases.
    And we have aggressively pursued stalling cases with 31 
recalls on stalling over the last decade, 42 investigations. 
When we find the data that indicates that there is a defect or 
a defect trend, we have followed it.
    In this case, we had critical information that was missing 
that indicated how hazardous this was. GM never provided that 
information to us.
    Senator McCaskill. I understand, and I agree with my 
colleague that GM is primarily at fault here, but I'll follow 
up on some of that in my next round.
    Senator Heller.
    Senator Heller. Thank you, Madam Chairwoman. Mr. Friedman, 
I want to talk about traffic safety grants for just a minute.
    As I mentioned, Nevada's goal is zero fatalities on the 
road, and I'm assuming that Missouri has similar goals. And 
yet, I'm guessing that there are two--these are two states that 
have a lot in common, but they may have critical areas that 
they differ in that need attention.
    I was looking at your overall budget of $981 million. $643 
million of NHTSA's overall budget went to the highway traffic 
safety funding, is that accurate?
    Mr. Friedman. Yes. That's a combination of our budget and 
transfer monies from the Federal Highway Administration.
    Senator Heller. OK. Do you agree that the funding needs to 
be as flexible as possible to address different states specific 
needs?
    Mr. Friedman. Ranking Member, I agree that flexibility is 
incredibly important, and the way Congress has designed these 
grant programs is, there is a pot of two different grants. One 
set of grants is very flexible, and we work very closely with 
the states on their highway safety plans that help guide how 
they spend that money. Then Congress has also set aside a 
separate group of grants that are very specifically designed to 
try to encourage states to set a high bar and put strong laws 
in place that we know can protect consumers from serious 
traffic safety problems.
    Senator Heller. Here's my concern, and I appreciate the 
answer to that question, if these grants are too prescriptive, 
my concern is that for Nevada--it will lead to Nevada opting 
out for applying to some of these grants. Is that a reasonable 
concern that I should have?
    Mr. Friedman. Well, Senator, in the GROW AMERICA Act, one 
of the things that we've proposed for several of these grants 
is to maintain what I would call kind of the platinum level 
grant, the level of grant and the level of requirements that 
will ensure that states implement programs that will save the 
most lives possible.
    But we've also proposed the system where there would grants 
with somewhat fewer requirements that could help encourage 
states to incrementally move toward that platinum level of 
safety that I think we all agree that we need.
    Senator Heller. OK. Mr. Come, you wrote that NHTSA cannot 
do its job effectively if auto manufacturers withhold critical 
safety information, and I agree with that. In this case, GM 
withheld safety information, but it was because they were 
incompetent, not because they were nefarious.
    Recently, as I mentioned in my opening statement, House 
Republicans have issued a report this morning stating that 
NHTSA did not hold itself to the same standard in which they 
hold companies that they regulate. Will your audit address 
this?
    Mr. Come. Our audit will address--excuse me--our audit will 
address the full range of activities NHTSA is undertaking to 
manage and analyze the data they receive. So yes, it will 
address the question of whether they're adequately establishing 
standards for analyzing that information and policies, whether 
they're following those policies, whether they're enforcing 
non-compliance on the part of manufacturers with responding to 
that information, and whether they're accurately--you know, 
getting accurate and complete information.
    Senator Heller. OK.
    Mr. Friedman. Ranking Member, if I may?
    Senator Heller. Yes, please.
    Mr. Friedman. I just want to be clear that NHTSA holds 
itself to an extremely high standard. There was a clear 
difference in what happened between NHTSA and General Motors in 
this situation. NHTSA was actively trying to find the ball. 
NHTSA--sorry, General Motors was actively trying to hide the 
ball. It wasn't simply incompetence on their part.
    They had policies in place to not mention the word defect 
in order to shield information from NHTSA. They were actively 
trying to hide the ball. NHTSA was working hard to find the 
ball and was missing critical information.
    Senator Heller. OK. Thank you.
    Mr. Friedman. Thank you.
    Senator Heller. Your report, Mr. Come--also in your report, 
it stated that NHTSA is having trouble keeping pace with 
technology advancements in the auto industry. Will your audit 
also address this?
    Mr. Come. Our prior audit was focused on this issue--in 
part on--of NHTSA's workforce, and our audit will address the 
degree to which they've carried out our recommendation in the 
prior audit, which was that they complete a workforce 
assessment which will identify the skills they need, the number 
of people they need, and the force mix.
    So in this current audit, assuming we get the final 
workforce assessment that has been promised to us this 
November, we'll look at the adequacy of that workforce 
assessment using the criteria the Department has established 
for these kinds of assessments.
    Senator Heller. OK. Now, your report is supposed to be out 
next spring, is that correct?
    Mr. Come. That's correct.
    Senator Heller. That's still your timeline?
    Mr. Come. Yes.
    Senator Heller. Thank you. Madam Chairman, thank you.
    Senator McCaskill. Thank you. Senator Nelson is not here. I 
believe my list here shows Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. I want to thank the Chair and Ranking 
Member, thank both of you for being here.
    When GM's counsel--legal counsel--the head of their legal 
department, Mr. Millikin, came before this committee, I had 
asked him about particular examples that were given of three 
situations, three fatal crashes involving the ignition switch, 
in which, in fact, NHTSA inquired about with GM, because you 
had received some form of notification or a complaint about 
them.
    And this is actually outlined in an article that was done--
if you want to look at these--in July in the New York Times. 
One of them involved a fatality to the man named Gene Erickson.
    But here's my--here's the issue that I brought up with the 
legal counsel to GM that I would like an answer from both of 
you on, which is what GM said, apparently, to the agency on 
those three fatal crashes were a combination of--in answer to 
your inquiries, in other words, simple questions from 
regulators about what led to the crash, the answer that you got 
in three different fatal crashes and questions was, in one 
instance, from GM that they had not assessed the cause of the 
crash. In other instances, you got a response of attorney/
client privilege prevents us from answering that question. In 
another one--even more troublesome--GM said, we opt not to 
respond to your inquiries.
    And so here's my question. Why, when you get that answer 
from a company like GM, does the agency accept that answer? If 
you were making, as a regulator, an inquiry from a company like 
GM with regard to a fatal crash, and, you know, we know, 
obviously, we had discussed the pattern that was here, why 
would you accept that answer from a company like GM?
    Now, I have already taken Mr. Milliken to task for GM 
answering in that way, and I, in no way, diminish their 
failures here. But it seems to me, if I got that answer, I 
would make me even more adamant about getting a full answer 
from those that we were regulating.
    Can you help me with this?
    Mr. Friedman. Yes, Senator. Thank you for the question.
    I have held meetings with 12 major manufacturers in the 
United States and around the world. And one of the things I've 
said to them very clearly, you should never hide critical 
safety information under the cloak of attorney/client 
privilege. Period.
    One of the fundamental problems with the General Motors 
structure is, it's not simply that they had silos, they had 
firewalls. They had firewalls which literally blocked 
information from the lawyers from coming to other people in the 
organization and to us.
    I've made it clear to automakers that that is not 
acceptable. With GM in particular, we have engaged with them 
throughout some of this process and pushed back on them that 
they cannot hide documents based on attorney/client privilege. 
And going forward, we will certainly make sure, when they try 
to do that, we will push them, and we will reach out, in some 
of these cases to plaintiffs' attorneys to get their 
information.
    Senator Ayotte. So one thing that worries me about this is 
I want to see NHTSA not accept that answer ever from a company, 
because your question was a fair question, what do you know 
about what caused this fatal crash?
    So a company in that setting could raise attorney/client 
privilege anytime that's asked if there's a risk of litigation, 
which there probably always is when there's going to be a fatal 
crash. So what would prevent them from actually not asserting 
this in every case?
    And I would also say, I would hope you wouldn't accept the 
answer that the company opts not to respond, that we haven't 
even assessed the cause of that crash. It seems to me that they 
had a responsibility to do that.
    So what I'd like to hear is a commitment that, when you 
receive that, you just won't accept it, that there will be a 
follow through from NHTSA from a company when that is the 
response you get to a fair question.
    And Mr. Come, as you do this review of the process, I hope 
that you'll look at this issue in terms of how those types of 
responses are dealt with by the Agency.
    Mr. Come. We will. We haven't previously looked at the 
death inquiry issue. It's part of the early warning reporting. 
But as part of our work, we'll be asking, you know, what is 
their policy, what are the stated reasons for that policy. 
We'll attempt to get data that will support those reasons. And 
in addition to policy, we'll be expecting the Agency to 
establish guidance, training, and appropriate workforce that 
can deal with those types of issues as well.
    Senator Ayotte. I appreciate it. Thank you.
    Senator McCaskill. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, I'd like to ask you, doesn't 
it defy common sense that a vehicle can have a five star safety 
rating and still have a safety concern? Isn't it an agency such 
as yours, that it does a huge disservice to consumers by 
allowing a car to have a defect, to still have the five star 
ranking?
    So can we get cars with serious safety concerns, as we've 
seen all too many in the last year or so, can we get those 
safety defects so that the star system is changed?
    Mr. Friedman. Senator, those two programs are very 
different programs. One program is designed to inform consumers 
how that vehicle protects them in a crash. If that vehicle has 
a defect, we work to inform consumers of that defect and to get 
that defect fixed.
    Senator Nelson. OK. Now----
    Mr. Friedman. Once it's fixed, it makes sense that it's 
five star.
    Senator Nelson. Mr. Chairman, let me stop you right there, 
because if you're a consumer, you do not understand the nuances 
that you were explaining. You see five stars, you think that is 
the Good Housekeeping seal of approval. And the consumer is 
misled, and I think you all ought to rethink your advertising 
when there becomes a safety defect that is found in the 
vehicle.
    Mr. Friedman. Senator, one of the things we have talked 
about internally is making sure that, when there is an open 
defect on a vehicle, that that can be more clearly noted within 
the five star rankings. But I do want to make sure that 
consumers continue to get this critical information, because it 
is--it has pushed automakers to make their vehicles safer in 
crashes.
    So it's a critical tool, but I agree that we need to make 
sure that consumers are very clear, when they're looking at 
those star ratings, that there could be recalls associated with 
that vehicle that they need to consider.
    That said, when a consumer is buying a new car, those 
recalls must, must be fixed. So it is a five-star vehicle, 
because that vehicle is fixed.
    I would like authority, and we've requested authority, to 
make sure when a used car is sold, before it can be sold, that 
those problems are fixed. So again, when they're buying it, it 
will be a five-star vehicle, because the safety risk will be 
addressed.
    Senator Nelson. You know, when I am responsible to the 
citizens of my state to have the Federal Government look out 
for their interest and their safety interest, and there is 
something that, as obvious as this, that is confusing to them, 
it would seem to me that your response would be, there is 
confusion, we're going to straighten it out.
    Let me move onto something else. I want to show you a 
picture of a Chinese automobile.
    Now, this automobile, if it gets all of the safety and 
emission upgrades and all of that, they're going to try to sell 
it in this country.
    Now, I want you to know that this Committee has dealt all 
too much with defective Chinese toys, toxic drywall, which is 
still an ongoing, huge litigation. And the Chinese government 
that owns a lot of these companies says, get lost. And there 
are no assets, other than the distributors, for example, of the 
Chinese drywall.
    OK. Now, you've got an immediate problem arising when a 
Chinese company manufactures cars that are going to end up with 
defects, and you try to go after them, and if they respond like 
they did with Chinese drywall and Chinese toys, they're going 
to tell you to get lost. That's not helping protect the 
American consumer. What do you say about that?
    Mr. Friedman. We're very concerned about any product that 
comes into this country that has quality problems. We faced 
some of the exact same issues you're talking about, in some 
cases with smaller companies, and we have partnered with 
Customs and Border Protection to go after these companies, to 
stop these products from coming into the country, and to ensure 
that, when these products do come in, that we're putting them 
through our certification tests.
    Senator Nelson. You better look at the Chinese.
    Mr. Friedman. We are, Senator.
    Senator Nelson. Because of the history of dealing with 
them. Now, you do something like regional recalls, well, in an 
automobile, I want you to be aware of a state like Florida. You 
might say that a vehicle is--as a matter of fact, you even had 
a vehicle--defects that may be caused by salt erosion, and so 
you don't bother it up in the north, and then you say heat-
related defects to vehicles registered in southern states.
    You know how mobile the citizenry of the United States are. 
You know how we, in Florida, have a lot of snowbirds that come. 
So I would suggest that you should reevaluate your regional 
criteria on regional recalls. Any comments?
    Mr. Friedman. Senator, I've had multiple discussions with 
my staff on this issue. We generally do not grant a regional 
recall, unless the automaker can provide us with sufficient 
information to indicate that there is a data base reason for 
that decision.
    But I agree that one of the things that we need to do, and 
in fact, we require them to do, is to continue looking back at 
the data to see if vehicles are moving out of region and need 
to be addressed by these. But I agree that this is an issue 
that we need to watch very closely, because when a vehicle has 
a safety defect, it needs to be fixed. And certainly, people 
are mobile, so this is an area we're continuing to look at to 
ensure that people are safe.
    Senator McCaskill. Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Madam Chairman. Mr. Friedman, 
when you appeared before the committee in April, I told you the 
story of the woman--young, young woman--from Albert Lee, 
Minnesota, Natasha Weigel, who had been killed on a Wisconsin 
road when the car's electrical power suddenly went out. The car 
barreled ahead at 71 miles per hour, hit a tree. She was a 
passenger. She died, another died.
    The report on GM found that--the big report that was done 
by Mr. Valukas--found that Wisconsin state trooper, Keith 
Young, conducted an investigation on his own that clearly made 
the link between the defective ignition switch and the failure 
of the airbag to deploy in that case. Trooper Young's report 
cracked the code that seemed to evade GM and NHTSA for years.
    He wrote this, ``The two front seat airbags did not deploy. 
It appears the ignition switch had somehow been turned from the 
run position to accessory prior to the collision with the 
trees.'' But although his--the trooper's report was submitted 
to NHTSA, no follow-up action was taken.
    Is it true that, in 2007, NHTSA sent GM a death inquiry 
related to the crash involving Natasha Weigel?
    Mr. Friedman. Yes.
    Senator Klobuchar. And did GM respond to the inquiry?
    Mr. Friedman. Yes.
    Senator Klobuchar. OK. And what did they say? What 
documents did they submit to NHTSA in response, and was Trooper 
Young's report one of them?
    Mr. Friedman. They provided a variety of documents, 
including police accident reports, which would include some of 
this information. Yes.
    Senator Klobuchar. OK. So nothing--there was no follow up. 
And are there any changes to the process now when you have a 
state trooper that actually saw--and I remember us talking 
about this last time, the issue of the deployment of airbags 
and how it was confused as the reason and wasn't hooked up with 
the idea of the ignition switch, but you have a guy, like one 
state trooper in Wisconsin that figured it out. And I just--I 
don't understand why there wasn't any follow up after that, 
that it didn't make a bell go off in someone's head.
    Mr. Friedman. Senator, I understand your concerns. Two 
issues. First of all, we had extensive understanding of the way 
these advanced airbags worked, and in the circumstances of this 
crash, the most plausible explanation was that it was the 
nature of the crash, off road, yielding objects, that caused 
the airbags to not deploy.
    Obviously, we now know that there was another piece of 
information that this officer was pointing to, that we did not 
have a confirmed understanding from General Motors that that 
was the case. Going forward--and we discussed this a little bit 
last time--we need to make sure that we have a process in 
place, and we have put a process in place to make sure we 
follow up on remote defect possibilities.
    It's always an issue that we have to be very careful about. 
Earlier, we talked about the NASA study. In that case, NHTSA 
pursued a remote defect possibility of potential electronic 
glitches. NHTSA found there was no issue there, and then NHTSA, 
on top of that, went to the National Academy of Sciences and 
NASA who simply confirmed that NHTSA understood what they were 
talking about.
    So there's always a balance here, but I think, no matter 
what, when there is a remote defect possibility, we need to 
challenge ourselves----
    Senator Klobuchar. So then you change--right, because you 
also--at that time, NHTSA commissioned Indiana to do--Indiana 
University to look at the crash. That report also raised these 
questions. So it wasn't just one trooper.
    I mean, they said, ``Inadvertent contact with the ignition 
switch in the 2005 Chevy Cobalt can, in fact, result in engine 
shutdown and loss of power. It is not known what role this may 
have played.''
    So it seems this report was on your website. So what I want 
to know is, given you have a report--you've got the Wisconsin 
trooper report--what has changed now? If you got that 
information on another car, on a different manufacturer, what 
would be done differently?
    Mr. Friedman. Two things that have changed now. One, even 
if, like this situation, the preponderance of evidence pointed 
to a different cause, we would still make sure to follow up on 
that remote possibility in a couple of ways. One, reaching out 
more aggressively to the manufacturer. Two, one of the things I 
discussed with those 12 automakers is, they need to come into 
NHTSA. We need to sit down with them with our researchers, our 
rulemakers, and our defects investigators in a room, and make 
sure they are giving us all the information they can about the 
systems interactions in these vehicles.
    Vehicles are getting more and more complicated, and we're 
determined to stay ahead of that curve, but that requires us 
reaching out to automakers and automakers reaching out to us to 
make sure we have all the information on how these complex 
systems can interact.
    Senator Klobuchar. So what's the single biggest thing 
Congress can do, as we hope we go into the next year and do 
more things? What is the thing we could do to ensure that NHTSA 
is in a state so that what happened with GM doesn't happen 
again? Do you need more authority? Do you--what do you need?
    Mr. Friedman. Well, Senator, I would say that this goes 
beyond even the GM situation, because our goal is to ensure 
that we are picking up the balls that the industry is dropping, 
even though it's their responsibility to find them.
    One, I think we need more authority to fine the car 
companies so that they understand the heavy price that they're 
going to pay if they fail to report these things. That's a 
force multiplier. They have more information, more people, more 
resources than us. They need to be finding these problems 
before we even have to start searching for them.
    Second, we want--we could use additional resources, more 
people, more money for more--for better technology so that we 
can better sift through the information and the data that's out 
here. In previous--President Obama's 2013, 2014, and the 2015 
budget request, we have asked for additional resources, 
especially staff, so that we could do this, and I would ask 
Congress to support the President and the Secretary's efforts 
to get more resources, not only on defects, but on all of the 
issues that cause the more than 30,000 fatalities on our 
highways each year.
    Senator Klobuchar. OK. Thank you. We'll follow up on that, 
and then Madam Chairman will put some questions on the record 
about distracted driving. Senator Hoeven and I have a good bill 
to make sure that some of the money that's been aside will 
actually go out to the state so they can start working on this 
important issue.
    We just had a woman who was 89 years old get killed by a 
girl that was doing Facebooking while she was driving 65 miles 
an hour down a highway. So thank you.
    Senator McCaskill. Thank you, Senator Klobuchar. Senator 
Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Madam Chair. Earlier today, 
General Motors and I reached a substantial agreement on a 
modified version of the legislation I introduced with Senator 
Blumenthal that will ensure the public disclosure of 
information about fatal accidents that might have caused--been 
caused by safety defects. One reason why the bill is needed is 
because I simply do not have the confidence that NHTSA will 
take more aggressive action in the future.
    Whether it is NHTSA or the NFL, there must be 
accountability for any organization that turns a blind eye when 
it knows a harm is being done.
    Mr. Friedman, you have repeatedly said that it was GM that 
stood in the way of safety, that GM failed to tell NHTSA 
everything it knew about the defective ignition switches, and 
that if it had, the Government would have acted differently.
    It goes without saying that GM made and sold the vehicles 
in which so many innocent victims were killed or injured, but I 
am gravely disappointed in the Transportation Department's 
failure to accept even a shred of responsibility. For an entire 
decade, NHTSA had meetings, reports, secret documents submitted 
by GM to the early warning reporting system that all described 
fatal accidents involving ignition switches that caused cars to 
stall all by themselves, but NHTSA did nothing.
    And while GM's leaders have described the GM nod, which was 
said to occur when everyone in a meeting all nodded their heads 
but then did nothing to solve safety problems, what I see at 
NHTSA is the NHTSA shrug. NHTSA shrugged when it agreed with GM 
that cars stalling on their own did not pose a safety problem. 
NHTSA shrugged when it read its own contractor's reports 
linking the ignition switch defect in--to fatal accidents in 
which airbags didn't deploy. NHTSA shrugged when it obtained 
secret documents from GM that spelled out exactly what was 
causing these crashes.
    NHTSA has not acknowledged its own failures to take action. 
It has not apologized to the families who have lost children, 
siblings, spouses, and parents. And it has not yet announced 
strong measures to ensure that it does not fail the American 
public this way in the future.
    So my first question to you is, are you prepared to 
apologize for NHTSA to those families that were harmed by the 
defects in these vehicles?
    Mr. Friedman. Senator, in my first hearing, I expressed my 
deepest sympathies and my sadness at the loss of life from each 
and every one of these tragedies. But I want to be clear, NHTSA 
did not shrug.
    NHTSA, over the last few years, forcing Chrysler to recall 
vehicles that they refused to agree were defective, is not a 
shrug. NHTSA forcing Graco to recall vehicles is not a shrug. 
NHTSA diving into the data on this issue, having special crash 
investigators on the job on this issue, looking at the data, 
following the data, is not a shrug.
    NHTSA aggressively pursues these issues, and continues to 
do so----
    Senator Markey. And I disagree with you, Mr. Friedman. When 
you agreed with GM that cars stalling on their own did not pose 
a safety problem, that is wrong.
    Mr. Friedman. Senator, when cars----
    Senator Markey. When you did not, in fact, read your own 
contractors' reports linking the ignition switch defect to 
fatal accidents in which airbags did not deploy, that is on 
NHTSA. You just can't say it was an airbag problem. There was a 
fundamental problem with the car just stopping. It was an 
ignition problem. So it's not an airbag problem. So NHTSA is 
wrong there as well.
    And when you did obtain the secret documents from GM that 
spelled out exactly what was causing these crashes, that should 
have been made public immediately. We should have understood as 
a nation what these problems were.
    So I just disagree with you, Mr. Friedman. OK? I just 
disagree with you. I think that there was a higher duty which 
you owed.
    According to Mr. Valukas' report in 2004, GM and NHTSA had 
a secret meeting in which the attendees inexplicably agreed 
that cars stalled all by themselves, but that this was not 
necessarily a safety problem.
    Earlier this summer, GM CEO, Mary Barra, and others agreed 
with me that the public would probably have rejected the 
conclusion that cars stalling all by themselves was not a 
safety problem if they had known about it. Do you also agree 
that they--with Mary Barra--that the public would have rejected 
that conclusion that the cars stalling on their own was, in 
fact, a safety measure--a safety problem--if the public had 
known?
    Mr. Friedman. Senator, we have aggressively pursued 
stalling issues over the years, with 42 investigations, 31 
recalls, over the last 10 years. When we see a stalling 
incident that creates an unreasonable risk to safety, we act, 
and there's no doubt about that.
    One of the things that is incredibly important to us is we 
do have to----
    Senator Markey. But do you agree? Will you say that NHTSA 
got it wrong when it found that cars stalling on their own was 
not a safety problem? Will you agree that was a mistake that 
NHTSA made?
    Mr. Friedman. Senator, in this GM case, the ignition switch 
and the stall was linked to airbags not deploying, and that is 
clearly a safety issue.
    Senator Markey. Again, but it's--the safety bags not 
deploying is a safety issue, but a car's ignition not working 
and shutting off the car automatically is a separate safety 
issue. So even if you had no airbags and you were driving in 
the car, I don't think the American public would feel safe if 
the car automatically was turning off, because there's an 
ignition problem.
    And again, I keep waiting for you to close this gap so that 
you admit that there were two safety issues here. One was 
airbags, but the other was the ignition shutting off and the 
car just stalling out, perhaps on the highway. You do agree 
that's a separate issue and that that was something that the 
public should have been warned about, do you not?
    Mr. Friedman. There's no doubt that stalling can be a 
serious safety issue.
    Senator Markey. OK.
    Mr. Friedman. No doubt.
    Senator Markey. And do you agree that NHTSA should have 
made that clear to the American public? That's what I'm waiting 
for in terms of the apology, the statement to the public that 
there should have been a warning coming from the Government 
once that information was in the hands of NHTSA.
    Mr. Friedman. Senator, we get many, many thousands of 
complaints about stalling. And in this case, when we look at 
the data, these vehicles didn't stand out.
    If a consumer can safely pull their vehicle over to the 
side of the road and restart that vehicle, then that's a 
situation where the consumer can be safe, but obviously, the 
car company does need to address any stalling issue that 
represents a safety risk.
    Senator Markey. Well, in 2007, NHTSA asked for and received 
a secret document from GM related to the death of two Wisconsin 
teenagers. That document was first made public by me at our May 
7 hearing, and it is referenced repeatedly in Mr. Valukas' 
report.
    It included a report by the Wisconsin State Patrol Academy 
that said that the ignition switch defect prevented the airbags 
from deploying. It also found other examples of the same 
problems happening in other cars and identified a 2005 GM 
warning to dealers about the issue. In short, it correctly 
identified the safety defect.
    Do you agree with me that GM CEO, Mary Barra, and others 
that said that if the public had been able to read the secret 
document and warned about its conclusions at the time, it is 
possible that some of the deaths and injuries caused by this 
defect could have been avoided?
    Mr. Friedman. Well, Senator, the special crash 
investigation report that included these same assertions was a 
public document, and no one brought that issue to our 
attention.
    Senator Markey. No. The document that I'm talking about is 
not a public document.
    Mr. Friedman. I understand, but that information was in 
the----
    Senator Markey. Well, let's talk about the--let's talk 
about this non-public document. What if this non-public 
document had been made public? Do you agree that if it had been 
made public that it could have avoided unnecessary deaths 
having occurred?
    Mr. Friedman. Senator, I agree that making this kind of 
information, with privacy protected, public can be a positive 
and helpful thing. What I don't agree with, though, is the--is 
putting the burden for making that information public with 
privacy protected should fall on NHTSA. I believe that burden 
should fall onto the industry that is causing these problems.
    So, in conversation with your staff, in providing technical 
assistance, we suggested that we should support getting this 
information out there, but the car company should be the one 
responsible for the costs and the time and the effort to make 
that information publicly available, because they're creating 
the problems in the first place.
    Senator McCaskill. Thank you, Senator.
    Senator Markey. Well, when the document that's given to you 
in 2007 by GM----
    Senator McCaskill. Thank you.
    Senator Markey.--will be made public this year, there's a 
big problem. Thank you, Madam Chair.
    Senator McCaskill. Thank you. Thank you. Senator Fischer?

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Madam Chairman, and thank you, 
gentlemen, for being here today. Mr. Friedman, I'd like to 
explore another area with you.
    I read June 15 in the New York Times an article indicating 
that NHTSA wants to regulate mobile apps and devices. Is this a 
high priority for NHTSA, and is NHTSA spending a lot of time 
and resources here?
    Mr. Friedman. Senator, there have been some, quite flatly, 
erroneous reports in the newspaper, so we have no intent and no 
plans to regulate mobile apps.
    What we're doing is working to develop voluntary guidelines 
to help the developers of these systems ensure that they're 
developing them in ways that minimize distraction. In fact, 
companies like Google and Apple are actually moving forward 
with some of these exact same kinds of systems that we're 
suggesting.
    So we have no intention to regulate, but we do think it's 
very important, because over 3,000 people die each year due to 
distracted driving, many of them because of the, you know, case 
we just saw about where people are looking at Facebook on their 
vehicle that we need to provide those guidelines for those 
developers, so they can innovate and ensure safety at the same 
time.
    Senator Fischer. So how do you plan to define motor vehicle 
equipment when it comes to an app? You know, we're looking at 
the FDA that is looking at mobile apps and trying to define 
them as a medical device and have regulatory authority over 
them. How are you going to go about defining a mobile app as 
motor vehicle equipment, where I believe you do have authority?
    Mr. Friedman. Correct.
    Senator Fischer. And if you move into this new area, are 
you--how do you define it, and how do you gain that authority, 
which I think is questionable right now? Are you going to come 
to Congress and ask for that authority?
    Mr. Friedman. Well, Senator, as you know, we do explicitly 
have authority over motor vehicles and motor vehicle equipment, 
so I think a map that has driving directions on it is very 
clearly motor vehicle equipment.
    Senator Fischer. Is a paper map motor vehicle equipment?
    Mr. Friedman. To the best of my knowledge, paper maps, on 
their own, aren't causing a distraction issue. Certainly, if 
someone was holding that paper map up in front of them, that 
would be a serious distraction issue.
    Senator Fischer. On a mobile app, if it's voice controlled 
and if it is not in view of the driver, would there be 
distraction involved?
    Mr. Friedman. We actually--it's an excellent question, and 
what we're doing is providing guidance in three different 
phases.
    The first phase is for in-vehicle systems. The second phase 
is for systems where people would have to take their eyes off 
the road or hands off the wheel to access. The third phase is 
exactly this question of audible systems. We think those can be 
safer, but we do want to provide guidance to industry in how to 
make sure that they're safe.
    Senator Fischer. Do you believe you have the authority even 
with voice commands to regulate these apps, you would consider 
them mobile or motor vehicle equipment?
    Mr. Friedman. Well, Senator, if it's providing something 
like driving directions or another driving service, it's motor 
vehicle equipment. But again, we have absolutely no intention 
of regulating these apps.
    We think it makes a lot more sense to provide this guidance 
to consumers while at the same time pursuing aggressive efforts 
to improve behavior to stop distracted driving. That's why we 
just launched our new ``You Drive, You Text, You Pay'' campaign 
to help stop that dangerous behavior.
    Senator Fischer. Right. As you issue guidelines, so there's 
no authority--or there's no impact there on innovators as they 
move forward with mobile apps, they're just guidelines, they 
have no effect like a regulation?
    Mr. Friedman. They are not enforceable at all. I hope that 
they have the effect of making it easier for them----
    Senator Fischer. Why would you issue guidelines that have 
no effect?
    Mr. Friedman. Well, because I think that it can make it 
easier for them to develop systems that are safer. We're 
already seeing these impacts in the auto industry, where 
they're adjusting some of their designs to make them more 
safely. I think even the outlines of that first phase has been 
very helpful to developers like Google and Apple for how to 
design these systems.
    So I think we're preserving safety in a way through these 
guidelines without having to use our regulatory authority. I 
think that's a win-win situation for the American public and 
for the innovators.
    Senator Fischer. I think it's very important that we do not 
hinder our innovators as they move forward, and I can 
appreciate your desire to have guidelines, but I question your 
authority being able to have these guidelines, and then when do 
we cross the line from a guideline to a regulation if you don't 
have cooperation, voluntary cooperation, from companies or 
individual innovators as we move forward?
    Mr. Friedman. Well, thank you, Senator. I'm confident that 
they--that we all will move forward. I think the signs are 
already encouraging. And, you know, innovation is a top 
priority of Secretary Foxx, innovation in vehicle-to-vehicle 
technologies where we are literally, as an agency and as a 
department, leading the world in the research in--on that 
technology.
    What we want to do is foster innovation and maintain safety 
at the same time, and I think these guidelines are that perfect 
balance. And we've engaged the industry very closely on this. 
We've invited them to have conversations about this. We've had 
public listening sessions on this. When we put out these 
guidelines, we'll provide people with an opportunity to 
comment. We'll take those comments into consideration before we 
do this.
    So we're committed to working closely with the American 
public and innovators to make sure we can ensure innovation and 
ensure safety.
    Senator Fischer. Do you plan to engage Congress in this as 
you move forward with guidelines? Is there a role for Congress?
    Mr. Friedman. Certainly, we would appreciate any support 
Congress can have for our efforts, whether it's through funding 
or, certainly, simply helping to get your constituents to 
provide comments to us.
    Senator Fischer. Well, I'm happy to hear you're working on 
voluntary guidelines with the industry instead of moving to 
regulation. Thank you.
    Mr. Friedman. Thank you, Senator.
    Senator McCaskill. Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Madam Chairman, and thank 
you for having this hearing. Thank you for your leadership on 
this vitally important topic.
    Normally, I agree with my colleague, Senator Markey--and by 
the way, I'm very pleased that we've reached agreement with GM 
on the legislation that we proposed--but I have to differ with 
him on the NHTSA shrug. I don't think it was a shrug. I don't 
think it was a nod. I think it was a NHTSA snooze. I think 
NHTSA has nodded off on safety.
    And the New York Times article that we've all read, the 
investigative piece that appeared over the weekend, emphasizes 
how systemic and deep-seated NHTSA's failings have become, not 
just on GM, but on the unintended acceleration in Toyotas, the 
fires in the Jeep fuel tanks, the airbag ruptures in Hondas, 
and other problems that reached a crisis level before NHTSA 
reacted. It was not proactive. It reacted. And I know you're 
shaking your head.
    Mr. Friedman. Sorry.
    Senator Blumenthal. But the fact of the matter is that your 
supposed watchdog agency had neither bark nor bite and, in 
fact, led consumers to have a false sense of security through 
your rating system.
    I asked you in April, when you were before this 
subcommittee, whether General Motors had, quote, concealed 
material in significant information from NHTSA, and you 
replied, that is--quote, that is exactly the subject of an open 
investigation that we have into General Motors, and if we find 
that they did not violate their responsibilities to report 
information and act quickly, we will hold them accountable. Is 
your investigation done?
    Mr. Friedman. Yes, Senator. It is done and----
    Senator Blumenthal. What have you found?
    Mr. Friedman.--well, we found, very clearly, that General 
Motors had information that they failed to share us that 
hindered our investigation.
    First of all, they had information that indicated when you 
move the ignition switch into the accessory position, the 
airbags were designed to turn off. Had we had that information, 
we could have pursued this in a very different manner. And once 
we had that information, we pushed GM to recall vehicles, and 
we pushed Chrysler to recall vehicles. In addition----
    Senator Blumenthal. And what will you do to hold them 
accountable?
    Mr. Friedman.--to hold them accountable, we got them to pay 
the maximum possible fine of $35 million and----
    Senator Blumenthal. But wouldn't you agree with me that 
that maximum find is wholly inadequate as a measure of their 
failure?
    Mr. Friedman. Absolutely. Which is for two reasons----
    Senator Blumenthal. But you would support the legislation 
that I proposed to remove that cap and others on this committee 
have supported it as well?
    Mr. Friedman. Well, we absolutely support efforts to 
increase those fines. The President and Secretary Foxx put 
forward a bill to raise those fines----
    Senator Blumenthal. But what about removing the cap?
    Mr. Friedman. I think removing that--the cap--could give us 
additional power to hold them accountable.
    Senator Blumenthal. So you do support that legislation. I'm 
delighted to hear that you will support it, if that's your 
testimony.
    Mr. Friedman. Well, we will support all efforts to increase 
that cap. In addition, one of the things we've done to hold GM 
accountable is we have now put them in a position where, if 
they sneeze on a safety issue, they need to let us know about 
it. We've instituted unprecedented oversight over General 
Motors.
    Hyundai was also found to be lacking when it came to 
following the law. We are not putting them under unprecedented 
oversight, and we're making clear to the industry, you step out 
of line, we will bring you back in line.
    Senator Blumenthal. Let me ask you about the current rating 
system. I see very little redeeming features in this rating 
system. Why not spend the resources that you currently devote 
to the rating systems to defect investigations and following up 
on consumer complaints?
    Mr. Friedman. Senator, we have much more resources devoted 
to things like defects than we do have to this rating system. 
There were--there was an incredible number of inaccuracies in 
that New York Times article, and one of the things that was 
inaccurate is it didn't make clear that we have ten times the 
number of people focused on finding defects as we do have on 
this rating program. But this rating program----
    Senator Blumenthal. How do the expenditures of money, 
though, compare?
    Mr. Friedman. The--when you combine peak staff, the money 
to support staff and the money that they use in their duties, 
our--excuse me, our defects work has about a 60 percent higher 
budget than the NCAP program. But I would be clear----
    Senator Blumenthal. Why not use the money that you now 
spend on ratings, which inherently mislead consumers, if 
history is any guide, and devote it, instead, to finding about 
things that are wrong with the cars and can help save lives?
    Mr. Friedman. Senator, I disagree. The NCAP program has 
helped make vehicles safer. It has clearly saved lives by 
encouraging automakers to put more technology on board 
vehicles.
    We're going to be releasing a study soon that shows NHTSA's 
role in----
    Senator Blumenthal. Well, let me just--I have to interrupt 
you, because I'm running out of time, and I know that the 
Chairman wants to move on--Chairwoman, I apologize--wants to 
move on.
    Senator McCaskill. I go by either.
    Senator Blumenthal. Madam Chair.
    You know, Consumer Reports bars the car companies from 
using its ratings and evaluations in their advertising. Why 
does NHTSA allow itself to be exploited by the industry in 
using these ratings in its ads?
    Mr. Friedman. Because I wanted to set an incredibly high 
bar on safety. I want to challenge the industry to put more and 
more technology, more and more tools at play, to make vehicles 
much safer. That's what our regulations have done. That's what 
the NCAP problem has----
    Senator Blumenthal. Do you think NHTSA has achieved that 
objective through its rating system?
    Mr. Friedman. Yes, absolutely. If you see--for example, one 
of the new tests we introduced was a side pole test, a test no 
one had had before. We rate those vehicles on that side pole 
test, and we saw automakers demonstrably change the design of 
their vehicles to improve the performance of those vehicles in 
that test. That is, without a doubt, a success that saves 
lives.
    These are both critical programs. There's no doubt about 
it. I would love to work with you, Senator, and with the 
Committee and Congress on getting additional resources to NHTSA 
to ensure that we can continue to do an even better job, but 
what I don't want to have us do is be put in a position where 
we have to tradeoff making progress on things like drunk 
driving with making progress on defects.
    Senator Blumenthal. And no one wants you to abandon other 
real, genuine safety programs. But I think you have sensed from 
the reaction of this subcommittee on both sides of the aisle 
that there is a question here about the record. You can say 
about it what you will, but the record shows that these ratings 
have, in effect, misled consumers. And the lead paragraphs of 
that New York Times investigative piece demonstrate irrefutably 
along with other aspects of the record.
    So I think the question in our minds is whether it's a 
culture of capture, a culture of corruptions, or just 
incompetence that needs to be corrected here, and that's going 
to be a tough task. We look forward to working with you, but I 
think that there has to be a more realistic attitude about what 
the real-life consequences are of the agency's performance.
    Mr. Friedman. Senator, I would encourage all of you to ask 
the industry if they think we're captured. I hauled them in to 
talk to them about these issues. Some resisted at first. We had 
to make sure to push them to do this.
    And on the Toyota case, the New York Times article is flat 
wrong. NHTSA found the floor mat defect. NHTSA was in the 
process of investigating and finding information on the other 
pedal entrapment defect. We brought that information to Toyota, 
and before we could even open our investigation, they recalled 
those vehicles. They recalled those vehicles because of us. 
And, and the Justice Department found when fined Toyota $1.2 
billion, we found these problems even when they were hiding 
information from us.
    We have--we found the Toyota case, and I completely 
disagree with that New York Times article. It completely 
mischaracterizes the work that NHTSA did to help save lives in 
the American public in that Toyota case.
    It's a complete--same thing with Jeep. We forced--forced--
Chrysler to recall a vehicle that they refused to admit 
initially that was a defect. We forced them to tell consumers, 
in their letter to consumers, that these vehicles were 
defective.
    We have actively pushed these companies. Can we do more? Do 
we need to invest more? Do we need to improve our processes? 
Absolutely. But that New York Times article was a complete 
mischaracterization of our work.
    Senator Blumenthal. I have other questions, but my time is 
expired, and I thank the Chair for her patience with the amount 
of time that I've taken. Thank you.
    Senator McCaskill. I think we're frustrated with you, Mr. 
Friedman, at this point. And I understand you're here to defend 
NHTSA, and no one on this committee--subcommittee believes that 
there are not good, hard-working people at NHTSA that are 
trying to do the right thing.
    But it is very hard to sit through this hearing and watch 
you rationalize and excuse a regulatory agency that, whether it 
was 300, or as the article specifically said, 2,000 complaints 
talking about stalling on the vehicles that were eventually 
recalled, when you had a lonely highway patrolman in Wisconsin 
figuring it out, when you had a study that your agency was part 
of in Indiana that figured it out, and you didn't figure it 
out.
    And why you cannot take a measure of responsibility for 
that at this hearing has frankly got us all scratching our 
heads. You want to talk about resources, well, the crash-
worthiness, there was a--it had $10 million in programming 
money was the--$10,372,214 to be exact in 2013. In 2014, they 
enacted that amount, and in 2015, you requested $3.6 million 
more for the program in programming money, a significant 
increase for the crash-worthiness.
    Compare and contrast that with the safety defects 
investigation, 2013--by the way, this number has been constant 
for a decade--the request was, in fact, $10,611,000, which had 
been exactly what you'd got in 2014 and almost exactly what 
you'd spent in 2013, with no increase for programming money.
    Now, I know what you're going to say, you have more FTEs in 
one place than the other and that you have requested--I think 
one year you requested two, one year you requested four, one 
year you may have requested six, and you didn't get the FTEs. 
But you're paying contractors to do work now out of programming 
money. You could have easily made a request for more 
programming money that could've allowed you to get more 
contractors. And you've got contractors now reviewing some of 
these complaints as they're coming in, correct?
    Mr. Friedman. Yes. They are helping process the data, but a 
big part of what we need is to hire people on board who are 
experts, who can be trained up and be part of our staff----
    Senator McCaskill. How about people that can look at these 
complaints coming in and figure out if there is any connecting 
the dots that needs to go on instead of, I'm sorry, we have 
insufficient information to conduct an investigation? Hundreds 
of them, whether it's your hundreds or whether it's the New 
York Times 2,000s, we need some admission here that this was 
not done right.
    Mr. Friedman. Senator, we review each----
    Senator McCaskill. Was it done right? Did you all do it 
right on the GM situation, when you had citizens who were 
sleuthing your database on your own? They were going into your 
database and figuring out that there was a pattern. They--one 
of them even went to their own expense and hired a lawyer to 
come to NHTSA and say, hey, we're looking at your data base, 
and you've got a problem.
    Still, we have insufficient information to conduct an 
investigation. Now, maybe you can't see the forest for the 
trees, but I can assure you, on this side of the dais, it 
appears that you are digging yourself a hole of saying, ``We 
did nothing wrong. We did it all right. There was not a 
problem. This is all GM's fault. Shame on GM.''
    Now, we've all said, ``Shame on GM,'' and we've said it 
vociferously from this committee room. But you have got to take 
some responsibility that this is not being handled correctly 
for the American driving public within the Government 
regulatory agency.
    Mr. Friedman. Well, Senator, if I'm leaving that 
impression, then I'm not being clear. There are clearly things 
that, looking back at the history of this, that we need to 
improve.
    When there's a remote defect possibility that someone 
brings up, even if the preponderance of evidence points to a 
different direction, we need to have processes in place, and we 
are putting processes in place to address that. When there is 
data that doesn't get fully included in the discussions of 
these situations, we need to make sure that that information is 
fully included and we are moving forward with systems to try to 
make sure that we can gather all that data in one place and 
ensure that all that data is reviewed.
    It--we did not have--we do not have, in all cases, special 
crash investigator previously in the room for these 
discussions. My team is now making sure that, in every case, a 
special crash investigator is involved in these cases. In 
addition, we have been discussing how we can more aggressively 
follow up on claimant cases where they claim to have a problem.
    One of the challenges in here and one of the things that I 
wish had happened differently is that we had had information 
from the claimants where they found, basically, a smoking gun.
    Senator McCaskill. Right.
    Mr. Friedman. But it was within those documents that we 
need to keeping for, so it----
    Senator McCaskill. That's fair. I think what--you would be 
much better served by saying, ``We don't ever want this to 
happen again, and we're changing things, and this is the list 
of things that we're changing.'' But it appears, in question 
after question, that you want to obfuscate responsibility 
rather than take responsibility.
    And there is some responsibility to be taken here, Mr. 
Friedman. Maybe not as much as General Motors, and I think none 
of us would argue about that, but there is some responsibility 
to be taken here.
    Let me ask you about the workforce assessment. Of all the 
findings, and there were, I think, 11 of them--10 or 11. Mr. 
Come, how many?
    Mr. Come. We had ten recommendations.
    Senator McCaskill. Ten recommendations. And the one that's 
outstanding--and we were told back in April that it would be 
done in May--in your internal look at whether or not you've got 
the right resources. I'm worried that the programming money for 
this agency has been flatlined for a decade. In light of all 
the technological advances, that just doesn't compute with me.
    So where is the workforce assessment that is so necessary 
for us to evaluate whether or not you are properly supported 
and whether we need to do a much better job to supporting you?
    Mr. Friedman. We have had some delays in that effort, in 
part because the quality of some of the work from a contractor, 
where we were trying to make sure to use a contractor to help 
leverage our resources and use the dollars that we had, there 
were some fundamental problems with the product that was 
delivered from that, and as a result----
    Senator McCaskill. How much did you pay for that?
    Mr. Friedman. I don't know that number, but we can get it 
to you.
    Senator McCaskill. Have we paid them a bonus yet?
    Mr. Friedman. Better not have.
    Senator McCaskill. Well, I say that, because I've got 
experience with this. I've done a lot of oversight on 
contracting. You would be amazed how many times contractors get 
their bonus payments when they don't do their job.
    Mr. Friedman. That would be a serious problem in my book.
    Senator McCaskill. OK. Well, you better check on it.
    Mr. Friedman. Will do. And in addition, though, we have 
looked--you know, in looking at that effort and in looking at 
some of the different things that we are considering, we have 
looked at the importance of, you know, potentially, how would 
20 additional staff affect our ability to do things? How would 
20--$20 million in additional resources help us do things?
    But one of the things, frankly, that I want to be clear on 
is, at some level, we will always be understaffed and 
underfunded for our ability to do our job. There's----
    Senator McCaskill. Well, I don't think that's a good 
answer.
    Mr. Friedman. Well, but----
    Senator McCaskill. And by the way, this recommendation has 
been out there since 2011, and it's really troubling to me that 
you are in charge of evaluating vehicle safety in this country, 
and you're saying that, since 2011, you've been told by the 
Inspector General that you need to do a workforce resource 
analysis, whether or not your workforce is adequate, and it is 
now 2014, and we still don't have a--I mean, you can't even get 
across the finish line an analysis of whether or not you got 
enough folks.
    Mr. Friedman. It's definitely taken too long.
    Senator McCaskill. When do we expect it?
    Mr. Friedman. In November.
    Senator McCaskill. OK. I have gone over my time, and we've 
got another panel, but I want to make sure that my colleagues 
that are still here have an opportunity.
    Senator Nelson. Mr. Friedman, you've heard us, something is 
rotten in Denmark. And I want to say that my criticism is not 
just directed at you. My criticism is also directed at the 
White House.
    This position that you are filling as acting has been 
vacant for 9 months, and that is inexcusable. So I hope this 
message will get to the White House and that we can move on. 
You've taken the brunt of it, because you're there, but the 
agency is not functioning like it should for the protection of 
the consumers.
    Thank you, Madam Chairman.
    Senator McCaskill. Thank you. Senator Blumenthal?
    Senator Blumenthal. Thanks, Madam Chair. I want to 
reiterate, I know there are a lot of hardworking, dedicated 
folks at NHTSA, and I know that you have been at NHTSA since 
just May 2013, so you are defending an agency that has failed. 
You are the face of that failure, but I would have thought, as 
the Chair has indicated, that you might be more forthcoming and 
more receptive to the kind of reform that we feel is necessary.
    And just as an indication of the kinds of failures, 
systemic, far-reaching failures, another issue of concern to me 
regards the use of technical service bulletins, which are 
sometimes applied by automakers to avoid an expensive recall.
    MAP-21 required NHTSA to make those bulletins available on 
its website searchable by the public by 2013. As of May, 
they're still not on the website. Can you tell me why, and can 
you commit to me when NHTSA will meet that deadline--it's 
already missed the deadline--when it will have them available?
    Mr. Friedman. Senator, we make public--we provide online 
all technical service bulletins associated with a recall, in 
other words, all technical bulletins that are associated with a 
safety defect.
    There are additional technical service bulletins that may 
be safety related. We make those available through our reading 
room. There's additional technical service bulletins that 
aren't related to defects or safety that we're prohibited by 
copyright law from making public.
    That said, we are working toward making the ones that are 
related to safety more publicly available, and we're 
targeting----
    Senator Blumenthal. Well, can you commit to me when you 
will complete that task? You've missed the deadline. When will 
it be done?
    Mr. Friedman. We're working to target, I believe, in the 
next 6 months to try to get that information up there, but I 
can get you a more solid date.
    Senator Blumenthal. Well, I would like a more solid date. 
I'd also appreciate any contention in detail that you have 
disputing the New York Times story. You said it was wrong in 
numerous respects, but I'd like something in writing from you 
that we can put in the record if you feel, in fact, it was in 
error in any way.
    Mr. Friedman. I'd be happy to do so.
    Senator Blumenthal. I'd also like to ask you what you 
feel--taking up Senator Klobuchar's argument--what you feel can 
be done to expand the resources that you devote to 
investigation of defects.
    Mr. Friedman. Well, Senator, those were some of the issues 
that I was discussing before. We do need additional people, is 
definitely a primary tool that we need here. This is one of 
those cases where simply throwing additional dollars at it is 
not the key to the solution. Can we use the additional dollars? 
Absolutely. Do I--do we want additional dollars? Absolutely. 
But we also need additional people.
    We've seen double the number of complaints come in this 
year, which is fantastic. That's a critical tool that allows us 
to find these problems, and we've got our folks working long 
hours to try to make sure to go through each and every one of 
those complaints. We needed additional authority to help make 
sure that we can do this. We need additional cooperation from 
industry to make sure that we can do this. And we need to 
continue to improve the way NHTSA handles data and remote 
defect possibilities and other key aspects associated with the 
General Motors case and other issues that we've been facing 
recently.
    Senator Blumenthal. In the explanation given by the NHTSA 
official who was quoted in the Times story that there is no 
hard and fast protocol or a set of criteria regarding the type 
of instance that prompts further investigation, in this 
instance, in the case of GM, the phrase ``insufficient 
evidence'' was used. What does that mean?
    Mr. Friedman. Well, in this case, because we didn't 
understand the level of hazard associated with this issue, 
because we didn't have the information linked to the airbag 
deployment, typically, insufficient evidence will mean either 
you don't have an indication of a specific defect or you don't 
have information----
    Senator Blumenthal. But why should it matter whether the 
airbag was not deployed if the car was stalling repeatedly?
    Mr. Friedman. When stalling poses a safety risk----
    Senator Blumenthal. Doesn't it pose a safety risk whenever 
it occurs?
    Mr. Friedman.--based on our past data, it hasn't always 
posed an unreasonable safety risk.
    Senator Blumenthal. Well, that's the kind of reaction, Mr. 
Friedman, if I may, I mean no disrespect, but for the ordinary 
consumer, a car stalling repeatedly on highways or anywhere is 
a problem. You may regard it as insufficient evidence of a need 
for investigation, but the ordinary consumer would feel that's 
your job.
    I note that I'm out of time, so I have other questions 
which I'll submit for the record, but I want to thank you both 
for being here today.
    Mr. Friedman. Thank you, Senator.
    Senator McCaskill. Senator--excuse me, Senator Markey?
    Senator Markey. Thank you, Madam Chair. Again, if you're in 
a passing lane, and you're moving at 60 miles an hour, and you 
have a flat, you're panicking. You're saying, oh, my God, I'm 
just blowing a tire here, and I'm four lanes over from the 
breakdown lane, and everybody is going 60 miles an hour. That's 
a problem.
    Well, the same thing would be true if your car, your 
ignition just stops, and you're four lanes over from that 
breakdown lane. That's just the bottom line on it. You're at 
risk. And it could just be a 17-year-old, 18-year-old driving 
the car, you know, newly given a license to be able to drive.
    And so just common sense says that the circumstances that 
could arise are such that it's a real danger. And whether the 
airbag deploys or not when you hit a car in the next lane or 
when you kind of go off the road and you're kind of not in a 
crash, but you're rolling over, because the ignition has gone 
off, and you're leaving the road at a high speed, well, that's 
a real danger.
    So again, there's just a fundamental disconnect here. 
There's just a failure to understand how ordinary families 
would view that kind of a situation with their son or their 
daughter in that car and the likelihood that they would allow 
them to drive it, especially out on the highway, if they knew 
the car could turn itself off automatically.
    And so this is a--again, this is a big problem, and, you 
know, we go all the way back to, you know, Ralph Nader with 
Unsafe at Any Speed back in the middle of the 1960s, through 
all the battles that we had in Congress over seat belts, and 
airbags, and making the dashboards more safe, all these things 
were battled by the industry. They were fought--fought 
bitterly--as an extra expense which they felt the American 
public was unwilling to pay.
    You know what they learned, though? They learned that when 
people now get into every automobile across America, the first 
thing they do is put on their seat belt. They want to be safe, 
but especially their kids.
    When they fought airbags and then they had to put one in, 
guess what the next response was? Why isn't there one in the 
passenger seat for my wife or for my husband or for my 
children? They wanted more safety. They wanted to know.
    And so what we have here at NHTSA is a fundamental failure 
to deal with this essential issue of the priority that the 
American people put on safety in automobiles. And to the extent 
to which it may be their greatest fear, their kid out in a car 
driving somewhere at night at a high speed coming back from 
work, and that NHTSA doesn't believe that that's the issue, but 
it's actually the lack of deployment of an airbag, you're 
missing the point. You're missing how people view this issue.
    And so all I can say to you, Mr. Friedman, is that people 
really want a cop on the beat. They want an agency which is 
looking at the industry that they're responsible for and making 
sure that they cannot harm the public.
    And there was sufficient information in the hands of the 
Agency to be the early warning system, to tell the public, 
there's a danger here, cars are turning off automatically, and 
that you should know that as you're allowing one of your family 
members into that vehicle.
    So from my perspective, it's still a very troubling set of 
responses that we're receiving. And I think, again, Madam 
Chair, it is absolutely imperative that we pass legislation 
that requires a disclosure of all of this information when it 
is in the hands of the Government, and that not only is the 
Agency responsible, but the company is responsible so that it 
be transparent and the public knows that this vehicle could 
harm some person in my family.
    And so I thank you for this hearing, Madam Chair. And I 
just think we've got a big responsibility to pass the laws that 
make it necessary for children to look to the history books to 
find if there ever was such a day when this was known by the 
Government and by companies and yet, it was still allowed to 
occur.
    I yield back to balance my time.
    Senator McCaskill. Thank you, Senator Markey. And now, we 
want to thank Mr. Come and Mr. Friedman for your time here 
today. We will continue to communicate with you as we develop 
the record for this hearing and move forward with reforms that 
we think are absolutely essential.
    And now I would ask the second panel to come forward. I 
want to thank all three of you for being here. Let me introduce 
the three witnesses in this panel.
    First, we have Ms. Jacqueline S. Gillan, who is President 
at Advocates for Highway and Auto Safety here in Washington. 
Second, we have Mr. Kendell Poole, who's the Chairman of the 
Governors Highway Safety Association in Nashville, Tennessee. 
And third and finally, Mr. Robert Strassburger, who is the Vice 
President, Vehicle Safety and Harmonization, Alliance of 
Automobile Manufacturers in Washington, D.C.
    Thank you all three. We look forward to your testimony. You 
can begin, Ms. Gillan.

  STATEMENT OF JACQUELINE S. GILLAN, PRESIDENT, ADVOCATES FOR 
                    HIGHWAY AND AUTO SAFETY

    Ms. Gillan. Thank you very much. Good afternoon Chairman 
McCaskill and Senator Blumenthal. I welcome this opportunity to 
appear before you today on behalf of Advocates for Highway and 
Auto Safety to urge enactment of a strong and comprehensive 
safety title in the reauthorization of MAP-21.
    The Senate Commerce, Science, and Transportation Committee 
has a long history of passing bipartisan legislation directing 
agency action on numerous safety standards resulting in 
airbags, safer trucks and busses, child restraints, rollover 
prevention, consumer information, and rearview cameras. These 
laws have saved thousands of lives, prevented millions of 
injuries, and saved billions of dollars.
    However, there is still an unfinished safety agenda. Each 
year, motor vehicle crashes kill about 33,000 people and injure 
2 million more at a cost approaching $1 trillion. There is no 
question that Congressional hearings on the GM cover-up of a 
deadly defect have put a bright spotlight on long-standing 
problems as well as overdue reforms.
    Advocates strongly supports enactment of several Senate 
bills sponsored by members of this committee and others, 
including S. 2760, sponsored by Chairman McCaskill, S. 2559, 
sponsored by Committee Chairman Rockefeller, S. 2151, sponsored 
by Senators Markey and Blumenthal, and S. 2398, sponsored by 
Senators Blumenthal, Markey, and Nelson. These bills are 
critical.
    My written testimony goes into greater detail about the 
importance of each bill. NHTSA needs to be given the financial 
and staff resources necessary to effectively oversee the auto 
industry. However, the Agency cannot be permitted to continue 
practices that have obstructed public oversight of defect 
investigations and result in backroom deals with the auto 
industry.
    Stronger penalties are long overdue and essential to deter 
automakers from knowingly installing defective parts and then 
hiding the problems from the Agency and the public.
    Consumers also must be assured that, when they walk into a 
rental car company or a used car dealership, that they walk out 
with keys to a car that has been repaired if subject to a 
safety recall.
    NHTSA's vehicle safety programs are grossly underfunded. 
Last year, the entire operations and research budget was only 
$248 million. This equates to NHTSA spending a mere $0.94 for 
each of the 266 million registered vehicles on the road. 
Accounting for inflation, NHTSA's operation and research budget 
is effectively 9 percent less than it was a decade ago, even 
though the number of vehicles on the road has grown by 23 
percent. NHTSA's meager budget is also hindering the issuance 
of several safety rules and standards mandated by MAP-21.
    Another critical safety issue is pedestrian safety. 
Pedestrian deaths and injuries are growing. S. 2284, sponsored 
by Senator Gillibrand and others, takes a comprehensive 
approach to implementing safety measures to protect pedestrians 
and bicyclists. The portion of the bill involving roadway 
improvements has already passed the Environment and Public 
Works Committee, and we urge the Commerce Committee to adopt 
the provisions directing NHTSA action on motor vehicle safety 
improvements to reduce the severity of injuries suffered when a 
pedestrian or bicyclist is hit by a car.
    My written testimony also addresses other important issues 
worthy of Congressional action. These include upgrading seat 
belt protection for occupants in a rollover crash as well as 
the safety standard for seat back strength which was issued 45 
years ago.
    Additionally, NHTSA crash data collection needs to be 
modernized. The current budget limits the agency's ability to 
collect sufficient data, and this, in turn, limits their 
ability to identify safety problems and develop safety 
solutions.
    Sadly, this summer, we were all made aware that tragic 
deaths of infants and small children left in hot cars continues 
to occur. Since 1998, more than 600 children have died from 
heat stroke, because they were left in a car.
    Just as with the issue of rear visibility, education 
campaigns alone are not enough to stop these preventable 
deaths. We urge the Committee to direct NHTSA to aggressively 
pursue a technological solution to this deadly problem.
    Finally, far too many states are still missing key traffic 
safety laws that can save lives and prevent injuries. We 
support continuing incentive grant programs to encourage state 
adoption of laws addressing teen, impaired, distracted driving 
and occupant protection with some changes to these programs.
    In conclusion, many of the legislative proposals, sponsored 
by members of this committee and strongly supported by safety 
groups, were considered in the aftermath of the Ford Firestone 
tire defect and then the Toyota acceleration defect. Now, we 
have the GM ignition defect.
    Every day, there are more revelations about vehicle safety 
defects. Unless Congress enacts these essential reforms, like 
the legislation I have mentioned in my statement, it is almost 
certain that similar preventable tragedies will occur over, and 
over, and over again.
    Thank you, and I'm happy to answer your questions.
    [The prepared statement of Ms. Gillan follows:]

        Prepared Statement of Jacqueline S. Gillan, President, 
                 Advocates for Highway and Auto Safety
Introduction
    Good afternoon Chairman McCaskill, Ranking Member Heller, and 
members of the Senate Subcommittee on Consumer Protection, Product 
Safety, and Insurance. I am Jacqueline Gillan, President of Advocates 
for Highway and Auto Safety (Advocates). Advocates is a coalition of 
public health, safety, and consumer organizations, insurers and 
insurance agents that promotes highway and auto safety through the 
adoption of safety policies and regulations, and the enactment of state 
and Federal traffic safety laws. Advocates is a unique coalition 
dedicated to improving traffic safety by addressing motor vehicle 
crashes as a public health issue.
    According to the Federal Government, each year motor vehicle 
crashes claim more than 33,000 lives and millions more are injured. 
Each day, approximately 90 people die and more than 5,000 suffer 
injuries on America's highways. Every minute four people are injured 
and every 17 minutes a life is lost in a crash.\1\ In the span of this 
hearing alone, seven people, more than the number of people on this 
witness panel, will have become victims of a fatal traffic collision 
and more than 450 will have been injured. The annual comprehensive cost 
of motor vehicle crashes is approaching one trillion dollars,\2\ 
including productivity losses, property damage, medical costs, 
rehabilitation costs, congestion costs, legal and court costs emergency 
services such as medical, police, and fire services, insurance 
administration costs, costs to employers, and values for more 
intangible consequences such as physical pain and lost quality-of-life.
---------------------------------------------------------------------------
    \1\ Traffic Safety Facts 2012, A Compilation of Motor Vehicle Crash 
Data form the Fatality Analysis Reporting System and the General 
Estimates System (Traffic Safety Facts 2012), DOT HS 812 032, U.S. DOT, 
NHTSA (2014).
    \2\ The current figure is $870.8 billion according to the Economic 
and Societal Impact of Motor Vehicle Crashes, 2010, U.S. DOT, NHTSA, 
DOT HS 812 013 (2014).
---------------------------------------------------------------------------
    The Senate Committee on Commerce, Science, and Transportation, 
under the leadership of Democrats and Republicans, has been responsible 
for some of the most significant advances in highway and auto safety 
beginning with the drafting and passage of legislation in 1966, leading 
to the creation of what is now the National Highway Traffic Safety 
Administration (NHTSA). Over the last 20 years, this Committee has 
passed other lifesaving measures requiring airbags as standard 
equipment in the front seat of all passenger vehicles as well as 
directing agency action on numerous vehicle safety standards on tire 
safety, child restraints, rollover protection, anti-ejection 
prevention, electronic stability control, roof crush strength, side 
impact protection, and rearview cameras.
    Additionally, the safety title of the Moving Ahead for Progress in 
the 21st Century Act,\3\ or MAP-21, was another important bill 
advancing safety. It included vehicle and traffic safety provisions 
directing agency actions on key lifesaving measures including occupant 
protection, teen driving, distracted driving, and impaired driving. In 
particular, this Committee held hearings and pushed passage of a 
comprehensive motorcoach safety bill based on numerous overdue and 
ignored recommendations, many of them decades old, issued by the 
National Transportation Safety Board (NTSB) to improve occupant 
protection and operational safety of intercity bus travel. Several 
safety accomplishments include a seat belt installation requirement 
which was issued in November 2013,\4\ as well as directing that final 
rules be issued on roof strength, anti-ejection glazing and rollover 
crash avoidance. I am attaching a list and a chart showing the status 
of key requirements enacted in MAP-21 to my testimony. These issues 
languished for years until specific deadlines for agency action were 
included in the recent reauthorization bills.
---------------------------------------------------------------------------
    \3\ Pub. L. 112-141 (July 6, 2012).
    \4\ Occupant Crash Protection; Final Rule, 78 Federal Register 
70416 (Nov. 25, 2013).
---------------------------------------------------------------------------
    Even now, deadlines for the issuance of a number of final rules and 
other actions required by MAP-21 are delayed and will not be completed 
on time, including final rules on several key motorcoach safety issues 
for roof strength, anti-ejection protection and rollover crash 
avoidance,\5\ as well as for improvement of child restraint systems 
also known as Lower Anchorages and Tethers for Children (LATCH), the 
criteria for increased civil penalties, and the study on the need for a 
vehicle electronics standard.
---------------------------------------------------------------------------
    \5\ Since the NHTSA did not issue a notice of proposed rulemaking 
(NPRM) on Bus Rollover Structural Integrity until August 6, 2014, 79 
Federal Register 46090, and public comments are not due until October 
6, 2014, it is evident that the agency will not meet the October 1, 
2014 deadline for issuance of this final rule.
---------------------------------------------------------------------------
    Despite these important safety gains, there is still an unfinished 
safety agenda. The reauthorization of MAP-21 provides an opportunity to 
address these safety concerns and take action to forge solutions. There 
is no question that hearings by this Subcommittee on the General Motors 
(GM) cover-up of a deadly defect in the ignition key switch have put a 
bright spotlight on outstanding problems and solutions that are needed. 
We cannot allow a lack of strong auto regulatory laws to combat 
industry failures, a lack of sufficient resources, a lack of 
accountability and a lackluster performance by NHTSA to jeopardize the 
safety of the public.
    I welcome this opportunity to appear before you today to strongly 
endorse several important bills that have been introduced to address 
these defects in the law and deficiencies by NHTSA including Chairman 
McCaskill's comprehensive six-year reauthorization bill, the Motor 
Vehicle and Highway Safety Enhancement Act of 2014, S. 2760. This bill 
contains needed safety provisions and funding authorization levels to 
continue improvement of highway safety and reduction of traffic 
fatalities. I will discuss the need for this legislation as well as 
other bills pending before the Committee including The Early Warning 
Reporting System Improvement Act of 2014, S. 2151, The Motor Vehicle 
Safety Act of 2014, S. 2559, The Automaker Accountability Act of 2014, 
S. 2398, and The Pedestrian Safety Act of 2014, S. 2284, as well as 
issues not yet introduced as legislation that are worthy of your 
support and leadership. We are very grateful to the Chairman and also 
Subcommittee Members Senators Richard Blumenthal (D-CT), Brian Schatz 
(D-HI) and Cory Booker (D-NJ), as well as Commerce Committee Members 
Senators Bill Nelson (D-FL) and Edward Markey (D-MA), and Senators 
Kirsten Gillibrand (D-NY) and Tammy Baldwin (D-WI) for cosponsoring 
these lifesaving pieces of legislation.
Lives Saved by Safety Systems and Programs
    When Congress acts, NHTSA reacts and lives are saved. Laws passed 
by Congress, including those that originated with this Committee, and 
subsequent rules issued by NHTSA requiring vehicle safety standards and 
technologies have saved thousands of lives. NHTSA studies show that 
since 1975 motor vehicle safety technologies have saved nearly 418,000 
lives.\6\ For example, frontal air bags, a safety technology that this 
Committee championed in 1991,\7\ saved 2,213 lives in 2012 and have 
saved nearly 37,000 people since 1991.\8\ Seat belts saved the lives of 
an estimated 12,174 people over the age of four in 2012, and nearly 
305,000 lives since 1975.\9\ Child restraints saved the lives of 284 
children age four and under in 2012 and more than 10,000 young children 
since 1975.\10\ These safety measures have the potential to save many 
additional lives and prevent costly injuries if they are used to 
protect everyone at risk who needs them. For example, in 2012 if all 
passenger vehicle occupants age five and over had worn seat belts, an 
additional 3,031 lives could have been saved, and a 100 percent 
motorcycle helmet use rate would have saved an additional 781 lives in 
motorcycle crashes.\11\ In addition to laws requiring safety 
technologies, laws such as the 21-year-old minimum drinking age law 
saved 525 lives in 2012.\12\ In 2012, electronic stability control 
(ESC) saved an estimated 1,144 lives among passenger vehicle 
occupants.\13\
---------------------------------------------------------------------------
    \6\ Traffic Safety Facts 2012.
    \7\ Intermodal Surface Transportation Efficiency Act of 1991 
(ISTEA), Title II, Part B, Sec. 2508, Pub. L. 102-240 (Dec. 18, 1991).
    \8\ Traffic Safety Facts 2012.
    \9\ Id.
    \10\ Id.
    \11\ Id.
    \12\ Id.
    \13\ Traffic Safety Facts: Research Note, Estimating Lives Saved By 
Electronic Stability Control 2008-2012, U.S. DOT, NHTSA, DOT HS 812 042 
(June, 2014).
---------------------------------------------------------------------------
    A comprehensive NHTSA reauthorization bill with sufficient agency 
funding and requiring additional commonsense and cost-effective safety 
improvements will allow NHTSA to fulfill its statutory mission to 
prevent death and injuries and economic losses from motor vehicle 
crashes.
Sufficient Resources for NHTSA is Essential
    NHTSA's funding and staffing levels have suffered over the years. 
Today, 94 percent of transportation-related fatalities and 99 percent 
of transportation injuries \14\ occur on our streets and highways and 
yet, NHTSA receives only one percent of the overall U.S. Department of 
Transportation (DOT) budget.\15\ NHTSA is responsible for the safety of 
over 300 million Americans who drive or ride in or are around more than 
265 million registered motor vehicles that use our Nation's 
highways.\16\ Even with the recent downturn in motor vehicle traffic 
fatalities, approximately 32,850 people were killed in 2013 on our 
highways \17\ and millions more were injured at an annual comprehensive 
cost of more than $870 billion.\18\ Motor vehicle crashes are the 
leading cause of death for all Americans ages five to 24, and the 
second leading cause of death among children ages one to four and 
adults 25 to 44 years of age.\19\ In order to maintain safety gains and 
improve the agency's efforts in detecting and investigating safety 
threats, a justified and necessary increase in funding is essential.
---------------------------------------------------------------------------
    \14\ National Transportation Statistics 2013, U.S. DOT, RITA, BTS, 
Tables 2-2, and 2-4 (2014).
    \15\ Budget Highlights Fiscal Year 2014, U.S. DOT.
    \16\ Traffic Safety Facts 2012, A Compilation of Motor Vehicle 
Crash Data form the Fatality Analysis Reporting System and the General 
Estimates System, U.S. DOT, NHTSA, DOT HS 812 032 (2014).
    \17\ Traffic Safety Facts: Crash Stats, Early Estimates of Motor 
Vehicle Traffic Fatalities in 2013, U.S. DOT, NHTSA, DOT HS 812 024 
(2014).
    \18\ The Economic and Societal Impact of Motor Vehicle Crashes, 
2010, U.S. DOT, NHTSA, DOT HS 812 013 (2014).
    \19\ 10 Leading Causes of Death by Age Group, United States--2011, 
and 10 Leading Causes of Injury Deaths by Age Group Highlighting 
Unintentional Injury Deaths, United States--2011, CDC.
---------------------------------------------------------------------------
    The current agency budget for motor vehicle safety activities and 
research is a small portion of NHTSA's overall budget. Current funding 
for NHTSA's operations and research covering the Nation's entire 
vehicle safety program was only $248 million for Fiscal Year (FY) 
2013.\20\ This total is grossly inadequate in the face of the agency's 
mission and safety responsibilities that affect every American and 
every registered motor vehicle on our roads. Moreover, this paltry sum 
has barely increased over the past decade.\21\ When accounting for 
inflation over that same time period, NHTSA has effectively experienced 
a 9 percent decrease in funding for operations and research activities. 
The agency's operations and research budget of $248 million equates to 
NHTSA receiving less than a dollar for each of the 266 million 
registered vehicles on the road in the U.S.\22\ (94 cents to be exact). 
While NHTSA's safety budget has shrunk, the number of vehicles on the 
road the agency must regulate has increased by 23 percent, from 217 
million vehicles in 2000 to 266 million in 2012.\23\ NHTSA remains 
woefully under-resourced and the agency's ability to keep up with 
technology and crash and injury trends is imperiled by the lack of 
sufficient resources. There are hundreds of other Federal programs of 
far less significance with higher budgets that NHTSA's. This is 
unacceptable in light of the important lifesaving mission of this 
agency.
---------------------------------------------------------------------------
    \20\ National Highway Traffic Safety Administration Fiscal Year 
2015 Budget Overview, Exhibit II-2, U.S. DOT, NHTSA (2014).
    \21\ United States Department of Transportation Fiscal Year 2006 
Budget in Brief, U.S. DOT, p.36.
    \22\ Id.; see also Traffic Safety Facts 2012.
    \23\ Compare Traffic Safety Facts 2000, A Compilation of Motor 
Vehicle Crash Data form the Fatality Analysis Reporting System and the 
General Estimates System, DOT HS 809 337, U.S. DOT, NHTSA (2001) with 
Traffic Safety Facts 2012, A Compilation of Motor Vehicle Crash Data 
form the Fatality Analysis Reporting System and the General Estimates 
System, DOT HS 812 032, U.S. DOT, NHTSA (2014).
---------------------------------------------------------------------------
    The agency budget for vehicle safety should reflect its important 
lifesaving mission. In order to provide a solid foundation for NHTSA to 
address the safety of current and future vehicles, I urge the Committee 
to assure this small agency is given the funds needed to do its job. 
Laws and programs administered by NHTSA are responsible for saving at 
least an estimated 418,000 lives since 1975.\24\ NHTSA authorization 
for operations and research should be substantially increased in 
acknowledgement of the daunting task the agency faces and tremendous 
beneficial impact the agency's work has on the lives of so many 
Americans.
---------------------------------------------------------------------------
    \24\ Traffic Safety Facts 2012.
---------------------------------------------------------------------------
Safety Bills Which Should be Included in the Safety Title
    NHTSA is over 40 years old \25\ and should be given authority and 
powers commensurate with the agency's experience and safety mandate. 
This responsibility should be coupled with powers that permit the 
agency to fully perform its duties and allow the agency to exercise its 
enforcement authority to ensure the safety of vehicles on our streets 
and highways. For this reason Advocates supports amending several 
Federal laws to provide NHTSA with enhanced authority to address 
existing safety challenges with 21st Century approaches that will allow 
the agency to leverage its resources to protect the American public. 
Advocates strongly supports the following legislation.
---------------------------------------------------------------------------
    \25\ NHTSA was formally established by the Highway Safety Act of 
1970.
---------------------------------------------------------------------------
The Motor Vehicle and Highway Safety Enhancement Act of 2014, S. 2760
    We commend Senate Commerce, Science and Transportation Subcommittee 
on Consumer Protection, Produce Safety, and Insurance Chairman Claire 
McCaskill (D-MO) for introducing the Motor Vehicle and Highway Safety 
Enhancement Act of 2014, S. 2760, and strongly support its enactment. 
This bill provides for a six-year reauthorization of highway and auto 
safety funding at NHTSA and doubles NHTSA's funding for vehicle safety 
over that time period. It provides the agency the enhanced resources 
and authorities necessary to keep Americans safe on our roads and holds 
accountable those who willfully ignore or violate safety laws and 
regulations.
    Specifically, Advocates supports the increases to the highway 
safety grant funds and the addition of eligibility to use the funds to 
reduce injuries and deaths to older drivers, to improve emergency 
medical services response to crash sites, and to create countermeasures 
designed to decrease deaths and injuries to pedestrians and bicyclists 
traveling in the roadways. More pedestrians were killed in motor 
vehicle crashes in 2012 than in any of the previous four years. 
Pedestrian fatalities have increased by 15 percent and the number of 
pedestrians injured has increased by 29 percent since the recent low in 
2009.\26\ In 2012, the latest year of data available, there were 4,743 
pedestrian deaths and 76,000 pedestrians injured. Vulnerable 
populations make up a significant share of pedestrian fatalities. More 
than one-fifth of children ages five to 15 who were killed in traffic 
crashes were pedestrians. Older pedestrians (age 65+) accounted for 20 
percent (935) of all pedestrian fatalities in 2012. Moreover, the 
fatality rate for older pedestrians (age 65+) was 2.17 per 100,000 
population--higher than the rate for all the other ages under 65. In 
2010, pedestrian crashes resulted in $67 billion in comprehensive 
costs.\27\
---------------------------------------------------------------------------
    \26\ Traffic Safety Facts 2012.
    \27\ The Economic and Societal Impact of Motor Vehicle Crashes, 
2010, HS 812 013, U.S. DOT, NHTSA (2014), available at http://www-
nrd.nhtsa.dot.gov/Pubs/812013.pdf.
---------------------------------------------------------------------------
    Additionally, we support the revision of the criteria states must 
meet to receive grant funding for enacting ignition interlock device 
(IID) laws. Currently, the grant program as interpreted by NHTSA after 
enacted in MAP-21, is overly prescriptive and hence ineffective. While 
24 states have all-offender IID laws or laws required for the first 
offense of an offender with a blood alcohol concentration (BAC) of .08 
percent, only two states received grant funding in FY 2013 and four 
states received grant funding in FY 2014. The commonsense changes 
contained in S. 2760 will help encourage states to enact IID laws which 
are effective and reduce the number of repeat offenders by 64 
percent.\28\ Since 50 to 75 percent of convicted drunk drivers continue 
to drive on a suspended license, it is essential that all drivers 
convicted of impairment be required to use an IID in order to prevent 
them from driving drunk in the future.\29\
---------------------------------------------------------------------------
    \28\ Ignition Interlocks -What You Need to Know, A Toolkit for 
Policymakers, Highway Safety Professionals, And Advocates, DOT HS 811 
246, NHTSA (Nov., 2009).
    \29\ Peck, R.C., Wilson, R. J., and Sutton, ``Driver license 
strategies for controlling the persistent DUI offender, Strategies for 
Dealing with the intent Drinking Driver.'' Transportation Research 
Board, Transportation Research Circular No. 437 (1995).
---------------------------------------------------------------------------
    In 2012, an average of one alcohol-impaired driving fatality 
occurred every 51 minutes in our country resulting in a total of 10,322 
deaths or almost a third of all traffic fatalities for the year.\30\ 
According to the Centers for Disease Control and Prevention (CDC), 
adults drank too much and got behind the wheel to drive about 112 
million times in 2010--the equivalent of nearly 300,000 incidents of 
drinking and driving each day in America.\31\ Nationally, every two 
minutes, a person is injured in a drunk driving crash and, on average, 
one in three people will be involved in a drunk driving crash in their 
lifetime.\32\ Along with the unacceptable loss of life caused by drunk 
driving crashes, the financial costs are staggering. Nationally, drunk 
driving costs exceed $206 billion annually.\33\
---------------------------------------------------------------------------
    \30\ Traffic Safety Facts 2012 Data: Alcohol-Impaired Driving, DOT 
HS 811870, NHTSA (Dec., 2013), available at http://www-
nrd.nhtsa.dot.gov/Pubs/811870.pdf.
    \31\ CDC Vital Signs, Drinking and Driving: A Threat to Everyone 
(Oct., 2011), available at http://www.cdc.gov/vitalsigns/
DrinkingAndDriving/index.html.
    \32\ The Economic and Societal Impact of Motor Vehicle Crashes, op 
cit.
    \33\ Id.
---------------------------------------------------------------------------
    Convincing and compelling studies show states that have adopted IID 
laws for all offenders are saving lives and reducing injuries. Arizona, 
Oregon, Louisiana and New Mexico have experienced dramatic decreases in 
drunk driving deaths of more than 30 percent after these states enacted 
an all-offender IID law.\34\ In addition, when West Virginia adopted 
its IID program, recidivism was reduced by 77 percent among first-time 
offenders.\35\
---------------------------------------------------------------------------
    \34\ Mothers Against Drunk Driving (MADD), Sober to Start, 
Available at http://www.madd
.org/drunk-driving/ignition-interlocks/.
    \35\ Tippetts, A., Scott and Robert Voas, ``The Effectiveness of 
the West Virginia Interlock Program.'' Journal of Traffic Medicine 26 
(1-2) (1998): 19-24.
---------------------------------------------------------------------------
    IIDs are proven technological vaccines that help to save lives and 
prevent the disease of drunk driving recidivism. Nearly eight in 10 
Americans support requiring IIDs for all offenders convicted of driving 
while under the influence of alcohol (DUI), even if it is their first 
conviction.\36\ Furthermore, 82 percent of offenders themselves believe 
the IID was effective in preventing them from driving after 
drinking.\37\ We urge the Subcommittee to support this essential 
improvement to the current criteria.
---------------------------------------------------------------------------
    \36\ Caution Ahead: New Year's Ranks As Deadliest Day On U.S. 
Roads, Dec. 26, 2012, AAA article available at http://newsroom.aaa.com/
tag/ignition-interlock-devices/.
    \37\ Morse, B.J. and Elliott, D.S., Hamilton County Drinking and 
Driving Study: 30 Month Report. Boulder, Colorado: University of 
Colorado (1990).
---------------------------------------------------------------------------
    The bill also addresses inadequacies in laws and regulations 
brought into the national spotlight by the GM ignition switch debacle. 
Current law covers manufacturers in bankruptcy reorganization 
proceedings but does not cover liquidation bankruptcies. This bill 
would close that loophole, ensuring further protections for consumers 
against auto safety defects. Moreover, the bill increases the per 
violation cap on civil penalties from $5,000 to $25,000 and eliminates 
the maximum total penalty cap, which is currently set at $35 million. 
Further, the bill also expands civil penalties to cover not only those 
who violate auto safety laws or regulations, but also those who cause 
violations to occur as well. Critically important is the provision that 
gives Federal prosecutors greater discretion, where warranted, to bring 
criminal prosecutions for auto safety violations and increase the 
possible penalties, including up to life in prison for violations that 
result in death.
    Additionally, Advocates supports the advancement of The Raechel and 
Jacqueline Houck Safe Rental Car Act of 2013, S. 921, of which a 
modified version is included in S.2760. This bill is sponsored by 
Senator Charles Schumer (D-NY) and cosponsored by a number of Senators 
from both sides of the aisle including Subcommittee Chairman Claire 
McCaskill (D-MO) and Subcommittee Members Senators Barbara Boxer (D-
CA), Richard Blumenthal (D-CT), and Brian Schatz (D-HI). This 
legislation will ensure recalled rental vehicles are fixed before a 
consumer gets behind the wheel. The measure is named in memory of 
Raechel and Jacqueline Houck, daughters of Carol (Cally) Houck, who 
were killed in a recalled rental car due to a defect in a steering 
component that caused an under-hood fire and led to the loss of 
steering control. The car had been recalled but had not been repaired 
before it was rented to the public. Raechel and Jacqueline were ages 24 
and 20. The intent of the bill is to prevent future tragedies and to 
allow consumers who rent or purchase rental cars, either new or used 
vehicles, to do so with confidence that the vehicles do not have latent 
safety defects that are subject to a safety recall. The following 
support this legislation: Carol (Cally) Houck, Consumers for Auto 
Reliability and Safety, Center for Auto Safety, Consumer Action, 
Consumers Union, Consumer Federation of America, National Association 
of Consumer Advocates, Trauma Foundation, Advocates for Highway and 
Auto Safety, and others (see attachment).
The Early Warning Reporting System Improvement Act of 2014, S. 2151, 
        and The Motor Vehicle Safety Act of 2014, S. 2559
    Revelations about the failure of GM to timely recall vehicles with 
ignition defects, which led to at least 13 deaths, brought a spotlight 
on inadequacies with NHTSA's recall process, consumer information, 
corporate and agency transparency, and penalties. Advocates commends 
Senators Edward Markey (D-MA) and Richard Blumenthal (D-CT) for 
introducing The Early Warning Reporting System Improvement Act of 2014, 
S. 2151, and Committee on Commerce, Science and Transportation Chairman 
Jay Rockefeller (D-WV) for introducing The Motor Vehicle Safety Act of 
2014, S. 2559. Both of these bills include numerous provisions which 
are needed to reform agency practice and allow adequate public access 
to important agency records, and they are long overdue.
    Currently, NHTSA is not making documents and investigations readily 
available to the public. In recent years the agency has reduced the 
size of, and access to, its technical library, discarded thousands of 
documents and reports of historical importance, and prevented public 
access to information by overly classifying records as confidential or 
requiring the public to seek records through lengthy Freedom of 
Information Act (FOIA) proceedings.\38\ By making documents readily 
available to the public, NHTSA will reduce costs and resource burdens 
by eliminating the necessity for the public to needlessly file FOIA 
requests to obtain basic information. These two bills address many of 
the problems and failures identified in the GM oversight hearings held 
by this Committee.
---------------------------------------------------------------------------
    \38\ Title 5 U.S.C. Sec. 552.
---------------------------------------------------------------------------
    These bills include provisions which:

  <bullet> Require NHTSA to Post Publicly Available Documents on the 
        Agency Website: NHTSA information and interaction with the 
        public over vehicle safety recalls will be vastly improved if 
        more information about recalls and defects is available. NHTSA 
        should be required to post on its website all agency records 
        and documents in the agency's possession that are not 
        confidential.

  <bullet> Revamp the NHTSA Website to Make it User-Friendly: The NHTSA 
        website is difficult to use and it is hard to find information 
        on the site. Many consumers have trouble understanding whether 
        their vehicle, or a used vehicle they wish to purchase, has 
        been the subject of a safety recall. The search engine 
        generally does not locate items, even if the document is 
        identified by name.

  <bullet> Require Early Warning Reporting (EWR) to Include Fatal 
        Incident Claims: The intent of the Transportation Recall 
        Enhancement, Accountability, and Documentation (TREAD) Act \39\ 
        was to ensure that the DOT Secretary receives all reports of 
        fatal traffic incidents that are alleged or proven to have been 
        caused by a possible motor vehicle defect. However, under 
        current NHTSA regulation, manufacturers need only indicate that 
        a fatal crash occurred and do not have to provide copies of the 
        underlying claim, notice or articles that inform the 
        manufacturer that a defect-related fatality involving one of 
        its vehicles had taken place. The EWR law should be amended to 
        require that for incidents involving a fatality, the vehicle 
        manufacturer must submit to the DOT Secretary all claims or 
        notice documents, and any amendments and supplements to those 
        documents, other than medical bills, medical documents and 
        information related solely to property damage, that notified 
        the vehicle manufacturer of the incident.
---------------------------------------------------------------------------
    \39\ Pub. L. 106-414 (Nov. 1, 2000).

  <bullet> Require that EWR Information be Posted Online in a 
        Searchable Format: The EWR information and data should be 
        provided to the public in a searchable website that allows the 
        public to pull together data by make and model from a series of 
---------------------------------------------------------------------------
        EWR reporting periods.

  <bullet> Reverse Presumption Against Release of All Early Warning 
        Information: NHTSA would be required to amend its regulations 
        to establish a presumption in favor of the public disclosure of 
        all EWR data unless otherwise exempt from disclosure under 
        Federal law. The TREAD Act requires automobile and auto 
        equipment manufacturers to submit EWR reports on crashes, 
        fatalities and injuries to NHTSA to allow for early 
        identification of incident and defect patterns. The EWR data 
        was intended to be made public but the agency decided to 
        classify most EWR data as confidential business information. 
        The agency classification created a presumption that provides a 
        blanket exemption from disclosure without any requirement or 
        need for the submitter to certify or file any justification 
        that the EWR data actually contains confidential business 
        information. Much of the EWR data is non-privileged factual 
        information that has nothing to do with protected confidential 
        business information. The agency classification mislabels EWR 
        data as presumptively confidential in order to prevent it from 
        being released to the public.

  <bullet> Require ``Issue Evaluation'' Files Be Made Public (Secret 
        Investigations): Formal defect investigations are required to 
        be made public. NHTSA has created new nomenclature for its 
        preliminary defect investigations in order to avoid having to 
        disclose information to the public. ``Issue Evaluation'' and 
        other agency investigation files should be considered part of 
        the agency's formal defect investigation process and should be 
        required to be made public.

    In addition to these provisions, S. 2151 also includes provisions 
which:

  <bullet> Require NHTSA to Utilize EWR Data in Defect Proceedings: 
        NHTSA does not utilize EWR information in its investigations as 
        a matter of course. The agency should be required to use EWR 
        data as a source of information, when relevant, on any defect 
        investigation.

  <bullet> Require Manufacturers Make Communications about Defects 
        Public: The bill amends current law to require that 
        manufacturers, not DOT, make copies of internal manufacturer 
        and dealer communications about defects and noncompliance 
        publicly accessible on the Internet.

    In addition to these provisions, S. 2559 also includes provisions 
which:

  <bullet> Authorize Judicial Review of Safety Defect Proceedings: In 
        light of the weak response of the agency to reported defect 
        problems with sudden unintended acceleration, essential changes 
        should be required in the manner in which the agency decides 
        how and when to grant defect petitions and the basis for 
        opening and closing preliminary investigations and engineering 
        evaluations. These final agency decisions should be subject to 
        judicial review as is the standard practice for any other final 
        agency order or decision.

  <bullet> Limit Assertions of Confidentiality to Trade Secrets: NHTSA 
        approves overly broad requests for confidentiality from 
        manufacturers regardless of whether the information is truly 
        confidential. The agency should be required to grant 
        confidentiality only for specific data and information that is 
        genuinely a corporate trade secret.

  <bullet> Authorize NHTSA to Expedite Procedures when Imminent Hazard 
        Posed: NHTSA should be authorized to expedite procedures for 
        requiring a recall when there is an imminent hazard.

  <bullet> Create Corporate Responsibility for NHTSA Reports: The bill 
        would amend current law to direct that a rule must be issued to 
        require senior corporate safety officials to affirm that 
        responses provided to NHTSA are true and correct. Current law 
        leaves this decision to the discretion of the agency.

  <bullet> Require Reports to Congress: The DOT Inspector General (IG) 
        is required to file four biannual Congressional reports on 
        utilization of EWR information. Additionally, the DOT Secretary 
        must report to Congress on the operations of the Council for 
        Vehicle Electronics, Vehicle Software and Emerging 
        Technologies.

  <bullet> Restrict Covered Vehicle Safety Officials: Except for 
        providing testimony, former DOT and vehicle safety officials 
        are prohibited, for a period of one year, from any 
        communication regarding any matter involving vehicle safety 
        that seeks official action by any current NHTSA officer or 
        employee on behalf of a regulated manufacturer.

  <bullet> Create a Vehicle Safety User Fee: Starting one year after 
        enactment, the DOT Secretary is to assess a user fee for each 
        vehicle certified as compliant by a manufacturer. User fees are 
        to be set at $3 per vehicle in the first year, $6 in the second 
        year, and $9 in the third year and each subsequent year, 
        adjusted for inflation. The implementing regulation is to be 
        issued in nine months.

  <bullet> Create Authorization Levels: To carry out the Motor Vehicle 
        Safety Act of 2014, the bill authorizes $200 million for FY 
        2015, $240 million for FY 2016, and $280 million for FY 2017. 
        We believe that these levels should be substantially increased 
        for effective implementation.

  <bullet> Prohibit Preemption of State Law: The bill prohibits the DOT 
        Secretary, when issuing safety standards, from addressing the 
        issue of preemption of state law regarding damages for personal 
        injury, death, or property damage unless expressly authorized 
        by Congress. It also declares prior preemption statements 
        issued during the years 2005 to 2008 shall not be considered in 
        determining whether state law has been preempted.
The Automaker Accountability Act of 2014, S. 2398
    Recent safety defect issues have once again raised concerns about 
the authority of NHTSA to deter safety defects, to insist companies 
disclose safety defects once they are known to the company, and to 
impose appropriate sanctions on persons and companies that perpetuate 
safety defects. NHTSA's current civil penalty authority allows 
imposition of a maximum civil fine of only $35 million (adjusted for 
inflation). This is far too small a sum to deter major international 
vehicle manufacturers from violating the requirements of the Motor 
Vehicle Safety Act.
    The cap on civil penalty authority should be removed, and the 
maximum civil penalty per vehicle should be raised to the average sale 
price of a particular vehicle model, and criteria for imposition of at 
least a minimum level of civil fines should be required for violations 
based on annual worldwide motor vehicle sales and/or on the number of 
vehicles affected by a safety recall or voluntary safety campaign.
    Advocates strongly supports The Automaker Accountability Act of 
2014, S. 2398, introduced by Senators Richard Blumenthal (D-CT), Edward 
Markey (D-MA), and Bill Nelson (D-FL), which removes the cap and 
increases civil penalties for a series of violations of Federal motor 
vehicle safety requirements. Additionally, it subjects individuals who 
fail or refuse to perform an inspection, investigation, and record-
keeping requirements pertaining to defective or noncompliant motor 
vehicles or motor vehicle equipment to fines of up to $25,000 per 
violation. It should be noted that the Motor Vehicle and Highway Safety 
Enhancement Act of 2014, S. 2770, also removes the cap on civil 
penalties and increases the per violation penalty amount.
The Pedestrian Safety Act of 2014, S. 2284
    On average, every two hours a pedestrian is killed and every seven 
minutes a pedestrian is injured.\40\ The Pedestrian Safety Act takes a 
comprehensive approach to implementing safety improvements to prevent 
needless deaths and injuries to pedestrians and bicyclists. A broad 
coalition representing consumer, health and safety groups, children and 
older adults, pediatricians, emergency nurses and walking and biking 
advocates (list of coalition is attached) supports the solutions 
proposed in S. 2284, sponsored by Senator Kirsten Gillibrand (D-NY) and 
cosponsored by Subcommittee Members Senators Richard Blumenthal (D-CT), 
Brian Schatz (D-HI) and Cory Booker (D-NJ), to improve safety for those 
who are walking or biking.
---------------------------------------------------------------------------
    \40\ Traffic Safety Facts, 2012 Data, Pedestrians, DOT HS 811 888; 
p. 1, U.S. DOT, NHTSA.
---------------------------------------------------------------------------
    As noted above, more pedestrians were killed in motor vehicle 
crashes in 2012 than in any of the previous four years. In 2012, 4,743 
pedestrian were killed and 76,000 injured. Similarly, there was a six 
percent increase in the number of fatalities of bicyclists and other 
cyclists from 2011 to 2012. In 2012, there were 726 bicyclists and 
other cyclists killed and an additional 49,000 injured. Vulnerable 
populations make up a significant share of pedestrian fatalities. In 
2010, pedestrian/cyclist crashes resulted in an economic cost of $19 
billion. The comprehensive cost for these crashes was $90 billion.\41\
---------------------------------------------------------------------------
    \41\ The Economic and Societal Impact of Motor Vehicle Crashes, op 
cit.
---------------------------------------------------------------------------
    To address this significant public health concern, improvements to 
both the vehicle and the roadway are needed to promote safety for 
pedestrians, bicyclists and motorists. It takes the comprehensive 
approach proposed in S. 2284 to effectively reduce preventable deaths 
and injuries. The MAP-21 Reauthorization Act, S. 2322, reported out by 
the Committee on Environment and Public Works, includes a provision in 
S. 2284 to add pedestrian safety roadway improvements to the list of 
safety projects that are eligible for 100 percent Federal funding.\42\
---------------------------------------------------------------------------
    \42\ Title 23 U.S.C. Sec. 120.
---------------------------------------------------------------------------
    Being hit by a car does not have to be a death sentence. Advocates 
and supporters of the bill urge the Committee on Commerce, Science and 
Transportation, which has jurisdiction over requirements in the bill 
addressing motor vehicle safety improvements, to support enactment of 
provisions in S. 2284 directing the DOT to issue a final rule 
establishing standards for the hood and bumper areas of motor vehicles 
in order to reduce the severity of injuries suffered by pedestrians and 
bicyclists that frequently result in death and lifelong disabilities. 
Just as added padding and restraint systems provide occupant protection 
inside the vehicle in the event of a crash, design improvements to the 
hood and bumper, which are already available on some makes and models 
sold in the U.S., can protect pedestrians and bicyclists on the outside 
of the vehicle in the event of a crash. As we encourage people to get 
out of their cars and to walk and bike, it is essential that we create 
a safe environment for children and adults who choose this mode of 
transportation.
Traffic Safety Programs
    For nearly 20 years, through four separate authorization laws, the 
Nation has spent billions of dollars on traffic safety programs and 
various issue-specific incentive grant programs.\43\ The highway safety 
and incentive grant programs have supported many worthwhile efforts, 
especially state and local enforcement campaigns that have been the 
cornerstone of local safety initiatives. Also, several states have 
adopted optimal safety laws in response to the incentive grant 
programs. However, while there has been progress in adoption of 
lifesaving traffic safety laws, far too many states have failed to 
enact numerous safety statutes resulting in an arbitrary patchwork 
quilt of laws across the Nation.
---------------------------------------------------------------------------
    \43\ Moving Ahead for Progress in the 21st Century (MAP-21) Act, 
Pub. L. 112-141 (July 6, 2012); the Safe, Accountable, Flexible, 
Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU), 
Pub. L. 109-59 (Aug. 10, 2005); the Transportation Equity Act for the 
21st Century (TEA-21), Pub. L. 105-178 (June 9, 1998); and, the 
Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA), Pub. 
L. 102-240 (Dec. 18, 1991).
---------------------------------------------------------------------------
    In 1989, when Advocates was founded, only six states had a seat 
belt law subject to primary enforcement and no state's law covered rear 
seat occupants. In addition, not one state had enacted a statute 
requiring IIDs for drunk drivers or booster seats for children. Today, 
33 states and the District of Columbia (D.C) have a seat belt law 
subject to primary enforcement and 17 of those states and D.C. extend 
the law to cover all occupants. Thirty-one states and D.C. have booster 
seat laws that cover children through age seven. IIDs for all drunk 
drivers are required in 24 states.\44\
---------------------------------------------------------------------------
    \44\ Ohio's booster seat law covers children through age 7 but is 
subject to secondary enforcement and is not included in this statistic.
---------------------------------------------------------------------------
    In 1989, 22 states and D.C. had laws requiring all motorcycle 
riders to wear helmets; however, that number has unfortunately 
decreased over the years to 19 states in 2014 leading to a tremendous 
rise in motorcycle rider deaths. The number of motorcycle crash 
fatalities has more than doubled since a low of 2,116 in 1997.\45\ The 
use of electronic devices in motor vehicles was not yet common in 1989 
but today 39 states and D.C. have recognized the significant public 
safety threat posed by distracted driving and have enacted all-driver 
texting bans subject to primary enforcement. Yet, despite some 
progress, far too many states still lack basic highway safety laws that 
have been proven to reduce occupant and motorcyclist fatalities, 
protect novice teen drivers, prevent drunk drivers from getting behind 
the wheel, and curb crashes due to distracted driving.
---------------------------------------------------------------------------
    \45\ Traffic Safety Facts 2012: A Compilation of Motor Vehicle 
Crash Data from the Fatality Analysis Reporting System and the General 
Estimates System, DOT HS 812 032, NHTSA (2014).
---------------------------------------------------------------------------
    Today, the majority of states (33) do not have a seat belt law that 
is subject to primary enforcement for all occupants of a motor vehicle. 
States that have passed a primary enforcement seat belt law have seen 
dramatic increases in belt use rates. In 2013, states with primary 
enforcement seat belt laws had a use rate of 91 percent, while states 
with secondary enforcement laws or without seat belt laws had a seat 
belt use rate of 80 percent.\46\ Seat belt use, reinforced by effective 
safety belt laws, is a proven lifesaver. Lap-shoulder belts, when used, 
reduce the risk of fatal injury to front seat car occupants by 45 
percent and the risk of moderate-to-critical injuries by 50 percent. 
For light truck occupants, seat belts reduce the risk of fatal injury 
by 60 percent and moderate-to-critical injury by 65 percent.\47\
---------------------------------------------------------------------------
    \46\ Traffic Safety Facts Research Note: Seat Belt Use in 2013--
Overall Results, DOT HS 811 875, NHTSA (Jan., 2014), available at 
http://www-nrd.nhtsa.dot.gov/Pubs/811875.pdf.
    \47\ Traffic Safety Facts: 2012 Data, Occupant Protection, DOT HS 
811 892, NHTSA (Mar., 2014), available at http://www-nrd.nhtsa.dot.gov/
Pubs/811892.pdf.
---------------------------------------------------------------------------
    Currently, 19 states do not have a booster seat law that covers 
children through age seven although using a booster seat with a seat 
belt instead of a seat belt alone reduces a child's risk of injury in a 
crash by 59 percent.\48\ Furthermore, expanded child restraint laws 
covering children through ages seven and eight were associated with a 
five percent reduction in the rate of children with injuries of any 
severity, a 17 percent reduction in the rate of children with fatal and 
incapacitating injuries, and a six percent increase in the number of 
booster-age children seated in the rear of the vehicle where children 
are more protected.\49\
---------------------------------------------------------------------------
    \48\ Ohio's booster seat law does cover children through age 7 but 
it is subject to secondary enforcement and is included as one of the 19 
states cited above. Durbin, D.R., Elliott, M.R. and Winston, F.K., 
Belt-positioning booster seats and reduction in risk of injury among 
children in vehicle crashes, Journal of the American Medical 
Association, 289:2835-40 (2003).
    \49\ Kids in Crashes Far Better IF States Have Tough Restraint 
laws, IIHS Status Report, V. 46, No. 9 (Oct. 2011).
---------------------------------------------------------------------------
    According to a 2012 Government Accountability Office (GAO) report, 
``laws requiring all motorcyclists to wear helmets are the only 
strategy proved to be effective in reducing motorcyclist fatalities.'' 
\50\ However, only 19 states and D.C. currently require all motorcycle 
riders to wear a helmet despite the fact that motorcyclist fatalities 
have more than doubled since a low of 2,116 motorcycle crash deaths in 
1997.\51\ Moreover, according to the latest statistics from NHTSA, in 
2012, there were 10 times as many unhelmeted fatalities (1,858) in 
states without a universal helmet law compared to states with a 
universal helmet law (178 deaths).\52\
---------------------------------------------------------------------------
    \50\ Motorcycle Safety: Increasing Federal Flexibility and 
Identifying Research Priorities Would Help Support States' Safety 
Efforts, Report No. GAO-13-42, 2012, pg. 16, Government Accountability 
Office (GAO), (2012).
    \51\ Traffic Safety Facts 2012.
    \52\ These states were nearly equivalent with respect to total 
resident populations. Traffic Safety Facts: Research Note: 2012 Motor 
Vehicle Crashes Overview, p. 5, DOT HS 811 856, NHTSA (Nov., 2013), 
available at http://www-nrd.nhtsa.dot.gov/Pubs/811856.pdf.
---------------------------------------------------------------------------
    Motor vehicle crashes are the number one killer of American 
teens.\53\ On average, more than seven teens were killed in the United 
States each day of 2012 as a result of motor vehicle crashes.\54\ Teen 
drivers are far more likely to be involved in fatal crashes because 
they lack driving experience and tend to take greater risks, but there 
is a proven solution. States that have adopted graduated driver 
licensing (GDL) programs that introduce teens to the driving experience 
gradually by phasing in full driving privileges over time and in lower 
risk settings, have had overall crash reductions among teen drivers of 
about 10 to 30 percent.\55\ However, at present, there is no state in 
the Nation that has enacted all of the optimal GDL provisions 
recommended by Advocates.
---------------------------------------------------------------------------
    \53\ Centers for Disease Control and Prevention, Teen Driver: Fact 
Sheet, citing Centers for Disease Control and Prevention. Web-based 
Injury Statistics Query and Reporting System (WISQARS) [Online] (2012). 
National Center for Injury Prevention and Control, Centers for Disease 
Control and Prevention (producer). [Cited 2012 Sept 28], available at 
http://www.cdc.gov/motorvehiclesafety/teen_drivers/
teendrivers_factsheet.html.
    \54\ Teenagers: Fatality Facts: 2012, IIHS, available at http://
www.iihs.org/iihs/topics/t/teenagers/fatalityfacts/teenagers.
    \55\ Graduated Licensing Laws and Fatal Crashes of Teenage Drivers: 
A National Study, Insurance Institute For Highway Safety (June, 2010), 
available at http://www.iihs.org/research/topics/pdf/r1122.pdf.
---------------------------------------------------------------------------
    Drinking and driving continues to be a national scourge on our 
highways. An average of one alcohol-impaired driving fatality occurred 
every 51 minutes in 2012.\56\ Yet, the majority of states (26) do not 
require all drunk driving offenders to install an IID even though 82 
percent of offenders themselves believe the IID was effective in 
preventing them from driving after drinking.\57\ In addition, when IIDs 
are installed, they are associated with an approximately 70 percent 
reduction in arrest rates for impaired driving.\58\
---------------------------------------------------------------------------
    \56\ Traffic Safety Facts 2012 Data: Alcohol-Impaired Driving; DOT 
HS 811870, NHTSA (Dec., 2013), available at http://www-
nrd.nhtsa.dot.gov/Pubs/811870.pdf.
    \57\ Morse, BJ and DS Elliott. Hamilton County Drinking and Driving 
Study: 30 Month Report. Boulder, Colorado: University of Colorado 
(1990).
    \58\ Injury Prevention & Control: Motor Vehicle Safety, Impaired 
Driving: Get the Facts website, CDC, available at http://www.cdc.gov/
motorvehiclesafety/impaired_driving/impaired
-drv_factsheet.html.
---------------------------------------------------------------------------
    Finally, it is clear from a growing body of safety research, 
studies and data that the use of electronic devices for 
telecommunications (such as mobile phones and text messaging), 
telematics and entertainment can readily distract drivers from the 
driving task. In fact, sending or receiving a text message causes the 
driver's eyes to be off the road for an average of 4.6 seconds. When 
driving 55 miles per hour, this is the equivalent of driving the entire 
length of a football field blind.\59\ Yet, 11 states still do not have 
a ban on texting while driving that is subject to primary enforcement 
and covers all drivers.
---------------------------------------------------------------------------
    \59\ Distraction.gov: Frequently Asked Questions, DOT NHTSA, 
available at http://www
.distraction.gov/content/get-the-facts/faq.html.
---------------------------------------------------------------------------
    Advocates supports the National Priority Safety Programs, contained 
in Section 31105 of MAP-21,\60\ that provide incentive grants to the 
states to pass these lifesaving safety laws. These grants are helpful 
to encourage action in state legislatures to pass measures that will 
reduce fatalities on our Nation's roads. However, Advocates believes 
that the current requirements must be modified so that these grants 
serve as a true incentive to the states to strengthen their statutes. 
For both the 2013 and 2014 fiscal years, not one state qualified for a 
GDL grant and only eight states received Federal funding to combat 
distracted driving including just one state in 2014. While Advocates 
urges Congress to amend these grant requirements so that they encourage 
states to enact these highway safety laws, modifications must not 
dilute requirements that have been proven to be effective in reducing 
deaths and injuries on our Nation's roads. We would like to work with 
this Subcommittee to implement changes to achieve that balance.
---------------------------------------------------------------------------
    \60\ Codified at Title 23 U.S.C. Sec. 405.
---------------------------------------------------------------------------
    While Advocates applauds NHTSA for reorganizing the oversight of 
its grant programs to the states including monies disbursed under the 
National Priority Safety Programs, the recent report by the DOT IG 
shows that there is still much work to be done. The IG report found 
that from FY 2006 to FY 2012 there was $539 million in unexpended grant 
funds including $331 million in 2012 alone.\61\ As the DOT IG report 
notes, funds left unused represent opportunities missed to support 
programs that reduce deaths and injuries. In addition, the DOT IG 
report also determined that NHTSA lacks a strategy to address delays in 
states using the funds that have already been distributed. Thus, for 
the National Priority Safety Programs to achieve beneficial results and 
exert positive impacts on safety, the grant requirements must be 
modified and NHTSA must do a better job in administering this critical 
initiative.
---------------------------------------------------------------------------
    \61\ Enhanced Monitoring Tools Are Needed To Improve NHTSA's 
oversight of Highway Safety Grants, Report No: MH-2014-088, U.S. DOT, 
Office of the Inspector General (Aug. 21, 2014).
---------------------------------------------------------------------------
Additional Needed Motor Vehicle Safety Standards
    The safety title of the MAP-21 reauthorization bill will influence 
our Nation's safety agenda for years to come as well as the death and 
injury toll on our highways. There are several issues Advocates would 
like to bring to your attention for consideration and work with the 
Committee in advancing several key safety provisions. Every one of 
these issues represents an opportunity to address a serious and deadly 
problem.
Seatbelt Protection in Rollover Crashes
    In 2012 alone, occupant protection measures including child 
restraints, seatbelts, frontal airbags and motorcycle helmets have 
saved at least 16,000 lives.\62\ Seatbelts have been proven to be 
effective at reducing the risk of injuries and fatalities in crashes in 
a large number of studies, in many cases cutting the risk in half.\63\ 
In 2012 over 12,000 lives were saved by seatbelt use, and another 3,031 
could have been saved with 100 percent seatbelt use.\64\ Although seat 
belt use rates reached 86 percent in 2012,\65\ nearly 45 percent of all 
car and light truck occupants killed in that year were using some form 
of restraint.\66\ Upgrades to seat belt systems can improve seat belt 
performance and reduce the number of restrained occupants who are 
killed in motor vehicle crashes.
---------------------------------------------------------------------------
    \62\ Traffic Safety Facts 2012.
    \63\ Fatality Reduction by Safety Belts for Front-Seat Occupants of 
Cars and Light Trucks, DOT HS 809 199, NHTSA (Dec. 2000); Dissanayake, 
S. and Ratnayake, I., Effectiveness of Seat Belts in Reducing Injuries: 
A Different Approach Based on KABCO Injury Severity Scale, Journal of 
the Transportation Research Forum, Vol. 47, No. 4, pp. 135-146 (Fall 
2008); Evand, L., Safety-Belt Effectiveness: The Influence of Crash 
Severity and Selective Recruitment, Accid. Anal. and Prev., Vol. 28, 
No. 4, pp. 423-433 (1996).
    \64\ Traffic Safety Facts 2012.
    \65\ Traffic Safety Facts Research Note: Seat Belt Use in 2012--
Overall Results, DOT HS 811 691, NHTSA (Nov. 2012).
    \66\ Traffic Safety Facts 2012.
---------------------------------------------------------------------------
    Rollover crashes have accounted for more than a third of all 
fatalities in these vehicles annually since 2005.\67\ In 2012, 7,500 
passenger car and light truck occupants were killed in rollover 
crashes, amounting to 35 percent of all fatalities in light 
vehicles.\68\ Little has been done to improve occupant restraint system 
protection in rollover crashes. Improvements in vehicle design, and the 
adoption of regulations for ESC, roof strength, and ejection 
mitigation, which address some causes of rollover crashes and injuries, 
have not eliminated rollovers as a major source of serious head and 
other occupant injuries.
---------------------------------------------------------------------------
    \67\ Id.
    \68\ Id., Table 23.
---------------------------------------------------------------------------
    Current seatbelts systems are designed to provide safety in a 
frontal crash but do not retain the occupant in a safe position in the 
vehicle seat during a rollover crash. According to NHTSA data, 13 
percent of fatal occupants and 27 percent of seriously injured non-
fatal occupants who were partially or completely ejected through side 
windows in rollovers were belted.\69\ These statistics reflect the 
inability of current seatbelts to perform effectively in rollover 
crashes.
---------------------------------------------------------------------------
    \69\ Federal Motor Vehicle Safety Standards, Ejection Mitigation; 
Phase-In Reporting Requirements; Incorporation by Reference, Final 
Rule; NHTSA, 76 Federal Register 3212, 3217 Table 7 (Jan. 19, 2011).
---------------------------------------------------------------------------
    Given the large number of rollover deaths and injuries that could 
be prevented or mitigated, NHTSA should be directed to issue a final 
rule to establish vehicle seatbelt rollover crash performance 
requirements, based on occupant excursion or other safety performance 
measures that require the use of existing technology, such as pre-
tensioners, emergency locking retractors, and other belt-based safety 
devices to reduce occupant motion relative to the vehicle in the event 
of a rollover crash.
Electronics Safety Standard
    In recent years, nearly all vital functions of motor vehicles have 
become reliant on electronic systems and computer controls. Critical 
safety systems such as the vehicle transmission, throttle control, 
braking and power window systems, as well as occupant restraint 
systems, among other functions, are dependent on electronics and are 
monitored and governed by electronic control units. Vehicle electronics 
are vital to the proper operation of all new passenger motor vehicle 
models. Modern motor vehicles are built using, on average, 40 
electronic controllers, five miles of wiring that support numerous 
functions and are monitored and regulated by 10 million lines of 
software code.\70\ MAP-21 requires the DOT Secretary to complete an 
examination of the need for safety standards to ensure a minimum level 
of performance by electronic systems in passenger vehicles. The study 
is required to consider electronic components and the interaction of 
those components, the security needs for electronic systems to prevent 
unauthorized access and the effect of the surrounding environment on 
the vehicle electronic systems.\71\ The NHTSA study is still in 
progress and will not be submitted to Congress by the September 30, 
2014 deadline.
---------------------------------------------------------------------------
    \70\ Klier, T.H., and Rubenstein, J.M., Making Cars Smarter: The 
Growing Role of Electronics in Automobiles, Chicago Fed Letter, No. 
291a, The Federal Reserve Bank of Chicago (Oct. 2011) available at 
http://www.chicagofed.org/webpages/publications/chicago_fed_letter/
2011/october_291a.cfm.
    \71\ Electronic Systems Performance, Sec. 31402, MAP-21.
---------------------------------------------------------------------------
    Despite the on-going study, Advocates is concerned that the failure 
to adopt minimum standards for complex electronic functions will lead 
to potentially serious safety problems. In the past six months alone, 
manufacturers have twice filed petitions requesting a decision of 
inconsequential noncompliance regarding interference with vehicle 
displays by non-safety systems such as accessing the radio, an mp3 
player, or Bluetooth connected phone. In each case the use of a non-
safety function interfered with a vehicle safety function causing a 
non-compliance with Federal Motor Vehicle Safety Standards (FMVSS). 
While these two situations may not have seriously compromised safe 
operation of the vehicles involved, they are clear examples of the need 
for a safety standard. At a minimum, such a standard for vehicle 
electronics should ensure that the proper functioning of safety systems 
cannot be degraded, inhibited, or interfered with by non-safety 
features.
Seatback Strength
    The safety standard for seatback performance has not been upgraded 
since it was first adopted in 1967. When the driver or front passenger 
seatback fails or collapses in a crash, it endangers both the front and 
rear seat occupants. Regulatory compliance rear impact crash tests for 
fuel system integrity (FMVSS 301), conducted by NHTSA, reveal that 
almost every seatback fails, allowing a front seat occupant to be 
propelled into the rear seating area. Seat belt systems that are 
effective in frontal crashes are not designed to keep front seat 
occupants from slipping out of the belt system when the seatback 
collapses, leading to an increase in the risk of injury to the front 
seat occupant, often paraplegia or quadriplegia.
    Parents have long been advised to secure young children in the rear 
seat. Also, as the U.S. passenger vehicle fleet gradually downsizes in 
response to more costly fuels as well as environmental concerns, the 
distance between front seats and rear seated occupants will be reduced. 
Children's Hospital of Philadelphia (CHOP) has determined that 
collapsing seatbacks are a serious threat to children seated behind 
adult occupants in the front seats. Many children were found to have 
been injured in crashes in which seatbacks collapse or there is 
excessive seat deformation. The failure of a seatback directly in front 
of a child places the child at risk, and when there is an occupant in 
the seat that fails there is double risk of injury to the child.\72\ 
NHTSA noted in a 1997 study that an examination of the interaction 
between front seatback failures and injuries to rear seat occupants may 
be important to assess the entirety of the occupant protection 
implications of seatback failure.\73\ NHTSA has stated that the weight 
of a passenger when added to the weight of the seatback itself will, 
even in a low severity crash, produce loads exceeding the level 
required by FMVSS 207.\74\
---------------------------------------------------------------------------
    \72\ Jermakian, J.S., Arbogast, K. B., Durbin, D.R. and Kallan, 
M.J. Injury Risk for Children in Rear Impacts: Role of the Front Seat 
Ocucpant, Ann. Adv. Automot. Med., 52:109-16 (Oct., 2008).
    \73\ Preliminary Assessment of NASS CDS Data Related to Rearward 
Seat Collapse and Occupant Injury; U.S. DOT, NHTSA (May, 1997).
    \74\ Performance of Seating Systems in a FMVSS No. 301 Rear Impact 
Crash Test, ESV Paper No. 18-00248, U.S. DOT, NHTSA.
---------------------------------------------------------------------------
    In light of this information and the lack of action by the agency, 
we strongly urge this Committee to direct the DOT to upgrade the 
performance of vehicle seatbacks, including head restraints, to 
increase the protection of children and adults in passenger motor 
vehicle crashes. The seat back standard is more than 45 years old and 
needs to be upgraded.
Consumers Must Be Able to Purchase Safety Equipment as Stand-Alone 
        Options
    Safety systems that are not required as standard equipment by 
Federal regulation are promoted by vehicle manufacturers as optional 
equipment, but are often sold bundled together with non-safety features 
and only in certain vehicle model trim levels. For example, in 2012, 
consumers could not purchase a rearview or back-up camera system on the 
basic model of the highest selling passenger car.\75\<SUP>,</SUP>\76\ 
Back-up camera systems, which are not yet required in all vehicle 
models until the new standard takes effect in 2018,\77\ were available 
only in a pricier version of many vehicle model lines, and then only as 
part of an expensive options package including many non-safety upgrades 
such as a power moon-roof, push button engine start, auto dimming 
mirrors, and leather trimmed seats that cost as much as $5,175.\78\
---------------------------------------------------------------------------
    \75\ To 10 Best-Selling Cars of 2012, Car.Com website http://
blogs.cars.com/kickingtires/2013/01/top-10-best-selling-cars-of-
2012.html.
    \76\ Toyota.com Camry and Camry Hybrid 2014 models webpage, 
accessed July 14, 2013, http://www.toyota.com/camry/features.html#!/
interior/2514/2532/2546/2540.
    \77\ Rear Visibility Final Rule, 79 Federal Register 19178, 19228 
(Apr. 7, 2014).
    \78\ Toyota.com ``Build A Camry'' tool, accessed Jul. 14, 2013, 
http://www.toyota.com/configu
rator/#!/series/camry/grade/SE.
---------------------------------------------------------------------------
    In this example, a safety conscious consumer looking to buy what at 
that time was the country's most popular passenger car would have to 
pay a 28 percent premium over the base price for improved rear 
visibility that could save the life of a child or pedestrian. This 
additional cost for consumers is even more shocking considering that 
NHTSA has already concluded that installation of rearview cameras would 
cost no more than $203.\79\ The current practice of bundling identified 
safety technologies into convenience packages that include non-safety 
features benefits the manufacturer's bottom line, but not the wallet of 
consumers. It forces consumers either to risk their safety and the 
safety of others to avoid paying extremely high prices for critical 
safety features not yet required by Federal safety rules or to purchase 
non-safety features and equipment they do not want in order to get a 
desired safety protection feature.
---------------------------------------------------------------------------
    \79\ Preliminary Regulatory Impact Analysis, Backover Crash 
Avoidance Technologies, NPRM, FMVSS No. 111, NHTSA (Nov. 2010).
---------------------------------------------------------------------------
    Safety conscious consumers should not be limited to the marketing 
campaigns of vehicle manufacturers when it comes to safety equipment. 
We urge the Committee to support amending Federal law to authorize and 
direct the DOT to issue a final rule requiring that manufacturers must 
offer for sale as a stand-alone option (separately from any other 
technology or options package) any safety device, feature or technology 
that is listed by NHTSA as a recommended safety feature by the New Car 
Assessment Program (NCAP). Any such safety device, feature or 
technology that is offered on any trim level of a vehicle model must be 
offered on all trim levels of that vehicle model.
Crash Avoidance Technology Can Reduce Large Truck Crash Involvement
    In 2012, there were over 5.6 million crashes on U.S. roads which 
injured over 2.3 million people and claimed the lives of over 33,500 
people.\80\ Despite representing only 4 percent of registered vehicles, 
collisions involving large trucks accounted for 12 percent of all 
fatalities in 2012.\81\ Nearly 60 percent of all large trucks involved 
in fatal collisions in 2012 were in frontal impacts. Frontal impacts 
also accounted for 45 percent of all large trucks in injury crashes, 
and 36 percent of all large trucks in property damage only crashes.\82\ 
In fatal two-vehicle crashes involving a large truck, the front of the 
vehicle was the impact point on the large truck in 62 percent of the 
cases.\83\
---------------------------------------------------------------------------
    \80\ Traffic Safety Facts 2012.
    \81\ Id.
    \82\ Id.
    \83\ Traffic Safety Facts, 2012 Data, Large Trucks, DOT HS 811 868, 
NHTSA (May, 2014).
---------------------------------------------------------------------------
    Crash imminent braking (CIB), also called an autonomous emergency 
braking system (AEBS), is a crash avoidance system that can detect 
objects or obstacles in the vehicle path and apply the brakes 
automatically to prevent or mitigate frontal collisions. It is 
important to note that these systems do not take control of braking 
away from the driver unless a collision is imminent and almost 
unavoidable. This type of automatic braking system would both alert the 
driver and automatically begin braking in cases where the driver is not 
alert to the emergency nature of the situation.
    The Insurance Institute for Highway Safety (IIHS) found one vehicle 
manufacturer's CIB system reduced bodily injury claims by 18 to 33 
percent, property damage liability claims by 15 to 16 percent, and 
collision claims by nine to 20 percent.\84\ Research by the European 
New Car Assessment Program (EuroNCAP) suggests that CIB systems can 
reduce crashes by up to 27 percent.\85\ A 2009 report on Forward 
Collision Warning Systems for trucks (which are basic CIB systems that 
only warn but do not autonomously brake the vehicle) found that these 
systems could prevent as many as 18,000 rear-end crashes of trucks into 
other vehicle.\86\ The NTSB previously included a mandate for CIB 
systems as part of its 2013 Most Wanted List,\87\ and the European 
Union requires these systems on new heavy trucks and buses which were 
phased in beginning in 2013 and will apply to all trucks and buses by 
the end of 2015.\88\ Even where CIB systems cannot completely prevent a 
collision, the technology provides a significant benefit by reducing 
the impact speed at which a collision would otherwise have occurred, 
resulting in less severe injuries.
---------------------------------------------------------------------------
    \84\ Volvo City Safety loss experience--Update, IIHS Highway Loss 
Data Institute, Bulletin Vol. 29, No. 23 (Dec. 2012).
    \85\ Euro NCAP to drive availability of Autonomous Emergency 
Braking systems for safer cars in Europe, Euro NCAP press release, Jun. 
2012, http://www.euroncap.com/Content-Web-Article/c79b2bdc-f914-4ad0-
8d49-54254cda0ddc/euro-ncap-to-drive-availability-of-autonomous-
emer.aspx.
    \86\ Analysis of Benefits and Costs of Forward Collision Warning 
Systems for the Trucking Industry, FMCSA (Feb., 2009).
    \87\ Mandate Motor Vehicle Collision Avoidance Technologies, NTSB, 
available at http://www.ntsb.gov/safety/mwl10_2012.html.
    \88\ Regulation (EC) No. 661/2009 and Commission Regulation (EU) 
No. 347/2012.
---------------------------------------------------------------------------
    Advocates urges Congress to expedite the installation of this 
safety technology by directing DOT to establish a safety standard that 
sets performance requirements for CIB systems and requires the 
installation of CIB systems that meet the performance requirements in 
trucks and buses.
Reminders to Prevent Unattended Child Deaths
    All too often, adults inadvertently leave infants and young 
children in child restraint systems in the rear seats of passenger 
vehicles and many of these incidents tragically lead to death. Among 
parents with only a child or children age three and under, 23 percent 
said that they had mistakenly left a child in a locked and parked 
vehicle.\89\ Exposure of young children, particularly in hot and cold 
weather, leads to hyperthermia and hypothermia that can result in death 
or severe injuries. In 2013 alone, 44 children in the U.S. died of 
heatstroke.\90\ Over the period 1998 to 2013, 606 children were killed 
from heatstroke.\91\ This is the leading cause of non-crash-related 
deaths among children 14 and younger.\92\ Of these needless deaths, 52 
percent occurred when children were forgotten in the vehicle.\93\ This 
risk of heatstroke is higher among children than adults because a 
child's temperature heats up three to five times faster and risk is 
exacerbated if the child is too young to communicate.\94\
---------------------------------------------------------------------------
    \89\ ``New Study: 14 percent of Parents Say They Have Left A Child 
Alone Inside Parked Vehicle Despite the Risks of
    Heatstroke,'' Safe Kids Worldwide, April 2014, available at http://
www.safekids.org/press-release/new-study-14-parents-say-they-have-left-
child-alone-inside-parked-vehicle-despite
    \90\ Kids in Hot Cars: Heat Stroke Fact Sheet, NHTSA, accessed at 
http://www.safercar.gov/parents/heat-involved.html on 9/11/2014.
    \91\ Id.
    \92\ Id.
    \93\ Id.
    \94\ Id.
---------------------------------------------------------------------------
    Just as with the issue of rear visibility and the inability of 
drivers to see in blind zones behind a motor vehicle, educational 
campaigns alone are not enough to stop these preventable deaths. Such 
inadvertent deaths can be avoided by equipping vehicles with sensors to 
detect the presence of the child and sound a warning at the time the 
driver locks the vehicle with a child inside. This is not rocket 
science. Similar warning features currently remind drivers when they 
have left the key in the ignition, left the headlamps on, and when a 
door or trunk is open while the vehicle is in motion. We urge the 
Committee to support a technological solution to this deadly problem 
including requiring the agency to issue a final rule by a deadline date 
within the next few years.
NHTSA Crash Data Collection Improvements--Need for Use of Cameras
    Crash data collection is among the many critical areas under 
NHTSA's jurisdiction that urgently need to be modernized. Presently the 
agency oversees the collection of crash data for three related 
databases; the General Estimates System (GES) and the Crashworthiness 
Data System (CDS) which together are known as the National Automotive 
Sampling System, or NASS, and the Fatality Analysis Reporting System 
(FARS). The data collected for these systems form the bedrock of almost 
every safety analysis conducted by NHTSA and other Federal agencies, 
and form the foundation for safety initiatives and rulemaking. Despite 
the fact that these databases are critical to identifying safety 
problems and developing safety countermeasures, the crash data systems 
have been woefully underfunded.\95\ This has limited the collection and 
availability of data and the strength of research needed to improve 
vehicle safety to address the injuries sustained by more than 2 million 
people and the more than 33,000 deaths that occur each year in traffic-
related collisions.
---------------------------------------------------------------------------
    \95\ The NHTSA Fiscal Year 2015 budget overview indicates that the 
total budget for the National Center for Statistics and Analysis 
(NCSA), which operates the FARS, GES and CDS databases, is $28.5 
million with less than that apportioned for crash data collection, 
available at http://www.nhtsa.gov/staticfiles/administration/pdf/
Budgets/NHTSA_Budget_Highlights_
FY2015.pdf.
---------------------------------------------------------------------------
    The underlying original source for the data used in the NHTSA crash 
data systems are police accident reports (PARs) generated by law 
enforcement officers responding to motor vehicle crashes. NHTSA 
collects information from police reports in every fatal crash in the 
FARS database, providing a census of all fatal crashes each year. The 
agency also collects information from police reports on a statistically 
based sample of approximately 50,000 non-fatal crashes, out of the more 
than 5 million crashes reported annually, in the GES database in order 
to develop an overview of motor vehicle crashes. The agency then 
investigates a selected sample of these cases to obtain in-depth data 
beyond the information contained in the police reports, as part of the 
NASS-CDS database for the analysis and development of safety 
countermeasures.
    The CDS system, as originally conceived, was intended to conduct 
extensive investigations of a sample of 19,000 of the cases selected 
from the GES. As of 2012, the number of cases investigated has fallen 
below 4,000 and the agency has predicted that just over 3,000 cases 
were investigated in 2013. Budget limitations have severely reduced the 
capability of the program to less than a quarter of the original design 
size that was considered necessary as a minimum requirement to provide 
a robust sample of crashes involving recent vehicle models. This lack 
of funding seriously compromises the usefulness of the data that is 
critical to issuance of Federal motor vehicle safety standards.
    The modernization and improvement of the PARs which form the basis 
of the entire data collection system is a critical and necessary step. 
Considering the significantly limited number of cases which the agency 
is currently able to investigate, it is imperative that the agency be 
able to identify the most important cases which will provide meaningful 
data from a safety research standpoint. This modernization should 
include universal and improved electronic recording of PARs using 
laptops or handheld computing platforms already available to most law 
enforcement agencies. Such a change could improve the accuracy of PARs 
and provide a platform for increased transfer of information to state 
and Federal crash databases.
    The addition of digital photographs of vehicles involved in each 
police-reported collision, appended to the electronic police report, is 
another essential and inexpensive improvement that would provide a 
substantial benefit for crash data collection. Such a system would 
assist NHTSA investigators in selecting significant cases and would 
also benefit law enforcement at the local level by providing officers 
with visual documentation of conditions during an investigation. 
Although Advocates has strong reservations about relying solely on the 
PARs to make administrative ad hoc determinations of culpability for a 
crash, these modernizations would be focused on improving the amount 
and accuracy of information provided in PARs which will result in 
direct improvements in national safety data.
    Advocates calls on Congress to provide the funding to modernize 
national motor vehicle crash data collection and to direct the DOT to 
initiate a pilot program to examine the cost effectiveness of 
modernizing PARS and improving the design and statistical basis of the 
NASS databases.
Conclusion
    The quality of life for all Americans depends on a safe, reliable, 
and economical surface transportation system. Transportation solutions 
to promote mobility and the economy must involve not only financial 
investments, but also investments in safety as well. Highway crashes 
cost our Nation more than $870 billion in comprehensive costs annually. 
This is money that could be better spent on addressing surface 
transportation needs.
    The decrease in highway fatalities that has occurred over the last 
six years affords an opportunity to continue the downward trend and 
make substantial and lasting reductions in annual fatalities. The 
tragedies caused by GM's inadequate recall process sounded the alarm on 
lapses in procedures to identify and disclose safety defects and laws 
to deter corporate actions that result in needless deaths and injuries. 
Now is the time to take direct and swift action by advancing The Motor 
Vehicle and Highway Safety Enhancement Act of 2014, S. 2760, The Early 
Warning Reporting System Improvement Act, S. 2151, The Motor Vehicle 
Safety Act of 2014, S. 2559, and The Automaker Accountability Act of 
2014, S. 2398. Additionally, the recent and dramatic increase in 
pedestrian fatalities calls for the advancement of The Pedestrian 
Safety Act of 2013, S. 2284. There are no acceptable excuses for 
delaying any longer the adoption of lifesaving laws, consumer 
protections, increased penalties for corporate misbehavior, 
strengthening NHTSA's authority and resources, and improved vehicle 
safety standards that can save lives and reduce injuries, especially 
when the solutions are at hand as we have highlighted today.
    Thank you for the opportunity to testify before you today and I am 
pleased to answer your questions.
                                 ______
                                 
 Organizations in Support of The Pedestrian Safety Act of 2014, S. 2284

AARP

Advocates for Highway and Auto Safety

Alliance for Biking & Walking

America Walks

American Academy of Pediatrics

Association of Metropolitan Planning Organizations (AMPO)

Child Injury Prevention Alliance

Citizens for Reliable and Safety Highways (CRASH)

Consumer Federation of America

Emergency Nurses Association

KidsAndCars.org

League of American Bicyclists

National Resources Defense Council (NRDC)

Parents Against Tired Truckers (P.A.T.T.)

Public Citizen

Society for the Advancement of Violence and Injury Research

Trauma Foundation

Truck Safety Coalition
                                 ______
                                 

                               MAP-21 Motorcoach Safety Action Items and Schedule
----------------------------------------------------------------------------------------------------------------
                                                                                             Action Taken (In
          Issue              Section            Action Required           Action Date            Italics)
----------------------------------------------------------------------------------------------------------------
Motorcoach Safety Rules--    32703(a)   NHTSA to issue final rule on         10/1/2013   Final rule issued
 Improved Occupant                       seat belts                           (1 year)   8/2013.
 Protection
                         ---------------------------------------------------------------------------------------
                             32703(b)   NHTSA to issue final rules on        10/1/2014   Proposed rule (NPRM) on
                                        <bullet> Roof strength               (2 years)    roof strength and
                                        <bullet> Anti-ejection glazing                    interior occupant
                                        <bullet> Rollover crash                           protection issued 8/6/
                                         avoidance                                        14. Addresses roof
                                                                                          strength, luggage
                                                                                          racks and requires
                                                                                          windows on opposite
                                                                                          side of coach from the
                                                                                          crash to remain in
                                                                                          place in tip over
                                                                                          test, but does not
                                                                                          require installation
                                                                                          of break-proof
                                                                                          laminated glass. Does
                                                                                          not include rollover
                                                                                          crash avoidance.
                         ---------------------------------------------------------------------------------------
                             32703(c)   NHTSA to issue final rule            10/1/2015   Final rule must be
                                         requiring tire pressure             (3 years)    issued unless agency
                                         monitoring systems or report                     determines standard is
                                         to Congress reasons for not                      not practicable, does
                                         prescribing safety standard                      not meet the need for
                                                                                          motor vehicle safety
                                                                                          and cannot be stated
                                                                                          in objective terms.
                         ---------------------------------------------------------------------------------------
                             32703(d)   NHTSA to consider need to            10/1/2015   Final rule must be
                                         issue final rule to upgrade         (3 years)    issued unless agency
                                         tire performance standard                        determines standard is
                                                                                          not practicable, does
                                                                                          not meet need for
                                                                                          motor vehicle safety
                                                                                          and cannot be stated
                                                                                          in objective terms.
                         ---------------------------------------------------------------------------------------
                             32703(e)   NHTSA to report to Congress on    10/1/2014 (2   NHTSA determined that
                                         feasibility of retrofit of             years)    seat belt retrofit is
                                         seat belts and ejection                          not feasible. Decision
                                         safety countermeasures                           on retrofit of
                                                                                          ejection
                                                                                          countermeasures is
                                                                                          pending.
----------------------------------------------------------------------------------------------------------------
Fire Prevention and             32704   NHTSA to issue final rules           10/1/2015   Final rules must be
 Mitigation Standards                    for:                                (3 years)    issued unless agency
                                        <bullet> Flammability of                          determines standards
                                         exterior parts                                   are not practicable,
                                        <bullet> Smoke suppression                        do not meet need for
                                        <bullet> Wheel well fires                         motor vehicle safety
                                        <bullet> Automatic fire                           and cannot be stated
                                         suppression                                      in objective terms.
                                        <bullet> Passenger evacuation
                                        <bullet> Causation &
                                         prevention of fires
                                        <bullet> Improved fire
                                         extinguishers
----------------------------------------------------------------------------------------------------------------


                          MAP-21 Motorcoach Safety Action Items and Schedule--Continued
----------------------------------------------------------------------------------------------------------------
                                                                                             Action Taken (In
          Issue              Section            Action Required           Action Date            Italics)
----------------------------------------------------------------------------------------------------------------
Occupant Protection,            32705   Complete research/testing on:        10/1/2015   NHTSA to complete
 Collision Avoidance,                   <bullet> Interior impact             (3 years)    research on each
 Fire Causation and Fire                 protection                                       topic.
 Extinguisher Research &                <bullet> Compartmentalization
 Testing                                <bullet> Collision avoidance
                                         systems
                         ---------------------------------------------------------------------------------------
                                        NHTSA to issue final rules on        10/1/2017   Final rules must be
                                         above topics.                       (5 years)    issued unless agency
                                                                                          determines standards
                                                                                          are not practicable,
                                                                                          do not meet need for
                                                                                          motor vehicle safety
                                                                                          and cannot be stated
                                                                                          in objective terms.
----------------------------------------------------------------------------------------------------------------
Motorcoach Service           32707(a)   FMCSA to assign safety ratings       10/1/2014   Assign safety ratings
 Provider: Safety                        to passenger and freight            (2 years)    for new entrants
 Reviews                                 motor carriers
                                                                       -----------------------------------------
                                                                             10/1/2015   Assign safety ratings
                                                                             (3 years)    for existing providers
----------------------------------------------------------------------------------------------------------------
Motorcoach Service           32707(b)   FMCSA to consider improved           10/1/2013   FMCSA provides
 Provider: Disclosure of                 public access of passenger           (1 year)    information on
 Safety Ratings                          motor carrier safety                             passenger motor
                                         information by requiring                         carrier safety
                                         public posting of safety                         measurement scores and
                                         rating in each motorcoach,                       released an Internet
                                         terminal and all points of                       ``app''--Look Before
                                         sale of motorcoach services.                     You Book--to expedite
                                                                                          consumer access to
                                                                                          this information
----------------------------------------------------------------------------------------------------------------
Report on System of             32708   FMCSA to report to Congress on       10/1/2014   Status of report
 Certification of                        feasibility of establishing         (2 years)    unknown. FMCSA
 Training Programs                       certification system for                         withdrew NPRM on entry-
                                         schools and motor carriers                       level driver training
                                         that provide driver training.                    in 2013 and in
                                                                                          September 2014
                                                                                          requested views on
                                                                                          whether to initiate a
                                                                                          negotiated rulemaking
                                                                                          on topic.
----------------------------------------------------------------------------------------------------------------
CDL Passenger                32709(a)   FMCSA study to assess current        10/1/2014
 Endorsement                             CDL passenger endorsement           (2 years)
                                         knowledge and skills testing
                         ---------------------------------------------------------------------------------------
                             32709(b)   FMCSA to report to Congress on  1/27/2015 (120
                                         recommendations for changes        days after
                                         to CDL passenger endorsement           study)
                                         testing
----------------------------------------------------------------------------------------------------------------
Safety Inspection               32710   FMCSA to consider issuing            10/1/2015
 Program for CMVs of                     final rule requiring States         (3 years)
 Passengers                              to establish annual program
                                         for inspection of passenger-
                                         carrying CMVs
----------------------------------------------------------------------------------------------------------------
List of Acronyms Used in Chart:
 
CMV: Commercial motor vehicle
 
NHTSA: National Highway Traffic Safety Administration
 
FMCSA: Federal Motor Carrier Safety Administration
 
CDL: Commercial Driver's License

                                 ______
                                 
               NHTSA Overdue & At-Risk Safety Regulations
                 Statutory Deadlines Missed and At-Risk

Improved Child LATCH Restraint System (OVERDUE--Sept. 30, 2013)
  <bullet> Mandated in MAP-21 (Sec. 31502);

  <bullet> Congressional deadline for initiating rulemaking--Sept 30, 
        2013;

  <bullet> NHTSA has not issued an NPRM.

Civil Penalty Criteria (OVERDUE--Sept. 30, 2013)
  <bullet> Mandated in MAP-21 (Sec. 31203).

  <bullet> Congressional deadline for issuing Final Rule--Sept 30, 
        2013;

  <bullet> NHTSA has not issued a final rule.

Electronics Systems Performance (REPORT DUE--Sept. 30, 2014)
  <bullet> Mandated in MAP-21 (Sec. 31402)

  <bullet> Examination of issue to be completed by Sept. 30, 2014

  <bullet> Research ongoing; public notice will be issued after 
        deadline for report

Motorcoach Safety Rules: See Separate Chart

Roof Strength/Crush Resistance (FINAL RULE DUE--Sept. 30, 2014)
  <bullet> Mandated in MAP-21 (Sec. 32703(b)(1)).

  <bullet> Congressional deadline for issuance of Final Rule--Sept. 30, 
        2014;

  <bullet> NPRM issued August 6, 2014.

Anti-Ejection Countermeasures (FINAL RULE DUE--Sept. 30, 2014)
  <bullet> Mandated in MAP-21 (Sec. 32703(b)(2)).

  <bullet> Congressional deadline for issuance of Final Rule--Sept. 30, 
        2014.

  <bullet> NPRM issued August 6, 2014.

Anti-Ejection Retrofit (FINAL RULE DUE--Sept. 30, 2014)
  <bullet> Mandated in MAP-21 (Sec. 32703(e)(2)).

  <bullet> Congressional deadline for issuance of Final Rule--Sept. 30, 
        2014.

  <bullet> NPRM issued August 6, 2014.

Rollover Crash Avoidance (FINAL RULE DUE--Sept. 30, 2014)
  <bullet> Mandated in MAP-21 (Sec. 32703(b)(3)).

  <bullet> Congressional deadline for issuance of Final Rule--Sept. 30, 
        2014.

  <bullet> No NPRM has been issued.
                                 ______
                                 
     Carol (Cally) Houck, Mother of Raechel and Jacqueline 
Houck; Consumers for Auto Reliability and Safety; Advocates 
      for Highway and Auto Safety; Center for Auto Safety; 
Consumer Action; Consumer Federation of America; Consumers 
 Union; National Association of Consumer Advocates; Trauma 
                                                 Foundation

                                                        May 9, 2013
Hon. Jay Rockefeller,
Chairman,
Hon. John Thune, 
Ranking Member,
United States Senate,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Re: Support for the Raechel and Jacqueline Houck Safe Rental Car Act

Dear Chairman Rockefeller and Ranking Member Thune:

    On behalf of each of our organizations, we write in support of the 
Raechel and Jacqueline Houck Safe Rental Car Act, sponsored by Sens. 
Charles Schumer, Lisa Murkowski, Barbara Boxer and Claire McCaskill. 
This bipartisan legislation will require that rental car companies 
ground vehicles that are subject to a safety recall until they are 
fixed.
    This measure is named in memory of Raechel and Jacqueline Houck, 
daughters of Carol (Cally) Houck, who were killed by a rental car that 
was recalled due to a defect in a steering component, which caused an 
under-hood fire and loss of steering control. The car had not been 
repaired before it was rented out. Raechel and Jacqueline were ages 24 
and 20.
    In addition to our organizations, the legislation is also supported 
by all the major rental car companies and the American Car Rental 
Association, which represents the major rental car companies and most 
of the smaller rental car companies. To have leading national auto 
safety organizations and the rental car industry in agreement on 
legislation that would place rental car companies under Federal safety 
regulation for the first time is truly historic. Other supporters 
include the Truck Renting and Leasing Association, the American 
Automobile Association, and State Farm Insurance Company.
    This legislation represents a major improvement in auto safety, 
particularly since rental car companies are the largest purchasers of 
new vehicles in the Nation. We hope that with enactment of this 
measure, consumers who rent or purchase rental cars, either as new or 
used vehicles, can do so with confidence that the vehicles do not have 
latent safety defects that are subject to a safety recall.
    We respectfully request that you support the bill and work 
diligently with us, the sponsors, the rental car industry, the AAA and 
other supporters to enact the legislation this year. Thank you for your 
consideration of our views.
            Sincerely,
                                       Carol (Cally) Houck,
                            Mother of Raechel and Jacqueline Houck.
                                           Rosemary Shahan,
                                                         President,
                             Consumers for Auto Reliability and Safety.
                                           Clarence Ditlow,
                                                Executive Director,
                                                Center for Auto Safety.
                                      Jacqueline S. Gillan,
                                                         President,
                                 Advocates for Highway and Auto Safety.
                                            Ken McEldowney,
                                                Executive Director,
                                                       Consumer Action.
                                             Ami V. Gadhia,
                                             Senior Policy Counsel,
                                                       Consumers Union.
                                               Jack Gillis,
                                           Public Affairs Director,
                                        Consumer Federation of America.
                                             Ira Rheingold,
                                                Executive Director,
                            National Association of Consumer Advocates.
                                                Ben Kelley,
                                   Director, Injury Control Policy,
                                                     Trauma Foundation.
Cc: Sen. Charles Schumer
Members of the Committee on Commerce, Science, and Transportation

    Senator McCaskill. Thank you, Ms. Gillan. Mr. Poole?

STATEMENT OF KENDELL POOLE, CHAIRMAN, GOVERNORS HIGHWAY SAFETY 
                       ASSOCIATION (GHSA)

    Mr. Poole. Thank you, Chairman McCaskill and members of the 
Committee for allowing us the opportunity to testify. I'm 
Kendell Poole. I am the Chairman of the Governors Highway 
Safety Association. I also serve as the Director of the 
Governors Highway Safety Office in the State of Tennessee.
    The Governors Highway Safety Association represents state 
highway safety offices in all 50 states, the District of 
Columbia, and also U.S. territories. GHSA members administer 
the Behavioral Highway Safety Grant programs under MAP-21.
    And although we've made some significant progress over the 
last several years, there were still over 33,000 traffic-
related fatalities and more than 2 million injuries in 2012. 
Addition--in addition to the mental and emotional toll on 
families, NHTSA has found that crashes cost the nation an 
estimated $871 billion in economic loss and societal harm 
annually.
    To address this problem, the Federal Government must make 
the reduction of highway fatalities and injuries a national 
priority and play a strong role in developing highway safety 
policies and programs. And I might note that NHTSA has also 
estimated that over 90 percent of our fatalities can be 
attributed to driver behavior.
    States have been administering grants under MAP-21 for 
nearly 2 years now. MAP-21 brought in new administrative 
processes that were not present in SAFETEA-LU--and there was 
little to no time for the states or NHTSA to get the processes 
fully developed before having to implement them. When you 
discuss the challenges of implementing MAP-21, the biggest 
challenge was actually condensing five years of program 
development and implementation into two fiscal years.
    Given the limited staff that many state highway safety 
offices have, developing and implementing highway safety 
programs can be difficult. When you add in the condensed 
timeframe of MAP-21 and the prescriptive nature of many grant 
programs, the administrative burden faced was nearly 
overwhelming.
    GHSA members spend a disproportionate amount of time 
providing required maintenance of effort, or MOE, documentation 
as well as going back and forth with NHTSA regional offices and 
NHTSA headquarters on the exact grant requirements and grant 
uses. The Administration recognized the burdensome nature of 
these maintenance of effort requirements, and in GROW AMERICA, 
the provisions were removed. At a minimum, the MOE requirements 
need to be modified to recognize that the state highway safety 
offices have no control over many of the state agency budgets 
that are used to calculate the MOE.
    The recent DOT OIG report showed that grantees fulfilled 
their grant requirements, and there were no lapses in 
oversight, and grantee transactions met all funding parameters. 
This shows that the state highway safety offices and NHTSA have 
a very effective relationship and are using funds in an 
appropriate manner to tackle difficult highway safety issues.
    But the report did miss that there are many complicating 
factors for states to use their funds. This includes variances 
in State budget processes and the unpredictable nature of 
Federal funding. Many states cannot begin a project until a 
full year's funding is available, and with short-term 
extensions only providing partial funding for programs, 
programs would be delayed until full funding would be 
available.
    GHSA understands the need for oversight, but the 
recommendations made by the OIG would go beyond appropriate and 
create additional and unnecessary administrative burdens.
    As Congress discusses the next transportation bill, GHSA 
and its members support a long-term reauthorization that has 
similar format to what is found in MAP-21. Two years makes it 
difficult for states to plan and attain performance targets.
    MAP-21 made changes in the Behavioral Safety Programs, and 
for the most part, consolidation has been welcome by the state 
highway safety offices. GHSA recommends that Section 402, the 
State and Community Highway Safety Grant Program, receive a 
bulk of this funding. Section 402 is our building block of 
highway safety, and it's the pillar grant program that we deal 
with.
    The funds in Section 402 allow the states the needed 
flexibility to address old and new challenges with research-
based solutions. My written testimony provides suggestions on 
how to modify the Section 405 National Priority Safety Program 
to better assist and encourage states to reach for the 
specified highway safety standards.
    Any changes that Congress does make to the Behavioral 
Safety Programs, GHSA only asks that adequate time be provided 
to the states so they can best implement the changes.
    GHSA members are committed to saving lives and reducing 
injuries on our Nation's highways. It is important to recognize 
that each state has different needs and concerns, and there is 
a danger in treating each state the same. The more programs and 
initiatives mandated, the less flexibility states have in 
tackling the issues of greatest concern to them.
    Thank you, again, for the opportunity to provide testimony, 
and I look forward to answering any questions you may have.
    [The prepared statement of Mr. Poole follows:]

Prepared Statement of Kendell Poole, Chairman, Governors Highway Safety 
                           Association (GHSA)
I. Introduction
    Good afternoon. My name is Kendell Poole and I am the Chairman of 
the Governors Highway Safety Association (GHSA) and the Director of the 
Tennessee Governor's Highway Safety Office. GHSA is a nonprofit 
association representing the highway safety offices of states, 
territories, the District of Columbia and Puerto Rico. Our State 
Highway Safety Office members administer Federal behavioral highway 
safety grant programs. Areas of focus include: impaired driving; 
inadequate occupant protection; speeding and aggressive driving; 
distracted driving; younger and older drivers; bicycle, motorcycle and 
pedestrian safety; traffic records and highway safety workforce 
development.
    Traffic-related fatalities and injuries continue to be a major 
public health problem in this country. Although we have made some 
significant progress, we experienced 33,561 fatalities and 2.36 million 
injuries in 2012, the most recent year for which complete statistics 
are available. Traffic crashes are not only devastating to family and 
communities, they are economically burdensome. A recent study from the 
National Highway Traffic Safety Administration (NHTSA) looked at crash 
data from 2010 and found that the economic loss and societal harm from 
motor vehicle crashes cost the United States $871 billion.
    To address this, the Federal Government must continue to be a 
leader and make the reduction of highway fatalities and injuries a 
national priority. Working together with state and local partners, the 
Federal Government plays a key role in influencing and supporting 
highway safety policies and programs.
    States now have two years of experience with the recent 
transportation authorization known as MAP-21 (Moving Ahead for Progress 
in the 21st Century). This authorization provided critical resources to 
states to allow them to address dangerous driver behaviors.
II. MAP-21 Implementation
    When MAP-21 was passed, there was very little time for State 
Highway Safety Offices (SHSO) to fully prepare for new guidelines and 
regulations needed to implement highway safety programs. The same can 
be said for our Federal partners at NHTSA. NHTSA worked cooperatively 
with GHSA to host webinars, answer questions and develop necessary 
materials to facilitate program approvals for the first year of MAP-21, 
FY 2013. This was all accomplished without any finalized regulations in 
place. The framework was acknowledged and SHSOs had an idea of the 
regulations to come, but it wasn't until well into FY 2013 that the 
Interim Final Rules (IFR) were issued. Given the deadlines associated 
with the compressed first year of MAP-21, states only had two months to 
address any potential legislative or administrative issues that, based 
on the IFR, would disqualify them from receiving certain incentive 
grants. That is very little time, and in many states an unreasonable 
expectation given the fact they may not have had a legislative session 
or would have missed key deadlines of their state's short session. To 
compound the issues the states were facing, the deadline for FY 2014 
grants was only months after the FY 2013 grant deadline. That 
essentially left states with one chance to address concerns in order to 
qualify for grants. Under ideal circumstances, it is difficult to 
encourage legislative action, much less with such a short time frame.
    As states began to create their FY 2015 Highway Safety Plans (HSP) 
and grant applications, there was not only uncertainty on the status of 
MAP-21, but they were still operating under the IFR because no final 
rules had been issued yet. After providing comments on the IFR and 
sharing concerns about the overly prescriptive nature of the rules, 
GHSA and its members expected to see final rules that would take those 
concerns into account. Given the relative speed at which the IFR were 
drafted, it has been surprising that no final rules have been issued. 
Why ask states for their feedback on an interim final rule if no final 
rule is going to be issued?
    GHSA appreciates working with our Federal partners and values our 
collaborative relationship. But as regulations, rule-makings, and 
agency interpretation become more prescriptive, it makes it hard for 
states with limited staff to implement incentive programs that have 
been established to address safety on their roadways. Many of the 
delays and unnecessary administrative burdens of implementing MAP-21 
were related to the short time frame, inconsistent communication, and 
differing interpretations of legislative language as they related to 
incentive grant applications.
    For most states, they spend months preparing their HSP and grant 
applications, follow the strict guidelines for submitting the 
documents, and after NHTSA review they are notified they did not meet 
the qualifications for an incentive grant. This is often after working 
with their regional office and providing additional information that is 
not necessarily required by statute or rulemaking. In the hopes of 
addressing the disqualifying criteria, states would seek guidance from 
NHTSA on what legislative actions would be needed in order to qualify 
for the grant in future years. Unfortunately, once a disqualifying 
criteria was identified, analysis was stopped on the incentive grant 
application and no further review was provided.
    All of the incentive grants are extremely important to highway 
safety and it is understandable that there are states that may not 
qualify for a specific incentive grant, particularly since the criteria 
are designed to encourage legislative action in states so they can 
reach the next level in highway safety. But not knowing what 
legislative action is needed to qualify makes it difficult for a state 
to recommend changes to their Governor or legislature. While states 
could do their best and guess what is needed, it is up to the 
interpretation and decision of NHTSA that ultimately determines if a 
state qualifies.
III. NHTSA Oversight
    Recently, the Department of Transportation Office of Inspector 
General (DOT OIG) released a report examining the oversight of the 
highway safety grants, Enhanced Monitoring Tools Are Needed To Improve 
NHTSA's Oversight of Highway Safety Grants. GHSA was pleased to see 
that the DOT OIG report confirms that NHTSA and the SHSOs have an 
effective relationship by finding that grantees fulfilled their grant 
requirements, there were no lapses in oversight, and grantee 
transactions met all funding parameters. Developing and implementing 
research-based programs in the most efficient manner possible is a key 
responsibility of a SHSO.
    The DOT OIG report did note that states sometimes do not expend 
grant funds immediately, but it did not fully note the reasons. The 
delay is often due to the unpredictable amount and unknown timing of 
Federal funding and the requirements of the state budgeting processes. 
Fortunately, this has been taken into account within Federal statutes 
which allow expenditures to cover multiple fiscal years. Federal grant 
funds have been allocated to the states as late as 10 months into a 
Fiscal Year. That leaves no time for a state to properly plan how to 
effectively and efficiently liquidate the funds. And given that many of 
the funds are often earmarked for specific issues, it takes even longer 
to develop appropriate programs. GHSA understands and supports an 
appropriate level of NHTSA oversight, but the recommendations suggested 
by the DOT OIG would go beyond appropriate and create an additional 
burden to states which already must operate under a heavy 
administrative load.
IV. Recommendations for Reauthorization
    As Congress discusses the future of highway safety programs, GHSA 
supports a long-term reauthorization that has a similar format to what 
is currently found in MAP-21, with minor changes. MAP-21 was only 
authorized for two years and it is difficult for states to adequately 
plan and forecast future needs as well as attain performance targets 
when funding and program authority are uncertain.
Adjust Behavioral Safety Program Funding Percentages
    MAP-21 consolidated the behavioral highway safety programs into two 
programs: the long-standing Section 402 State and Community Highway 
Safety grant program and the new Section 405 National Priority Safety 
Program. With the consolidations of the two behavioral safety programs, 
Congress also adjusted funding levels for the programs. Section 402 is 
the pillar grant program and known as the ``building block'' of highway 
safety. However, Section 405 programs receive the bulk of behavioral 
safety funding. While Section 405 programs are important, their scope 
is limited to specifics of the individual incentives. The limited funds 
available in Section 402 have significant responsibility to address a 
wide spectrum of highway safety issues. The Section 402 funds allows 
states the needed flexibility to address unique and new challenges, 
such as drug impaired driving, with research based solutions. GHSA 
recommends that Section 402 should receive a greater percentage of the 
funding available.
Allow States to Spend More Time on Programing, Less Time on Non-
        critical 
        Administration
    The consolidation of the behavioral safety programs also authorized 
a single grant application. GHSA appreciates the consolidation and 
urges Congress to maintain that approach. However, even with 
consolidation, states are continuing to spend too much time preparing 
the grant application and administering the program. GHSA surveyed 
states on the process for FY 2013 Highway Safety Plans and found that 
state applications averaged 127 pages, with some that were more than 
200 pages. And this does not include the many pages of attachments that 
were also required.
    This process can be improved by:

  <bullet> Allowing the states to submit required attachments through 
        electronic links;

  <bullet> Clarifying that the required problem identification and data 
        analysis information should be written completely, but in a 
        brief format; and

  <bullet> Permitting the required project list to be submitted up to 
        60 days after the September 1 plan approval deadline.

    Administrative burden needs to be reduced in both the Section 402 
and Section 405 programs. As an example, even though funding for the 
motorcycle safety incentive tier in Section 405 was significantly 
reduced in MAP-21, the amount of paperwork and background material 
required to qualify was significantly increased. At least a few states 
determined that it was not a good use of their time to expend so much 
effort for such a small grant program, so they decided to not even 
apply for these funds. GHSA urges Congress to continue efforts to 
simplify grant processes so states can spend as much time as possible 
on programming.
    For most states, the Maintenance of Effort (MOE) requirement is 
increasingly burdensome. The Association understands and fully supports 
the need for a Federal MOE requirement to show proof that there is no 
supplanting with Federal funds. However, it is also necessary to 
acknowledge that many states continue to struggle economically. 
Furthermore, it is impossible for the states to identify and track 
local sources of expenditures. To remedy this, one approach could be to 
establish a waiver period with specific criteria that states would have 
to meet, and eliminate the requirement to maintain local expenditure 
sources. GHSA recommends that Congress alter the current MOE 
requirements in order to provide relief to economically distressed 
states.
Improve Effectiveness of Safety Outcomes by Allowing Use of More Timely 
        Data
    MAP-21 requires states to use the most recent final Fatality 
Analysis Reporting System (FARS) data to set performance targets in 
highway safety plans. However, FARS data continues to be finalized very 
slowly.
    As states develop their highway safety plans, they are forced to 
use Federal fatality data that may be outdated by as much as two years. 
For instance, when states were working on their FY 2015 plans, the most 
recent final Federal fatality data available was from calendar year 
2012--despite the fact that 2013 state data is now available in many 
states. To improve effectiveness of safety programs, states should be 
given the option of using the most recent state or Federal data in 
their highway safety plans. GHSA also urges NHTSA to continue its work 
in improving the timeliness of FARS.
Restructure Section 405 National Priority Safety Program
    MAP-21 created a consolidated incentive program in Section 405 that 
covers six different areas: occupant protection, traffic records, 
impaired driving, motorcyclist safety, distracted driving and state GDL 
laws. It created tiers by designating a portion of the consolidated 
program for each area. States receive funding for each tier by 
satisfying rigorous eligibility criteria which require a significant 
investment of time to provide the necessary information. GHSA supports 
continuing the occupant protection and traffic records tiers. However, 
Congress should make significant changes to tiers addressing impaired 
driving, motorcyclist safety, distracted driving and graduated drivers 
licensing. And the states should be given adequate time to react to any 
changes made. This will allow them to work with their legislatures, and 
others, to address incentive requirements.
Impaired Driving

    Fifteen percent of the impaired driving incentive tier is earmarked 
for states that adopt and enforce an ignition interlock law for all 
persons convicted of driving under the influence of alcohol. While 
eighteen states have these laws for all offenders, only a handful of 
states (four in FY 2014) qualified for these funds, as NHTSA has 
disqualified states that grant rare exemptions for medical and work 
issues. To address this, Congress should allow for state laws that 
grant reasonable, rare exemptions and successfully require interlocks 
for nearly all offenders.
Distracted Driving Grants

    Eight-and-a-half percent of Section 405 funds are earmarked to 
reward states with strong distracted driving laws. However, to qualify, 
states must meet rigorous definitions and criteria, including laws with 
minimum fines for first offense, increased fines for subsequent 
offenses as well as a state statute requiring distracted driving issues 
to be tested as part of the drivers license exam. The criteria are so 
strict that even though 37 states are enforcing primary texting bans, 
only one state qualified for this funding in FY 2014. To remedy this, 
Congress should modify the definitions, simplify this program and 
reward states that are enforcing primary texting bans for all drivers 
and complete cell phone bans for novice drivers.
Motorcyclist Safety

    One-and-a-half percent of the tier is earmarked for states that 
adopt and implement effective programs to reduce the number of 
motorcycle crashes. While the large majority of states qualify for this 
funding, the funds can only be spent on motorcycle training and 
awareness programs. NHTSA's National Agenda for Motorcycle Safety and a 
recent General Accountability Office review of this issue both called 
for a broader approach to motorcycle safety. This approach includes 
licensing, education and training, protective gear, roadway safety, 
public information programs on speeding and impairment, vehicle 
improvements and share the road programs. Congress should change this 
tier to allow for a more comprehensive approach to motorcycle safety.
Graduated Drivers Licensing (GDL)

    The GDL tier should be completely reexamined, as no state qualified 
in either FY 2013 or FY 2014. Every state has some form of a three-
stage GDL System. These laws have been widely credited for the dramatic 
reduction in teen driving deaths over the last 15 years. States should 
be rewarded for enacting and enforcing strong, research-based laws. 
That's not the case with the current incentive.
V. Conclusion
    GHSA members are committed every day to save lives and reduce 
injuries on our Nation's highways and have contributed to the 
substantial reduction in fatalities the country has experienced. This 
reduction in fatalities did not happen on its own. It came about 
because SHSOs analyzed their data and trends and responded to their 
state's identified safety needs with appropriate and proven programs. 
It's important to recognize that each state has different needs and 
concerns. There is a danger in treating every state the same and this 
is what is happening as more initiatives and programs are mandated by 
Congress and agency regulations. To successfully continue to lower 
fatalities and prevent injuries in our nation, states must have greater 
flexibility in tackling the issues of greatest concern to them. As more 
funds are being tied to specific issues, states could be mandated to 
create a program for an issue that is minimal or doesn't exist in their 
state. This diverts limited funding away from the real problems facing 
a state and their communities.
    Thank you for holding this hearing and for the opportunity to share 
the Association's views before the Committee. GHSA looks forward to 
working with the Committee on the next surface transportation 
reauthorization.

    Senator McCaskill. Thank you, Mr. Poole. Mr. Strassburger?

       STATEMENT OF ROBERT STRASSBURGER, VICE PRESIDENT,

               VEHICLE SAFETY AND HARMONIZATION,

              ALLIANCE OF AUTOMOBILE MANUFACTURERS

    Mr. Strassburger. Thank you, Chairman McCaskill, Ranking 
Member Heller, and members of this Subcommittee.
    As we have already heard this afternoon, the nation 
continues to record declines in traffic fatalities. In fact, 
driving has never been safer. Deaths have declined by 20 
percent since 2007, and preliminary estimates by NHTSA and 
others project continued declines in 2014. However, in an era 
of limited resources, we have a difficult task ahead if we are 
to ensure continued progress.
    As this committee moves forward with the reauthorization of 
NHTSA, we urge you to focus on those provisions that will 
provide the greatest safety benefits. The Alliance has the 
following recommendations.
    First, approximately a third of traffic fatalities continue 
to involve drunk drivers. We need to redouble our efforts to 
reduce impaired driving. The Alliance supports making alcohol 
ignition interlock grants more usable by states. The Alliance 
also supports continued funding of research of advanced vehicle 
integrated technology, known as DADSS, that holds promise to 
significantly reduce drunk driving. And the Alliance supports 
including resources for NHTSA to study the potential impacts of 
legalizing marijuana on traffic safety and giving states 
flexibility to use Federal grants to tackle this issue.
    Second, according to NHTSA, more than 90 percent of all 
crashes are a result of driver error. The future of vehicle 
safety must include crash avoidance technologies that help to 
avoid of mitigate crashes. There are about 20 different crash 
avoidance technologies available on today's cars and trucks, 
and more are coming.
    Looking toward the future, cars that communicate wirelessly 
with one another and the infrastructure may provide additional 
crash avoidance opportunities. This committee can help realize 
the promised crash avoidance technologies in several ways.
    One, the Alliance urges this committee to use this 
reauthorization to preserve the ability to use the 5.9 
gigahertz radio frequency spectrum designated for vehicle-to-
vehicle communications unless and until rigorous testing shows 
that auto safety will not be compromised if this spectrum is 
shared.
    Two, the Alliance also recommends that this committee 
provide resources to help establish an ISAC for the auto sector 
to exchange cyber threat information.
    Three, the Alliance recommends that this committee fully 
evaluate the model needed for creating and operating a robust 
security certificate management system that is necessary for 
the implementation of vehicle-to-vehicle communications.
    And four, this committee can help to accelerate the 
adoption of crash avoidance technologies by directing NHTSA to 
provide fuel economy compliance credits when these technologies 
are installed. Credits are a win for safety, for the 
environment, and for consumers.
    Finally, distracted driving remains a concern. Almost 18 
months ago, NHTSA issued driver distraction design guidelines 
for vehicle integrated systems. Similar guidance for handheld 
smartphones are critical to avoid adverse traffic safety 
consequences. The Alliance urges this committee to use this 
reauthorization to make clear NHTSA's authority to regulate 
portable handheld devices when used in motor vehicles.
    In closing, reducing injuries and fatalities from auto 
crashes is a significant public health challenge. We appreciate 
the leadership shown by members of this subcommittee to address 
these issues. We look forward to continuing to work with you to 
make our roads the safest in the world.
    Chairman McCaskill, Ranking Member Heller, and members of 
the Subcommittee, I would be happy to answer your questions.
    [The prepared statement of Mr. Strassburger follows:]

  Prepared Statement of Robert Strassburger, Vice President, Vehicle 
     Safety and Harmonization, Alliance of Automobile Manufacturers
    On behalf of the twelve automakers who are members of the Alliance 
of Automobile Manufacturers (Alliance), thank you for this opportunity 
to provide the Committee with an update on the state of motor vehicle 
safety and our industry's thoughts on developing a reauthorization 
proposal.\1\
---------------------------------------------------------------------------
    \1\ The Alliance is a trade association of twelve car and light 
truck manufacturers comprised of BMW Group, Chrysler Group LLC, Ford 
Motor Company, General Motors Company, Jaguar Land Rover, Mazda, 
Mercedes-Benz USA, Mitsubishi Motors, Porsche Cars, Toyota, Volkswagen 
Group, and Volvo Cars. Together, Alliance members account for roughly 
three out of every four new vehicles sold in the U.S. each year. Auto 
manufacturing is a cornerstone of the U.S. economy, supporting eight 
million private-sector jobs, $500 billion in annual compensation, and 
$70 billion in personal income-tax revenues
---------------------------------------------------------------------------
    It is important to recognize that this is the safest time in our 
Nation's history in terms of motor vehicle safety. From 2007 to 2013, 
traffic fatalities fell by 20 percent.\2\ Preliminary estimates 
released last month by the National Highway Traffic Safety 
Administration (NHTSA) and the National Safety Council project 
continued declines in 2014.\3\<SUP>,</SUP>\4\
---------------------------------------------------------------------------
    \2\ ``Early Estimate of Motor Vehicle Traffic Fatalities for the 
First Quarter of 2014,'' NHTSA, DOT HS 812 055 (August 2014)
    \3\ Ibid.
    \4\ ``Motor-vehicle deaths down 4 percent in first six months of 
2014,'' National Safety Council (August 2014)
---------------------------------------------------------------------------
    These are not just declines in the rate of traffic deaths (which is 
measured per 100 million vehicle miles traveled), but more remarkably, 
an absolute decline in the number of fatalities, even as the ``exposure 
rate''--the number of Americans driving and vehicle miles driven--has 
increased dramatically. Nearly 18,000 fewer people died in traffic 
related crashes in 2012 than in 1980, even though there are 
approximately twice as many licensed drivers driving about twice as 
many vehicle miles as there were three decades ago.\5\
---------------------------------------------------------------------------
    \5\ ``Chart VMT 421-C,'' FHWA, Office of Highway Policy Statistics 
(2012)
---------------------------------------------------------------------------
    There is another facet of this success story of which auto 
manufacturers and the eight million Americans working in the auto 
sector are justifiably proud--motor vehicle occupant deaths have 
declined at a faster pace than the overall decline in traffic deaths. 
In 2007, 70 percent of people killed in traffic crashes were in 
passenger vehicles. By 2012, 65 percent were in passenger vehicles. At 
the same time overall traffic deaths were declining by 19 percent, 
deaths in passenger vehicles declined by 26 percent.\6\
---------------------------------------------------------------------------
    \6\ Analysis of ``Passenger Vehicle Occupant Fatalities: The 
Decline for Six Years in a Row From 2005 to 2011,'' NHTSA, DOT HS 812 
034 (June 2014) and ``Traffic Safety Facts 2012,'' NHTSA, DOT HS 812 
032 (2014)
---------------------------------------------------------------------------
    A recent study by NHTSA confirms that automakers deserve a 
significant portion of the credit for the reduction of deaths and 
serious injuries for occupants of motor vehicles. In an analysis of 
fatal crashes in MY 1985 through MY 2012 vehicles, NHTSA found that 
drivers of MY 1985--MY 1992 vehicles were 76 percent more likely to be 
killed in a crash than drivers of MY 2008--MY 2012 vehicles.\7\ 
Similarly, drivers of MY 2003--MY 2007 vehicles were 20 percent more 
likely to be killed in a crash than drivers of MY 2008--MY 2012 
vehicles. These numbers represent dramatic improvements, but even so, 
motor vehicle safety remains a top concern for all Alliance members.
---------------------------------------------------------------------------
    \7\ ``How Vehicle Age and Model Year Relate to Driver Injury 
Severity in Fatal Crashes,'' NHTSA, DOT HS 811 825 (August 2013)
---------------------------------------------------------------------------
    More than 90 percent of all crashes are a result of driver error, 
according to a recent NHTSA study of crash causation.\8\ Thus, if our 
shared goal is to continue to reduce traffic fatalities and injuries, 
we need to continue our efforts on ways to reduce driver error or 
mitigate its effects. Moving forward, this is clearly the industry's 
focus--one we hope is shared by NHTSA and the Congress.
---------------------------------------------------------------------------
    \8\ ``National Motor Vehicle Crash Causation Survey; Report to 
Congress,'' NHTSA DOT HS 811 059 (July 2008)
---------------------------------------------------------------------------
    The future of vehicle safety is evolving to include ``crash 
avoidance'' technology that helps prevent or mitigate crashes. Crash 
avoidance systems employ sophisticated software to interpret data from 
sensors, cameras, global positioning devices, and/or radar-based 
technologies that allow vehicles to sense the environment around them. 
Their features assist drivers to be aware of impending dangers, in some 
cases even taking over for drivers to help avoid accidents. There are 
about twenty different crash avoidance technologies available already 
on today's vehicles, with more coming. Notably, all of these systems 
are being initiated and developed by automakers and suppliers and 
installed on vehicles--not as the result of government mandates.
    Intervention technologies include electronic stability control and 
anti-lock brakes that help the driver keep the vehicle under control. 
These two technologies are present in nearly every new passenger car 
sold in America. In addition to these systems, new technologies, such 
as crash imminent braking and dynamic brake support, are being 
introduced to assist drivers to avoid or mitigate crashes in emergency 
situations. According to recent data compiled by the Highway Loss Data 
Institute, vehicles that brake automatically are expected to offer 
significant safety benefits.\9\ Drivers of vehicles with these systems 
file 15-25 percent fewer property damage claims, and they are 33 
percent less likely to file claims for crash injuries than the owners 
of similar, but unequipped, vehicles.\10\
---------------------------------------------------------------------------
    \9\ ``Collision Avoidance Features: Initial Results,'' Matthew 
Moore (Highway Loss Data Institute) and David Zuby (Insurance Institute 
for Highway Safety), ESV Paper Number 13-0126
    \10\ Ibid.
---------------------------------------------------------------------------
    Warning technologies--including blind spot warnings, lane departure 
warnings, cross traffic alerts, and forward collision warnings--provide 
audio, visual or other sensory alerts to help drivers take corrective 
action to avoid a crash. While drivers have the means to operate a 
vehicle safely without these features, these systems provide early 
warnings so that drivers can react to situations prior to a crisis or 
emergency developing.
    Active driver assistance technologies may include lane keeping 
systems, adaptive cruise control, and automatic high beams. Drivers 
decide when to activate these systems, which then may assist the driver 
during routine driving tasks, provided road and environmental 
conditions permit.
    As we move into the future, continuing to develop and implement 
crash avoidance beyond the constraints of a discrete vehicle by 
developing infrastructure and vehicles that communicate with each other 
has the potential to further enhance road safety. According to NHTSA, 
when fully deployed, connected vehicle technology could potentially 
address approximately 80 percent of crash scenarios involving non-
impaired drivers. Connected vehicles also may help to enhance or enable 
a host of critical crash avoidance technologies.
    The promise of a connected vehicle transportation system, however, 
requires the successful resolution of a number of complex policy and 
technical issues that will require unprecedented coordination between 
the public and private sectors and among disparate Federal agencies for 
such things as governance, funding, implementation, and enforcement. 
Among the issues that Congress should be watching in this area are: 
infrastructure for connected vehicle security networks; governance of 
connected vehicle security certificates for safety; protection of 
consumer privacy, including data ownership, for connected vehicle data 
generation, transmission, and use (proper use and misuse); sustainable 
funding for implementation, and ongoing operations, governance, and 
maintenance of a connected vehicle infrastructure; international cross 
border needs and agreements; liability risk and intellectual property 
protection; and security licensing requirements.
    Auto manufacturers are doing a great deal to usher in a new era in 
motor vehicle safety. As you consider the next NHTSA reauthorization 
bill, we recommend that the Committee focus on how the legislation can 
help NHTSA and the industry continue to improve traffic safety. The 
Alliance does not believe that increasing fines for the auto sector or 
potentially criminalizing interactions between auto manufacturers, 
suppliers and NHTSA will help make vehicles safer. Our overall record 
and approach speaks to our commitment to traffic safety, and the 
dramatic reduction in motor vehicle deaths confirms we are doing the 
right things.
    Earlier this year the Department of Justice announced a fine 
against one automaker that vastly exceeded the civil penalty cap 
authorized under Title 49, demonstrating that the government already 
has adequate authority to address situations where it feels larger 
penalties are appropriate. We believe it a much more useful exercise to 
focus efforts on public policies that are critical to the broader 
safety goal of reducing driver errors that lead to fatal crashes on our 
Nation's roads.
    There are several things we believe that Congress can do to help 
expand auto safety.
    First, protecting the radio frequency spectrum reserved for 
vehicle-to-vehicle (V2V) and vehicle-to-infrastructure (V2I) 
communications is critical. With the recent release of its ANPRM for 
V2V systems, the DOT has initiated rulemaking to require the industry 
to develop and implement these systems. The Federal Communications 
Commission (FCC) is proposing to open the 5.9 GHz band of spectrum to 
unlicensed users. To support the mission of reducing traffic 
fatalities, the FCC should adopt a ``do-no-harm'' policy of preserving 
this band of spectrum for V2V use unless and until rigorous testing has 
shown that auto safety potential will not be compromised.
    The Alliance believes that the potential exists to achieve a good 
public policy outcome both for vehicle safety and for expanded wireless 
access; however, the requisite interference testing must be completed, 
and any outstanding issues must be resolved before a final rule is 
issued by the FCC. We encourage this Committee--which has jurisdiction 
over both agencies--to use the reauthorization to make very clear where 
it stands on this critical public safety issue.
    Second, there needs to be renewed focus on reducing impaired 
driving and support of enhanced enforcement efforts. Impairment is a 
leading cause of driver error, and by far the leading cause of fatal 
crashes. Eliminating impaired driving would significantly help to 
reduce the number of people who die on our roads each year. For years, 
our primary focus--for obvious reasons--has been on reducing the number 
of alcohol-related crashes. The Alliance supports section 103 of S. 
2760, which would make alcohol interlock grants more usable by states. 
In addition, Alliance members have been working in partnership with 
NHTSA to research advanced in-vehicle technology (a program called 
``DADSS'')--that holds promise to help greatly reduce drunk driving. 
The Alliance appreciates the leadership role taken by this Committee in 
the last reauthorization to support this effort.
    Looking ahead, we are concerned that the recent move by some states 
to legalize marijuana may open new challenges in the fight to stem 
impaired driving. We feel that any reauthorization should include 
resources for NHTSA to study this emerging issue and explicit 
additional flexibility for states to use Federal safety grants to 
tackle this issue prior to the next reauthorization cycle.
    Third, we urge you to continue to focus on distracted driving. As 
you are aware, NHTSA is only one-third of the way through its proposed 
strategy to address sources of distraction in motor vehicles. Almost 18 
months ago, NHTSA published guidelines for in-vehicle systems, based on 
similar guidelines developed by Alliance members a decade ago. The 
Agency's stated next step is to develop similar guidelines for portable 
devices, such as smartphones and portable navigation systems, when they 
are used by drivers. Failing to develop such complementary guidelines 
could have significant adverse safety consequences because it likely 
will incentivize drivers to use unregulated, hand-held devices rather 
than more limited, hands-free in-vehicle systems.
    One reason for the apparent delay in progress on portable device 
guidelines is the question over NHTSA's authority to regulate such 
devices, even when used in vehicles. Former Administrator Strickland 
has said that the Agency has that authority, and we agree. The DOT 
requested that Congress further clarify the Department's authority in 
Section 4105 of the reauthorization proposal it submitted to Congress. 
We encourage the Committee to provide the requested clarification or 
otherwise clearly delineate the Agency's authority to carry out this 
important task. We live in a world where smart phones and other 
portable devices are far more ubiquitous than in-vehicle systems, and 
policies should be developed to address this key factor of the 
distracted driving problem.
    Fourth, we encourage the Committee to set aside some resources to 
help address the growing need for cybersecurity measures in the auto 
sector. The implementation of advanced computer systems has resulted in 
significant improvements to vehicle safety and the overall driving 
experience; however, it also raises our awareness that bad actors could 
try to hack into vehicle systems. The industry as a whole has 
demonstrated its clear intent to address possible future threats. 
Recently, the Alliance and Global Automakers announced that we are 
jointly investigating the development of a cyber-threat information-
sharing platform, such as an Information Sharing and Analysis Center 
(ISAC), which further demonstrates our members' collective and 
proactive approach. Setting up a properly functioning ISAC or other 
comparable program is a significant undertaking, as evidenced by the 
recent announcements by the aviation and oil and gas industries. Those 
industries are expected to stand up their ISACs later this year after a 
thorough 12-18 month process. Historically, the Federal Government has 
provided seed money in partnership with the private sector to help 
jump-start the process and in recognition that protecting against 
cyber-attack is a shared responsibility and a public good.
    In the coming years, NHTSA and the auto sector will also have to 
ensure that safety critical applications, such as V2V communications, 
are secure, particularly given that those systems depend on 
transmission and receipt of data outside the vehicle. A properly 
functioning V2V system will require a robust security certificate 
management system (SCMS). NHTSA's research report has indicated that 
the initial costs of setting up a SCMS just for V2V will run into the 
tens of millions of dollars. The SMCS in effect will function as a 
highway version of an air traffic control system. An SCMS that 
additionally comprehends wireless connections between vehicles and 
infrastructure, as well as between vehicles and other devices, will 
require a much larger SCMS that will have to manage a significantly 
more complex security space. As such, it will cost even more and 
require more oversight. Given that the potential societal benefits will 
be to public roads, the funding model and rule structure for creating 
and operating the SCMS should be fully evaluated.
    Finally, we encourage the Committee to accelerate the proliferation 
of crash avoidance technologies in the new car fleet by directing NHTSA 
to provide fuel economy compliance credits for the installation of 
these technologies. In a recent white paper, NHTSA noted that ``Vehicle 
control systems that automatically accelerate and brake with the flow 
of traffic can conserve fuel more efficiently than the average driver. 
By eliminating a large number of vehicle crashes, highly effective 
crash avoidance technologies can reduce fuel consumption by also 
eliminating the traffic congestion that crashes cause every day on our 
roads.'' \11\ The Federal Highway Administration estimates that 25 
percent of congestion is attributable to traffic incidents, around half 
of which are crashes.\12\ The addition of crash avoidance technologies 
has the potential to reduce crashes, which will in turn reduce 
congestion.
---------------------------------------------------------------------------
    \11\ National Highway Traffic Safety Administration (May 30, 2013) 
Preliminary Statement of Policy Concerning Automated Vehicles. 
Washington, D.C.
    \12\ Federal Highway Administration (2005). Traffic Congestion and 
Reliability: Linking Solutions to Problems. Washington, D.C.
---------------------------------------------------------------------------
    NHTSA should be directed to estimate potential fuel savings of 
crash avoidance technologies and to incorporate equivalent credits into 
manufacturers' fuel economy compliance. The credits are a win for 
safety, for the environment, and for consumers, who will see the 
proliferation of such systems sooner and at a lower price point, if 
installing them helps to offset the costs of fuel economy compliance.
    The Alliance believes that the future of driving safety is very 
bright, and with the right public policies in place, industry and 
government can work together to continue the reduction in fatalities 
and serious injuries that we have been seeing. Getting there will 
require many pieces of a complex policy puzzle to fit together in 
addition to the technological advancements the industry is making.
    Working together, we can make this vision reality.

    Senator McCaskill. Thank you very much. Let me begin. I 
assume, Mr. Poole, you--since you referenced it in your 
testimony--you've looked at the Inspector General's report that 
just came out a few weeks ago.
    I was surprised that there was a half a billion dollars of 
highway safety funds that have been allocated to states that 
had not yet been expended, that, during the same period of 
time, $4.2 billion in funds had been allocated to those 
programs, meaning that we've got 13 percent of the money over a 
six year period not being spent.
    That represents, at worst, a lost opportunity to fund 
programs or a delayed opportunity, which is also problematic. 
Why--can you explain why states are leaving this money on the 
table and why this money is not getting expended?
    Mr. Poole. Yes, Senator. There are delays in funding, 
particularly when we have MAP-21 where the funding comes to us 
in increments. Sometimes, it's as late as 10 or 11 months into 
the fiscal year before we receive that money. That is what we 
call carry forward funding, and the carry forward funding can 
be attributed to the next year when we receive it late in that 
Federal fiscal year.
    In addition to that, there is transfer monies that are 
available to the states, for instance, through Section 154 or 
164, that are generally split with the state engineering or 
state safety offices, and those projects for the hazard 
elimination projects also show up as carry forward money when, 
obviously, that is a construction issue. It takes a little 
longer to get that money out on their side. But it's the delays 
in funding, Senator, that cause us to carry forward money.
    I'll use an example from the State of Tennessee. Because we 
received money so late this past Federal fiscal year under MAP-
21, we have a carry forward of $3 million that we will be 
utilizing for Fiscal Year 2015 just in the Behavioral Grant 
Programs.
    Senator McCaskill. So you're using last year's money this 
year, and you're using this month's--this year's money next 
year, and next year's money the following year?
    Mr. Poole. Sometimes that does happen, yes. When we have 
late funding that comes in, we have to get that programmed out.
    Senator McCaskill. So and I assume when the money is late, 
you inquire why the money is late. Is this a problem with 
Washington, that they're just not getting their job done 
quickly enough?
    Mr. Poole. Our membership does view it that way. When we--
when MAP-21 has a Continuing Resolution and the funding comes 
incrementally, we have projects that have to be fully funded 
before they're implemented.
    Senator McCaskill. Before you can begin them.
    Mr. Poole. Yes, ma'am.
    Senator McCaskill. OK. Let me ask you, Mr. Strassburger, 
last year I held a legislative hearing on Senate Bill 921, the 
Raechel and Jacqueline Houck Safe Rental Car Bill introduced by 
Senator Schumer, Senator Boxer, myself and others.
    The bill has the support of many safety advocates and the 
rental car industry. However, at the hearing, your president 
and CEO, Mitch Bainwol, testified that your organization 
opposed the bill, because it potentially affected loss of 
liability use for your member companies.
    Since then, there have been two key developments. First, 
General Motors has agreed to support the bill, one of your 
largest member companies, and second, Senators Schumer, Boxer, 
and I have reintroduced our bill with a provision that 
explicitly states that the bill will have no effect on any 
state liability issue.
    So given these developments, can we expect you to weigh in 
with the endorsement of the Auto Alliance momentarily?
    Mr. Strassburger. Senator, when a vehicle is recalled, we 
want that vehicle repaired as quickly as possible, and to do 
that, we think that all customers need to be treated equally 
and fairly. And at the present time, we have not seen that--
such in the legislation that we've seen.
    We are fully committed to working with this committee and--
--
    Senator McCaskill. How are they not being treated equally 
and fairly? Could you articulate that for the Committee?
    Mr. Strassburger. I'm sorry, repeat that, please.
    Senator McCaskill. How are they not being treated equally 
and fairly? What is the unfairness or the lack of equality that 
you think is embraced by this legislation?
    Mr. Strassburger. We don't think the current draft of the 
legislation, either as introduced or the more recent language--
we appreciate the effort----
    Senator McCaskill. Let's stick with the recent language, 
since we've improved to try to address your concerns.
    Mr. Strassburger. OK. And we appreciate the efforts to try 
to address our concerns. Our members don't feel that they have 
been addressed. We still think there's disproportionate 
treatment, and we are committed to working with this committee 
to resolve all of the concerns of all of the stakeholders in 
fact----
    Senator McCaskill. I need to know what disproportionate 
means. Who's getting treated better, and who's getting treated 
worse? You're saying it's unequal. I need you to articulate 
what the--what inequality it is that you're referring to.
    Mr. Strassburger. I think at the moment, the way it's 
structured, the--our understanding is that there is no 
intention by anybody involved to disturb or change the 
relationship between the manufacturer and the rental car 
company.
    We think the language, the newest language, while 
attempting to try to preserve that relationship, doesn't go far 
enough yet.
    Senator McCaskill. OK. You're still--I don't--I'm not 
following you. Is there something you're afraid to say or--I 
mean, what is the--can you--the fact that it doesn't go far 
enough, what is it--what would you like it to say?
    Mr. Strassburger. We still think that it creates 
disproportionate treatment, that it strives--that it gets 
involved in the relationship with the vehicle manufacturer and 
the rental car company. If we have a balanced language there 
that doesn't do that, that preserves the relationship of those 
two parties, which we understand is the intent of everybody 
involved, then that is legislation that we would support.
    Senator McCaskill. OK. Have you offered language that you 
think would fix that?
    Mr. Strassburger. I believe--let me take that back. If we 
have not, then we will certainly do that.
    Senator McCaskill. Be great to get it by Friday.
    Mr. Strassburger. OK.
    Senator McCaskill. I mean, I'm confused at--you know, 
General Motors has now signed off, the rental car companies 
have now signed off. Clearly, this is a safety issue, and with 
all of the discussion about safety of vehicles on the road 
right now, I think the remaining manufacturers that are holding 
out on this bill are doing a great disservice to the driving 
public. And it's time for you to come with language that you 
think would address the problem and protect the manufacturers 
instead of just throwing up roadblocks to everything we try to 
do. It's frustrating.
    So I'll look forward to hearing from the manufacturers, 
other than GM, which has--and let's hope that it doesn't take a 
crisis in these other companies to get them to come along, 
because, you know, obviously, General Motors took another view 
of this after they were confronted with an incredible public 
relations crisis in terms of the safety of their cars. I would 
hope it wouldn't take that for the other manufacturers to get 
them to be willing to address what is a serious safety concern 
for the driving public that is renting cars.
    And finally, Ms. Gillan, the Justice Department recently 
settled a criminal lawsuit with Toyota. I think it's important 
to remember this was a criminal lawsuit. They paid $1.2 billion 
in connection with a criminal prosecution.
    Doesn't it make more sense to deter companies from 
withholding safety information from NHTSA by providing NHTSA 
with better criminal penalty authority and with bigger civil 
penalty stick rather than with the acrobatics of a DOJ 
settlement for wire fraud? I mean, it appears to me they used a 
criminal prosecution to get to the place where they could have 
a meaningful fine for the level of misconduct that was 
discovered around the Toyota problem.
    Wouldn't we deter more effectively if all manufacturers saw 
the possibility of higher fines and criminal prosecutions at 
the level of a NHTSA enforcement?
    Ms. Gillan. Ah, absolutely, Senator McCaskill. The safety 
community strongly supports criminal penalties. Other 
regulatory agencies have the ability. It doesn't make sense to 
have to go to the Justice Department and have them find some 
other avenue to impose that.
    We also support the provision to completely eliminate the 
cap on civil penalties. We want NHTSA to be a watchdog and to 
carry a big club. We've got to give them the enforcement 
authority to do that. And I was surprised when I looked at the 
auto industry's testimony that they want to keep the $35 
million cap as well as not impose any additional penalties.
    In light of all of these defects and both Toyota and now, 
GM, and every day there's a new revelation--why we wouldn't 
want to go ahead and give the Agency the authority to impose 
criminal penalties.
    Senator McCaskill. Thank you. Senator Blumenthal?
    Senator Blumenthal. Thank you. Thank you for being here. 
And let me just say--I didn't say it during the last panel--
that one of the very sobering factual backgrounds for this 
hearing is the news released yesterday by Ken Feinberg that, in 
fact, he has found 19 deaths, which is far higher than the 13 
the company has acknowledged, as a result of a defect that GM 
concealed. And that is only his first report. The eventual 
number is likely to be multiples of the 13 that the company 
acknowledged.
    So that's a very chilling reminder that this issue has life 
and death consequences for Americans. We're not talking about 
abstractions. We're talking about real impacts on real people's 
lives.
    And so let me ask you, Ms. Gillan, I know you mentioned the 
issue of resources in your testimony, do you think that NHTSA 
is devoting its resources properly, and do you think it should 
have more resources?
    Ms. Gillan. Senator, this has been an issue that the safety 
community has been concerned about, particularly Advocates for 
Highway and Auto Safety.
    Right now, 94 percent of all transportation related 
fatalities and 99 percent of all transportation related 
injuries occur as a result of motor vehicle crashes, but NHTSA 
has 1 percent--only 1 percent--of the entire DOT budget.
    Now, granted, money may not be the complete answer, and I 
think that there are a lot of changes that the agency needs, 
but we're not giving them the resources to do the job. Senator 
McCaskill mentioned the Office of Defects Investigation has 
been flatline budgeted at $10 million.
    In my statement, I talk about their budget. If you look 
back a decade, their operations and budgets experienced a 9 
percent decrease in the last decade, and yet, there has been 
over 23 percent growth in the number of cars on the road.
    I think that the public wants this agency to have the 
resources that they need, and I think it's very frightening for 
all of us when we read about these safety defects which seem to 
be occurring on a daily basis.
    Senator Blumenthal. Do you agree, Mr. Strassburger?
    Mr. Strassburger. The Alliance has historically said that 
the Agency should be adequately resourced, both in staff----
    Senator Blumenthal. You think it needs more resources?
    Mr. Strassburger. Let me say, again, that we have said that 
the agency should be adequately resourced, both dollar wise and 
staffing wise, etc. Beyond that, I think we don't have the data 
to say that they need X number of staff versus another. That 
is----
    Senator Blumenthal. Well, you've just heard Ms. Gillan, and 
you're familiar with the agency's systematic record of failure, 
which is attributed, at least in part, to lack of resources. 
Isn't that pretty compelling evidence that the current level is 
inadequate and therefore, that your position that it should be 
adequately staffed should lead you to say more resources--many 
more resources--are necessary.
    Mr. Strassburger. I don't have sufficient data. For 
example, how--the staffing report that's in abeyance that's 
been recommended by the IG, etc., without that kind of date, 
I'm not in a position to say it should have X number of staff 
versus Y.
    What we have said repeatedly and consistently is that this 
agency should be adequately resourced, both staffing and dollar 
wise. And beyond that, the data is in your hands to determine 
how those--what those resources are and how they should be 
allocated.
    Senator Blumenthal. Let me switch topics slightly. On the 
issue of car safety, a number of you have talked about aspects 
of car defects, drunk driving, and distracted driving.
    I want to raise the issue of cars that essentially provide 
dangers to children, because they may be left in those cars. 
Young children, when they are left in cars, can succumb to 
hypothermia or heat stroke. There have been a number of 
incidents in Connecticut just this summer. There is a surge, 
apparently, nationwide in the number of, in quotes, ``hot 
car,'' deaths or injuries resulting from careless or neglectful 
parents or caregivers, and many involve parents who simply 
forgot about their child in the back seat.
    We had a very tragic instance in Connecticut--without 
attributing blame, because there hasn't been a finding yet 
officially. Benjamin Seitz, a young child, died in a car in 
Connecticut.
    But one of the solutions that's been proposed is that NHTSA 
or DOT consider requiring that car seats alert drivers that a 
child is present if they are left in the car without anyone 
present. That kind of warning would be similar to the 
requirement for backup cameras that will warn that a driver is 
going to run over a child.
    Whether it's that solution or another, I'd like to ask the 
panel, and perhaps I should do it in writing, because we're--
I'm over my time, but whether you have any views as to what can 
be done to prevent this kind of tragic instance, which may not 
be, in number, comparable to the frequency of defective car 
deaths of injuries, but certainly, whenever it occurs, it is a 
searing and horrific loss for a family.
    Ms. Gillan?
    Ms. Gillan. Senator, first of all, I want to say, I am not 
an engineer, but I'm married to an engineer. I will tell you 
that, just as with rearview cameras, at first the response was 
to educate parents to look behind the car--and that wasn't 
going to solve the problem.
    And it took legislation passed out of this committee, the 
Cameron Gulbransen Act, of setting a deadline for NHTSA to act, 
which they just did and issued that final rule this year 
requiring rearview cameras. That is really the solution to 
saving children.
    We can educate parents, but we can't rely on education 
alone. And it's really important. The development of sensor 
technology is increasing yearly. We have sensors that tell us 
we forgot our keys. We have sensors that remind us that our 
lights were left on. And I firmly believe that we can solve 
this problem through technology.
    This committee had hearings years ago about distracted 
driving. We now see that technology is probably our best answer 
to preventing people from texting and other distractions. And 
so we firmly believe and support a requirement that NHTSA move 
forward and look at a technological solution.
    Senator Blumenthal. My time is up, but I might just note as 
a footnote or maybe a bookmark into this conversation that 
NHTSA is late issuing the rule on rearview visibility and yet 
another example of a gap in meeting the needs of car safety.
    Thank you, Madam Chairman.
    Senator McCaskill. Thank you. I just have one question 
before we adjourn the hearing. Ms. Gillan, is it true that 
deaths and serious injuries from distracted driving, driving 
while texting, driving while trying to do a Facebook post using 
a handheld device while you're driving, has now gone above 
driving while impaired due to alcohol in terms of safety risks 
on the highway?
    Ms. Gillan. No. About a third of all traffic fatalities 
involve alcohol. And the Department of Transportation's 
estimate on distracted driving is about, I believe, 4,000 
deaths a year.
    The comparison with alcohol is that when you take your eyes 
off the road it is impairment and when you're trying to text 
and talk on the phone, it's a cognitive distraction. So I think 
that's where the two are compared.
    But clearly it's a serious problem with the issue of 
distraction as well as impaired driving. And those are issues 
that we still, in the next reauthorization bill, need to 
continue to look for opportunities to bring those deaths down.
    Senator McCaskill. I agree. I want to thank all three of 
you for being here today. I appreciate it very much. Sorry to 
put you on the spot, Mr. Strassburger, but that's the nature of 
the beast. If I don't put you on the spot, we'll never get to a 
place we can get this bill passed, and I want to get this bill 
passed. We're going to get this bill passed with you or without 
you. I'd rather be with you.
    Mr. Strassburger. I appreciate your willingness to work 
with us.
    Ms. Gillan. Senator McCaskill, before you close the 
hearing, I wanted to know if we could submit some documents to 
the hearing record. I know there was a lot of discussion with 
the first panel about this issue of the agency needing to find 
a trend, and there has been a lot of debate about this in the 
Department of Transportation.
    NHTSA's former general counsel during the 1970s issued an 
enforcement memo on the ``per se'' theory that I think is 
really important to address. You do not need a trend to 
identify a defect.
    Senator McCaskill. Absolutely. We would welcome those 
additions to the record, and if any of the other witnesses have 
additions you would--they would like to put in the record, we 
would welcome those.
    [Ms. Gillan submitted the following:]

     Attachment C--NHTSA Chief Counsel Berndt Per Se Defect Policy


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Ms. Gillan. Thank you very much.
    Senator McCaskill. Thank you all very much.
    [Whereupon, at 5:07 p.m., the hearing was adjourned.]
                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                           David J. Friedman
    Question 1. The Moving Ahead for Progress in the 21st Century Act 
(MAP-21) required the agency to issue a number of new safety 
regulations, many of which are far behind schedule and have missed 
statutory deadlines. Attachments included with Ms. Gillan's testimony 
on behalf of Advocates for Highway and Auto Safety detail these 
mandates (``NHTSA Overdue & At-Risk Safety Regulations'' on page 23 and 
``MAP-21 Motorcoach Safety Action Items and Schedule'' on pages 24-26).
    For each regulation outlined in Ms. Gillan's testimony, please 
provide a status update, including an anticipated date of completion.
    Answer. At NHTSA, the safety of the motoring public is our top 
priority, and we work to allocate our resources strategically to ensure 
the maximum focus on saving lives. NHTSA is working diligently to 
implement the various motor vehicle and highway safety improvements 
contained in MAP-21, as well as other rulemaking, enforcement, vehicle 
research, and highway safety activities that significantly reduce 
highway injuries and deaths. For example, in 2013, NHTSA issued two 
final rules that fulfill MAP-21 mandates to improve motor vehicle 
safety. One rule requires seatbelts on motorcoaches, and the other 
requires all major automakers and motorcycle manufacturers to provide 
consumers with online access to vehicle recall information that is 
searchable by the vehicle identification number. NHTSA also recently 
issued two notices of proposed rulemaking in response to MAP-21 
mandates. One notice proposes to establish improved roof and roof 
support standards for motorcoaches to prevent injuries in rollover 
crashes, and the other notice proposes upgrades to the Federal motor 
vehicle safety standard for child-restraint systems to ensure child 
passengers are protected in side crashes. In addition to the rulemaking 
activities responsive to MAP-21, NHTSA has also completed several 
important activities in the past two years. Just a few examples of 
these include releasing guidelines to minimize in-vehicle distractions, 
proposing new minimum sound requirements for hybrid and electric 
vehicles, and completing a rule to significantly reduce the risk of 
fatalities and serious injuries caused by backover accidents by 
requiring rear visibility technology in all new passenger vehicles. 
Finally, NHTSA continues to look towards the future. Earlier this year 
we announced the decision to move forward with vehicle-to-vehicle 
communication technology for passenger vehicles followed by the 
publication of an Advance Notice of Proposed Rulemaking in August. The 
following table provides the status of the MAP-21 requirements outlined 
in Ms. Gillan's testimony:

------------------------------------------------------------------------
  MAP-21 Section         Requirement                   Status
------------------------------------------------------------------------
31203 Civil        Final rule by 1 year     In a February 6th letter,
 penalties          after date of            Secretary Foxx informed
                    enactment (10/1/2013).   Congress that we would not
                    Date extended to 1/31/   meet the deadline for this
                    2015.                    final rule and established
                                             a new deadline of January
                                             31, 2015 as provided by MAP-
                                             21 Section 31505.
                                             Currently, NHTSA is working
                                             towards issuing a Notice of
                                             Proposed Rulemaking (NPRM)
                                             in 2015 and plans to notify
                                             Congress of a new deadline
                                             for the final rule as soon
                                             as possible. Note: This
                                             rule concerns penalty
                                             assessment criteria. MAP-21
                                             allowed the agency to
                                             employ the new maximum
                                             civil penalty amounts after
                                             one year even if this
                                             rulemaking was not
                                             complete. We have exercised
                                             that authority and imposed
                                             the maximum allowable $35
                                             million dollar fine as
                                             appropriate.
------------------------------------------------------------------------
31402 Electronic   Complete an examination  On October 7th, NHTSA
 systems            of the need for safety   published a Request for
 performance        standards by 2 years     Comments on automotive
                    after date of            electronic control systems
                    enactment (10/1/2014).   safety and security in the
                    Upon completion of the   Federal Register. The
                    examination, including   Request for Comments
                    public comment, the      presents the agency's
                    Secretary shall submit   progress in conducting the
                    a report to Congress.    examination. We illustrate
                                             how we conducted the
                                             examination in each of the
                                             areas in section 31402 and
                                             seek public comment on that
                                             examination. We intend to
                                             incorporate the comments
                                             received in our report to
                                             Congress identifying the
                                             need for safety standards.
                                             We expect to submit the
                                             report to Congress in 2015.
------------------------------------------------------------------------
31502 Child        Initiate rulemaking by   NHTSA expects to issue an
 restraint          1 year after date of     NPRM in early 2015. NHTSA
 anchorage          enactment (10/1/2013).   will determine a schedule
 systems            Final rule or Report     for the final rule after
                    to Congress describing   publishing the NPRM and
                    why the Secretary is     reviewing public comments
                    not issuing a final      on the proposal.
                    rule by 3 years after
                    date of enactment (10/
                    1/2015).
------------------------------------------------------------------------
32703(a) Safety    Final rule by 1 year     Complete. Final rule
 belts              after date of            requiring seatbelts on
                    enactment (10/1/2013).   motorcoaches issued in
                                             November 2013.
------------------------------------------------------------------------
32703(b)(1) Roof   Final rule by 2 years    On July 30, NHTSA issued an
 strength and       after date of            NPRM to set requirements
 crush resistance   enactment if the         for motorcoach structural
                    Secretary determines     integrity during rollovers.
                    that such standards      The comment period for this
                    meet the requirements    proposal ended October 6,
                    and considerations set   and NHTSA will set a
                    forth in the Vehicle     schedule for the final rule
                    Safety Act (10/1/        after analyzing the public
                    2014).                   comments.
------------------------------------------------------------------------
32703(b)(2) Anti-  Final rule by 2 years    NHTSA is currently drafting
 ejection safety    after date of            a proposal and expects to
 countermeasures    enactment if the         issue an NPRM in 2015.
                    Secretary determines
                    that such standards
                    meet the requirements
                    and considerations set
                    forth in the Vehicle
                    Safety Act (10/1/
                    2014).
------------------------------------------------------------------------
32703(b)(3)        Final rule by 2 years    NHTSA issued an NPRM in
 Rollover crash     after date of            2012. NHTSA is working on
 avoidance          enactment if the         the final rule and expects
                    Secretary determines     to publish the final rule
                    that such standards      in early 2015.
                    meet the requirements
                    and considerations set
                    forth in the Vehicle
                    Safety Act (10/1/
                    2014).
------------------------------------------------------------------------
32703(c)           Final rule by 3 years    NHTSA is currently
 Commercial motor   after date of            determining the most
 vehicle tire       enactment if the         appropriate next steps.
 pressure           Secretary determines
 monitoring         that such standards
 systems            meet the requirements
                    and considerations set
                    forth in the Vehicle
                    Safety Act (10/1/
                    2015).
------------------------------------------------------------------------
32703(d) Tire      Final rule or Report to  In 2013, NHTSA issued a
 performance        Congress describing      supplemental NPRM to
 standard           why the Secretary is     upgrade the safety standard
                    not issuing a final      for new pneumatic tires for
                    rule by 3 years after    motor vehicles with a Gross
                    date of enactment (10/   Vehicle Weight Rating of
                    1/2015).                 over 10,000 pounds, such as
                                             motorcoaches, and we intend
                                             to meet the statutory
                                             deadline.
------------------------------------------------------------------------
32703(e)(2)        Report to Congress by 2  NHTSA expects to submit a
 Retrofit for       years after date of      report to Congress on
 existing           enactment (10/1/2014).   seatbelt retrofit in 2015.
 motorcoaches                                The report to Congress on
                                             anti-ejection safety
                                             countermeasure retrofits is
                                             contingent upon completion
                                             of the final rule under
                                             Section 32703(b)(2) above.
------------------------------------------------------------------------
32704 Fire         Final rule by 3 years    NHTSA expects to complete
 prevention and     after date of            the research by the end of
 mitigation         enactment of this Act    this year and will then
                    if the Secretary         determine appropriate next
                    determines that such     steps.
                    standards meet the
                    requirements and
                    considerations set
                    forth in the Vehicle
                    Safety Act (10/1/
                    2015).
------------------------------------------------------------------------
32705 Occupant     Complete research and    NHTSA research is ongoing,
 protection,        testing by 3 years       and we will determine
 collision          after date of            appropriate agency actions
 avoidance, fire    enactment (10/1/2015).   upon the completion of the
 causation and      Final rule by 2 years    required research and
 fire               after completion of      testing.
 extinguisher       each research and
 research &         testing initiative if
 testing            the Secretary
                    determines that such
                    standards meet the
                    requirements and
                    considerations set
                    forth in the Vehicle
                    Safety Act.
------------------------------------------------------------------------

                    Attachment--Items for the Record
                David J. Friedman, Deputy Administrator
             National Highway Traffic Safety Administration
                   U.S. Department of Transportation
1. Subpoena power
    Senator McCaskill. How many times have you been to court for 
someone to answer a question?

    Mr. Friedman. I don't know that we've done that in the last--
certainly 20 or 30 years, because we haven't had to, and I think that's 
the power of what we do. We put the companies in a position where they 
understand, if they fail to answer those questions, there will be 
consequences, and so they provide us with the answers. I consider that 
a very important tool that we're able to get those answers, rather than 
have to be tied up in court before they will give them to us.

    RESPONSE: NHTSA's authority to compel manufacturers to provide 
information is provided in 49 U.S.C. Sec. 30166. NHTSA routinely 
compels manufacturers to answer questions under penalty of law. While 
NHTSA has not issued a demand styled as a ``subpoena'' to a 
manufacturer in a defect investigation in the last twenty years, NHTSA 
regularly invokes 49 U.S.C. Sec. 30166(e) by issuing ``information 
requests.'' NHTSA also invokes 49 U.S.C. Sec. 30166(g)(1) to issue a 
special order to compel witnesses or entities to appear or produce 
answers or records regardless of whether the recipient may have 
violated the Motor Vehicle Safety Act. A manufacturer is subject to 
substantial penalties if it fails to respond to the agency's requests 
for information or respond truthfully under 49 U.S.C. Sec. 30166(e) and 
(g)(1). See 49 U.S.C. Sec. 30165(a)(3) and (a)(4). Since the 1990s and 
without having to go to court, NHTSA has in fact obtained civil 
penalties from the following manufacturers for failing to respond 
completely and truthfully to NHTSA's information requests:

  <bullet> GM in 2014: $441,000;

  <bullet> Piaggio in 2009: $100,000;

  <bullet> Grote Manufacturing in 1999: $32,000;

  <bullet> Ford in 1999: $425,000;

  <bullet> Mack Truck in 1990: $1,000.

    Information requests or special orders provide the agency with 
broader authority than subpoenas as they can compel manufacturers to 
provide answers to written questions in addition to compelling 
appearance or providing documents, records, or things.
2. TSB deadline
    Senator Blumenthal. . . . MAP-21 required NHTSA to make those 
bulletins available on its website searchable by the public by 2013. As 
of May, they're still not on the website. Can you tell me why, and can 
you commit to me when NHTSA will meet that deadline--it's already 
missed the deadline--when it will have them available? Well, can you 
commit to me when you will complete that task? You've missed the 
deadline. When will it be done?

    Mr. Friedman. We're working to target, I believe, in the next six 
months to try to get that information up there, but I can get you a 
more solid date.

    Senator Blumenthal. Well, I would like a more solid date.

    RESPONSE: MAP-21 Section 31303 requires a manufacturer to give 
copies of communications with dealers and owners about a defect or 
noncompliance with a motor vehicle safety standard and an index of 
those communications to NHTSA. MAP-21 also requires NHTSA to make these 
available on a publicly accessible Internet website. While MAP-21 does 
not specify a deadline for these requirements, NHTSA is preparing to 
compel the indexes from manufacturers, and intends to make sure this 
information is searchable from those indexes and available to the 
public within 6 months.
3. NYT article inaccuracies
    Senator Blumenthal. . . . I'd also appreciate any contention in 
detail that you have disputing the New York Times story. You said it 
was wrong in numerous respects, but I'd like something in writing from 
you that we can put in the record if you feel, in fact, it was in error 
in any way.

    Mr. Friedman. I'd be happy to do so.

    RESPONSE: The New York Times article, ``Regulator Slow to Respond 
to Deadly Vehicle Defects'' (September 15, 2014), inaccurately 
discussed the following issues:

  <bullet> NCAP

        The New York Times article falsely characterizes the New Car 
        Assessment Program (NCAP) as a misuse of agency resources. The 
        New York Times article shows little knowledge and understanding 
        of the origins and evolution of NCAP. NCAP is an effective 
        program for generating and providing information that enables 
        consumers to identify top performing products and thereby 
        inducing the manufacturers of those products to compete with 
        one another in improving their safety performance to meet 
        consumer demand.

        NHTSA established NCAP in response to Congress' enactment of 
        the Motor Vehicle Information and Cost Savings Act of 1972. 
        Title II of the Cost Savings Act requires the Secretary to

                maintain a program for developing the following 
                information on passenger motor vehicles:

                . . .

                (2) crashworthiness, crash avoidance, and any other 
                areas the Secretary determines will improve the safety 
                of passenger motor vehicles.

                and to provide that information to consumers.

        The rationale for generating and disclosing product information 
        was well described by former OIRA Administrator Cass Sunstein 
        in a June 18, 2010 memorandum to the heads of executive 
        departments and agencies:

                Sometimes Congress requires or authorizes agencies to 
                impose disclosure requirements instead of, or in 
                addition to, mandates, subsidies, or bans. For example, 
                automobile companies are required by law to disclose 
                miles per gallon (MPG) ratings for new vehicles, and a 
                standardized Nutrition Facts panel must be included on 
                most food packages. The goal of disclosing such 
                information is to provide members of the public with 
                relevant information at the right moment in time, 
                usually when a decision is made.

        Administrator Sunstein amplified his comments in a September 8, 
        2011 memorandum entitled ``Informing Consumers by Smart 
        Disclosure.''

        Under the leadership of then NHTSA Administrator Joan 
        Claybrook, model year 1979 vehicles were the first vehicles 
        tested and rated for NCAP. After the Senate and Conference 
        Appropriations Reports for Fiscal Year 1992 requested that 
        NHTSA improve its methods of informing consumers about NCAP 
        results, the agency established the five-star rating system, 
        which was first used for MY 1994 vehicles.

        To ensure that consumers shopping for new motor vehicles have 
        easy access to the safety ratings, Congress enacted legislation 
        (``Stars on Cars'') in 2005 amending the Automobile Information 
        Disclosure Act to require that motor vehicle manufacturers 
        place the safety ratings on the ``Monroney'' price sticker on 
        each new vehicle.

        Other countries and regions have followed NHTSA's example. 
        There are now NCAP programs in Latin America, the European 
        Union, China, Japan, Korea, the ASEAN countries and Australia. 
        In addition, the Insurance Institute for Highway Safety began 
        its program for generating and disseminating safety ratings in 
        the mid-1990s.

        The article also incorrectly implies that the ratings from the 
        NCAP program are not useful indicators of safety, but rather 
        that the ratings are only a marketing tool for manufacturers.

        In actuality, the NCAP ratings have enabled consumers to push 
        automakers to improve vehicle safety features. NHTSA 
        periodically updates NCAP, pushing the bar for high ratings 
        even higher most recently in model year 2011. The agency made 
        frontal and side crash ratings criteria more stringent by 
        upgrading test dummies, establishing new injury criteria, 
        adding a new side pole crash test, and creating a single 
        overall vehicle score that reflects a vehicle's combined 
        frontal crash, side crash, and rollover ratings. The MY 2011 
        upgrade also added recommended crash avoidance technologies to 
        the NCAP program. This upgrade indicates to consumers which 
        vehicles have recommended advanced technology features and 
        which do not so they can more easily find vehicles with the 
        increased levels of safety they prefer. This year NHTSA has 
        added rear visibility cameras as a recommended advanced 
        technology.

        In the first year of the more stringent program, fewer than 20 
        percent of vehicles received the top level of 5 stars in the 
        overall safety rating. By MY 2014, over 60 percent of vehicles 
        received 5 stars in the overall safety rating. In other words, 
        manufacturers have quickly improved their vehicle designs in 
        response to the more stringent tests, providing extra margins 
        of safety beyond what is required in several important areas. 
        Along with NHTSA's Federal Motor Vehicle Safety Standards and 
        efforts to reduce dangerous driving behaviors, these consumer-
        information-driven vehicle safety improvements have helped the 
        motor vehicle fatality rate in the United States to reach 
        record lows.

        Finally, the article incorrectly claims that ``the agency 
        spend[s] about as much money rating new cars--a favorite 
        marketing tool for automakers--as it does investigating 
        potentially deadly manufacturing defects''.

        NHTSA's Office of Defects Investigation (ODI) has a budget of 
        $17 million--nearly 60 percent higher than the NCAP budget of 
        $10.6 million when all resources are accounted for (i.e., both 
        the contract dollars and the money to pay staff). Human capital 
        is key to NHTSA's success and ODI has 10 times the staff as 
        NCAP--51 employees in ODI but only five employees in NCAP. The 
        NCAP budget is primarily used to purchase and test new vehicles 
        to help push automakers to produce vehicles that provide better 
        protection in a crash.

  <bullet> Defects Investigation Budget

        The article says that ``[t]he agency's budget for safety 
        defects investigation has hovered around 1 percent of its total 
        budget for each of the last 6 years.'' This statement is very 
        misleading.

        The relevant number is seven (7) percent. Of NHTSA's $819 
        million budget in Fiscal Year 2014, by statute, $561.5 million 
        of funds is provided directly to states as grants for their own 
        highway safety programs. Of the remaining $257.5 million, which 
        is under the direct control of NHTSA, the safety defects budget 
        stands at seven (7) percent, including both safety defects 
        program expenses as well as defects investigation staff 
        salaries and benefits.

  <bullet> Stalling

        Throughout the New York Times article, stalling issues and 
        complaints of stalling issues are depicted as being a direct 
        result of ignition switch problems. (``. . . the agency had 
        received more than 5,000 complaints about the ignition 
        problems, including more than 2,000 about unexpected stalling . 
        . .'')

        A gross count, such as the one employed by the New York Times, 
        misleads readers to believe that all 5,000 ignition complaints 
        were related to unintended key rotation and 2,000 complaints 
        were related to stalling as a result of unintended ignition key 
        rotation.

        An analysis of over 470,000 consumer complaints from calendar 
        year 2003--2013 shows considerably smaller numbers than those 
        cited by the New York Times. Our review, when focused on the 
        vehicles recalled by GM for the ignition switch defect, 
        identified approximately 135 consumer complaints of stalling 
        from 2003 to 2013 where the consumer stated that the ignition 
        switch was involved in the incident and where the vehicles were 
        subsequently recalled by GM. These 135 complaints were received 
        in an 11-year period. In any one of those years, NHTSA received 
        no more than five complaints for any one of the recalled models 
        for any single model year. The New York Times failed to 
        consider the full scope of relevant information in its article.

        NHTSA was aggressively pursuing stalling complaints during this 
        same time period. From 2003 to 2013, NHTSA opened 10 
        investigations of stalling in GM vehicles that led to eight 
        recalls of almost 800,000 vehicles and 44 stalling 
        investigations overall, leading to recalls of approximately 5.1 
        million vehicles.

        We note that there are many reasons for vehicle stalling. 
        Vehicles may stall from lack of maintenance. They may also 
        stall from contaminated fuel. Failures or intermittent faults 
        in engine sensors, engine management computers, fuel systems 
        and onboard vapor recovery systems can all cause stalling. 
        Software in the various computers and network issues within a 
        vehicle may also cause a stall. Many of the broader stalling 
        complaints received by NHTSA appear to relate to such issues 
        that are unrelated to the ignition switch issue that led to the 
        air bag safety risk in affected GM vehicles.

  <bullet> Jeep Grand Cherokee and Liberty Fuel Tank Recalls

        The New York Times article also falsely claims that the recent 
        Jeep Grand Cherokee/Jeep Liberty recall illustrated NHTSA's 
        failure to act with vigor. The article claims that the agency 
        ``scaled back'' its recall request after Chrysler ``balked'' at 
        recalling all the vehicles encompassed by the agency's recall 
        request letter. The Times also stated that NHTSA ``agreed to 
        Chrysler's demand that the automaker not be required to say the 
        vehicles had a safety defect;'' and that the agency agreed to 
        ``Mr. Marchionne's demand that it stop describing the vehicles 
        as defective.''

        This information is false and inconsistent with public record. 
        After NHTSA issued a recall request letter to Chrysler, the 
        company took the unprecedented step of immediately issuing a 
        public refusal to perform a recall. However, NHTSA continued to 
        demand a recall of Jeep vehicles that posed an unreasonable 
        risk to safety. Because of Chrysler's resistance to NHTSA 
        active pursuit of the vehicles with safety defects, it appeared 
        that resolution of the dispute would require years of 
        protracted litigation, during which no vehicles would either be 
        recalled or remedied.

        Engagement by NHTSA with Sergio Marchionne, the CEO of 
        Chrysler's parent corporation, Fiat, opened the door to a 
        safety recall of all vehicles that posed an unreasonable risk 
        to safety. As a result, a settlement was reached. Under this 
        settlement, the defective vehicles, those at risk for fuel tank 
        fires in low to moderate speed impacts were recalled and 
        remedied. Additionally, some newer Grand Cherokee models were 
        not part of the recall because data did not demonstrate an 
        unreasonable risk to safety in the same low to moderate speed 
        impacts. Despite that fact, NHTSA was able to get Chrysler to 
        agree to inspect these vehicles as part of a service campaign.

        The New York Times article also inaccurately states that NHTSA 
        agreed to a demand by Chrysler to stop describing the recalled 
        vehicles as defective. This is simply not true. NHTSA 
        classifies this issue as a safety defect and required Chrysler 
        to use the term safety defect in its owner notification 
        letters. (See owner letter http://www-odi.nhtsa.dot.gov/acms/
        cs/jaxrs/download/doc/UCM
        462519/RCONL-13V252-6248.pdf).

        The agency's defect investigation of the affected Chrysler 
        vehicles is not closed, and we will continue to monitor these 
        vehicles for defects.

  <bullet> Open Investigations from the 90s

        The article states that, ``33 investigations from the 1990s 
        remain open.''

        This information is inaccurate. NHTSA's public records show a 
        closed date for all 34 (not 33) investigations opened during 
        the 1990s. We believe the New York Times made this error partly 
        because of a database issue. The agency deployed a new database 
        system in late 2002. The migration from the legacy system to 
        the new system inadvertently created a database update error 
        that listed the investigation status field as ``open'' even 
        though the closed date was properly set to a valid date. Had 
        the New York Times examined the actual case files in the public 
        database they would have seen that these investigations were 
        closed. We are working to correct the database error.

  <bullet> Invoking Legal Authority

        The New York Times article claims that ``[i]t has been 35 years 
        since the regulator has invoked its legal authority to order a 
        company to recall cars.''

        That is incorrect. In June 1996, NHTSA ordered Chrysler to 
        recall certain Chrysler Cirrus and Dodge Stratus vehicles for 
        noncompliance with the safety standard for seat belt 
        anchorages. The United States subsequently filed suit in 
        Federal court in D.C. to enforce NHTSA's order.

        More recently, in 2012, NHTSA issued orders to two three-
        wheeled motorcycle manufacturers, finding their recalls 
        inadequate and requiring them to take specified steps to carry 
        out effective recalls. The United States sued both of these 
        manufacturers to compel them to comply with the agency's 
        orders.

        More importantly, the need to explicitly exercise legal 
        authority to order a recall is a poor and misleading measure of 
        NHTSA's effectiveness in getting safety defects quickly 
        addressed by manufacturers. In the very many cases where NHTSA 
        ``influences'' a recall, the agency regularly pressures 
        reluctant manufacturers to recall vehicles by invoking its 
        legal authority to order a recall. It is quicker, and better 
        protects the American public, to pressure the manufacturer to 
        conduct a recall than it is to go through the formal process of 
        a written determination of a defect, holding a public hearing, 
        and issuing a final determination that can be challenged and 
        tied up in court.

  <bullet> IG Audit

        The New York Times article omits the fact that the Inspector 
        General's (IG) audit was conducted at the Department's own 
        request, and supplements an internal due diligence effort 
        started by NHTSA and called for by the Secretary. The Secretary 
        officially requested the audit soon after GM recalled the 
        subject vehicles. NHTSA's due diligence is focused on 
        understanding past events and implementing improvements going 
        forward.
4. Contractor bonus for workforce assessment
    Senator McCaskill. Ten recommendations. And the one that's 
outstanding--and we were told back in April that it would be done in 
May--in your internal look at whether or not you've got the right 
resources. I'm worried that the programming money for this Agency has 
been flatlined for a decade. In light of all the technological 
advances, that just doesn't compute with me. So where is the workforce 
assessment that is so necessary for us to evaluate whether or not you 
are properly supported and whether we need to do a much better job to 
supporting you?

    Mr. Friedman. We have had some delays in that effort, in part 
because the quality of some of the work from a contractor, where we 
were trying to make sure to use a contractor to help leverage our 
resources and use the dollars that we had, there were some fundamental 
problems with the product that was delivered from that, and as a 
result----

    Senator McCaskill. How much did you pay for that?

    Mr. Friedman. I don't know that number, but we can get it to you.

    Senator McCaskill. Have we paid them a bonus yet?

    RESPONSE: The contractor was not and will not be paid a bonus for 
the work. NHTSA paid $400,000 for services associated with the ODI 
workforce assessment. NHTSA determined that the work met the minimum 
contract requirements, but nonetheless required considerable 
refinement. NHTSA is currently finalizing the assessment and will 
complete the workforce assessment by mid-November.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                           David J. Friedman
Issue: Whether NHTSA has adequate resources
    Question 1. The administration requested $851 million for NHTSA in 
its budget request for fiscal 2015. Of that amount, $20 million is for 
enforcement. But only about half of that amount--$10.6 million--is 
targeted for defects investigations. In Fiscal Year 2014, NHTSA spent 
about the same amount, or $10.6 million, for investigations of safety 
defects. The president's budget request would keep NHTSA's level of 
investigators at roughly 50--despite the growing safety defects issues 
that come to light every day. Does the administration's budget request 
accurately reflect the oversight mission that NHTSA is tasked with 
carrying out?

    Question 1a. Would $10 million and 50 investigators really allow 
your agency to address the growing challenges that continue to arise in 
auto safety?
    Answer. We appreciate the opportunity to discuss the budget request 
for the safety defects investigation program. In the President's Fiscal 
Year (FY) 2015 Budget, NHTSA requested $10.6 million for the safety 
defects investigations program, which is consistent with the FY 2014 
request. However, this request is for program costs and does not 
include salaries and benefits for Office of Defects Investigation (ODI) 
employees. While NHTSA did not ask for additional program dollars in 
the FY 2015 request, the Agency requested six additional positions for 
ODI. And in the President's FY 2014 Budget, the Agency requested four 
additional positions for ODI. The ``Consolidated Appropriations Act, 
2014'' and ``Consolidated and Further Continuing Appropriations Act, 
2015'' did not provide NHTSA with the full level of funding in its 
budget proposals to support the additional personnel requested in its 
FY 2014 and FY 2015 budgets.
    ODI's work is important to all highway users, as is evident from 
the recent recalls of Toyota and General Motors vehicles and vehicles 
with defective Takata air bags. To increase the effectiveness of ODI's 
work, we believe that the following steps are necessary: enhance ODI's 
ability to use the latest technology to help identify possible safety 
defects; increase the public's awareness of reporting safety problems 
with their vehicles or vehicle equipment to NHTSA; and provide ODI with 
the personnel resources to address potential safety risks.
    Looking ahead, areas of new opportunities for safety defect 
investigations could include an advanced data mining and analytical 
tool, incorporation of business intelligence to enhance the ability of 
defect screeners and investigators to identify new defect trends. On 
another front, in the future NHTSA may wish to undertake a consumer 
awareness and outreach campaign as a large portion of the data received 
about defects comes from consumers.
    Having a sufficient number of qualified staff is critical to an 
effective safety defects investigation program. ODI currently has eight 
defect screeners and four Early Warning data analysts to identify 
potential safety defects, and 16 investigators to conduct formal 
investigations. The over 250 million registered vehicles in the U.S. 
creates tremendous data collection and analysis demands on ODI staff 
that will only continue to grow due to a significant increase in the 
number of consumer complaints received and the number of recalls.
    We look forward to working with Congress on the FY2016 Budget to 
ensure that NHTSA has the additional resources it needs to be 
adequately funded to fulfill its safety responsibilities and respond 
effectively to emerging safety issues through these and other 
activities.
Issue: Whether NHTSA is adequately addressing the problem of ``hot 
        cars''
    Question 2. In recent years, we've begun witnessing a growing 
phenomenon during summer months: the death of children in so-called 
``hot cars'' succumbing to hyperthermia or heat stroke. This is also a 
problem during spring and fall months, too. About thirty children die a 
year in these tragedies, including many in Connecticut, where we've 
seen a number of heartbreaking incidents in recent months. The 2012 
surface transportation reauthorization law, MAP-21, gave DOT and NHTSA 
the authority to ``initiate research into effective ways to minimize'' 
this problem, including the use of technology and public awareness 
campaigns. What efforts has NHTSA taken to address this problem since 
MAP-21 was enacted over two years ago?
    Answer. NHTSA has led the nationwide efforts to address childhood 
heatstroke for the past 6 years. NHTSA has been actively working to 
educate the public over that time on the dangers of leaving a child 
unattended in a car and has also been engaged on technologies that 
could supplement such educational activities to prevent these tragic 
incidents. Since 2012, we have issued public safety advisories during 
warmer months to alert parents and caregivers of the safety risks 
involved, and we work closely with State and Federal partners to spread 
the word.
    In April 2012, the Department launched ``Where's Baby? Look Before 
You Lock,'' the first-ever national campaign to draw public attention 
to this issue and has continued the campaign in each subsequent year. 
Since the campaign started, ``Where's Baby?'' has been supported by a 
total of $4.6 million media campaign focused on radio and Internet 
programming that runs from early May to late September. We have since 
carried the message to communities across the country, including 
Connecticut, through more than a dozen in-person events, television and 
radio interviews across the country, social media messaging, and 
through our many partners in this cause. Our ad buy includes ads that 
are being heard on stations covering Connecticut. The Connecticut State 
Highway Safety Office is using NHTSA grant funds to support a ``Look 
Before You Lock'' Campaign with the Connecticut Children's Medical 
Center. In addition, we have developed public awareness tools that our 
partners can use in their communities, businesses, day care centers, 
parking lots, and other places that reach a large audience. We have 
also partnered with the Department of Health and Human Services to 
increase outreach to day care centers.
    As discussed in response to question 2b, we have also been 
conducting research to evaluate the effectiveness of and establish 
standard performance tests for technological solutions to the tragic 
risk of children left in cars unattended.

    Question 2a. What technological solutions are available to address 
this problem? If technology can let us know when we need to buckle a 
seat belt, can't it let us know that there's a child in a back seat?
    Answer. On the technology side, we sponsored a research project in 
2012 that surveyed the marketplace and evaluated products intended to 
provide reminders to prevent children from being left behind in parked 
vehicles. The research determined that these devices were not 
sufficiently reliable and could provide a false sense of security to 
the caregiver using them. Since 2012, we have been cataloguing newer 
devices on the market, as well as monitoring design concepts, and are 
developing test procedures to evaluate the performance of these devices 
objectively. We expect to finish that work in 2015. Once finalized, it 
will help accelerate the development of effective systems by making 
clear to developers how they can design for and demonstrate a system 
that could warn of a child that is unintentionally left in a vehicle.
    Such systems could help with about one-half of the fatalities 
associated with childhood heatstroke in a vehicle--cases where children 
were unintentionally left in cars. Another 20 percent were 
intentionally left in a vehicle and 30 percent gained access to an 
unlocked vehicle.
    The technology used for seat belt reminders is based upon pressure 
on the seat and provides a warning to the driver while the vehicle is 
in motion. Such technology is likely not appropriate for identifying 
children in hot vehicles. The technology to address children in hot 
vehicles would need to differentiate between children alone in a 
vehicle versus an unoccupied child seat or other items frequently 
placed on a back seat and would need to reliably provide an alert to 
adults who are outside of the vehicle. NHTSA has catalogued several 
proposed technological solutions involving child seats and various 
aftermarket devices, but at this point we are not aware of any that are 
sufficiently reliable or effectively address the problem.

    Question 2b. Is legislation needed to prevent children from dying 
in hot cars?
    Answer. At this time, given the practical and technological 
challenges that exist, NHTSA does not believe that legislation 
requiring technological solutions would effectively address the problem 
yet and recommends continued support for NHTSA's public education, 
technology evaluation, and test procedure development efforts.
Issue: Whether NHTSA is moving swiftly to promulgate regulations on 
        speed limiters for commercial trucks
    Question 3. Devices known as ``speed limiters'' can restrict a 
truck's speed to a pre-programmed maximum level. Research has shown 
that these devices may significantly reduce the number of crashes 
involving heavy duty commercial trucks. NHTSA has been working for 
several years to implement a rule that mandates these devices for 
certain vehicles, but a rule has not yet been released. Safety 
advocates and members of the trucking industry have voiced their 
support for such a mandate, and just recently a representative of the 
American Trucking Associations testified before the Senate Commerce 
Committee's Surface Transportation Subcommittee advocating for a speed 
limiter rulemaking. What is the status of the proposed rule?
    Answer. In response to a petition from the American Trucking 
Associations and Road Safe America to initiate rulemaking to require 
manufacturers to limit the speed of heavy vehicles, NHTSA published a 
notice on January 3, 2011, granting the petition and announcing that 
the agency would initiate the rulemaking process with a notice of 
proposed rulemaking. Because this rulemaking would apply to many 
commercial vehicles that are regulated by the Federal Motor Carrier 
Safety Administration (FMCSA), NHTSA and FMCSA decided that the most 
effective approach to improve roadway safety would be to issue a joint 
rulemaking proposal that will include both a Federal motor vehicle 
safety standard and a Federal motor carrier safety regulation. Although 
developing a joint rulemaking has required additional time and 
coordination, FMCSA's involvement will help ensure effective 
enforcement. A proposed rule is currently under Departmental review, 
and we expect to issue this proposal for public comment in the near 
future. http://www.reginfo.gov/public/do/
eAgendaMain?operation=OPERATION_GET_AGENCY_RULE_LIST&currentPu
b=true&agencyCode=&showStage=active&agencyCd=2100&Image58.x=26&Image58
.y=10

    Question 3a. When will a final rule be issued?
    Answer. The expected date for the final rule will be determined 
after analyzing public comments on the proposal.

    Question 3b. What vehicles will be governed by the final rule? Will 
it apply to new vehicles or existing ones as well?
    Answer. After analyzing public comments on the proposal, NHTSA will 
determine what vehicles will be included in the final rule.
Issue: Whether NHTSA is moving swiftly to promulgate regulations on 
        motorcoach safety
    Question 4. MAP-21 included important vehicle and traffic safety 
provisions directing agency action on key lifesaving measures, 
including many recommendations issued by the National Transportation 
Safety Board (NTSB) to improve occupant protection and operational 
safety in motorcoach travel. These issues languished for years until 
specific deadlines for agency action were included in the surface 
transportation bill. What is status of the rulemakings concerning 
motorcoach safety that were mandated in MAP-21?

    Question 4a. When will NHTSA complete the issuance of final rules 
on the motorcoach safety provisions?
    Answer. At NHTSA, the safety of the motoring public is our top 
priority, and we work to allocate our resources strategically to ensure 
the maximum focus on saving lives. NHTSA is working diligently to 
implement the various motor vehicle and highway safety improvements 
contained in MAP-21, as well as other rulemaking, enforcement, vehicle 
research, and highway safety activities that significantly reduce 
highway injuries and deaths. For example, in 2013, NHTSA issued two 
final rules that fulfill MAP-21 mandates to improve motor vehicle 
safety. One rule requires seatbelts on motorcoaches, and the other 
requires all major automakers and motorcycle manufacturers to provide 
consumers with online access to vehicle recall information that is 
searchable by the vehicle identification number. NHTSA also recently 
issued two notices of proposed rulemaking in response to MAP-21 
mandates. One notice proposes to establish improved roof and roof 
support standards for motorcoaches to prevent injuries in rollover 
crashes, and the other notice proposes upgrades to the Federal motor 
vehicle safety standard for child restraint systems to ensure child 
passengers are protected in side crashes. In addition to the rulemaking 
activities responsive to MAP-21, NHTSA has also completed several 
important activities in the past two years, including releasing 
guidelines to minimize in-vehicle distractions, proposing new minimum 
sound requirements for hybrid and electric vehicles, and completing a 
rule requiring rear visibility technology in all new passenger 
vehicles, which will significantly reduce the risk of fatalities and 
serious injuries caused by backover accidents. Finally, NHTSA continues 
to look towards the future. Earlier this year we announced the decision 
to move forward with vehicle-to-vehicle communication technology for 
passenger vehicles followed by the publication of an Advance Notice of 
Proposed Rulemaking in August.
    The following table provides the status of the MAP-21 motorcoach 
rulemakings. In many cases, the dates for final rules are not indicated 
because they will depend upon public comments received on proposals or 
because issuance of a final rule is dependent upon a determination of 
whether such rule would meet the requirements and considerations set 
forth in the Vehicle Safety Act.

------------------------------------------------------------------------
  MAP-21 Section         Requirement                   Status
------------------------------------------------------------------------
32703(a) Safety    Final rule by 1 year     Complete. Final rule
 belts              after date of            requiring seatbelts on
                    enactment (10/1/2013).   motorcoaches issued in
                                             November 2013.
------------------------------------------------------------------------
32703(b)(1) Roof   Final rule by 2 years    On July 30, NHTSA issued an
 strength and       after date of            NPRM to set requirements
 crush resistance   enactment if the         for motorcoach structural
                    Secretary determines     integrity during rollovers.
                    that such standards      The comment period for this
                    meet the requirements    proposal ended October 6,
                    and considerations set   and NHTSA will set a
                    forth in the Vehicle     schedule for the final rule
                    Safety Act (10/1/        after analyzing the public
                    2014).                   comments.
------------------------------------------------------------------------
32703(b)(2) Anti-  Final rule by 2 years    NHTSA is currently drafting
 ejection safety    after date of            a proposal and expects to
 countermeasures    enactment if the         issue an NPRM in 2015.
                    Secretary determines
                    that such standards
                    meet the requirements
                    and considerations set
                    forth in the Vehicle
                    Safety Act (10/1/
                    2014).
------------------------------------------------------------------------
32703(b)(3)        Final rule by 2 years    NHTSA issued an NPRM in
 Rollover crash     after date of            2012. NHTSA is working on
 avoidance          enactment if the         the final rule and expects
                    Secretary determines     to publish the final rule
                    that such standards      in early 2015.
                    meet the requirements
                    and considerations set
                    forth in the Vehicle
                    Safety Act (10/1/
                    2014).
------------------------------------------------------------------------
32703(c)           Final rule by 3 years    NHTSA is currently
 Commercial motor   after date of            determining the most
 vehicle tire       enactment if the         appropriate next steps.
 pressure           Secretary determines
 monitoring         that such standards
 systems            meet the requirements
                    and considerations set
                    forth in the Vehicle
                    Safety Act (10/1/
                    2015).
------------------------------------------------------------------------
32703(d) Tire      Final rule or Report to  In 2013, NHTSA issued a
 performance        Congress describing      supplemental NPRM to
 standard           why the Secretary is     upgrade the safety standard
                    not issuing a final      for new pneumatic tires for
                    rule by 3 years after    motor vehicles with a Gross
                    date of enactment (10/   Vehicle Weight Rating of
                    1/2015).                 over 10,000 pounds, such as
                                             motorcoaches, and we intend
                                             to meet the statutory
                                             deadline.
------------------------------------------------------------------------
32704 Fire         Final rule by 3 years    NHTSA expects to complete
 prevention and     after date of            the research by the end of
 mitigation         enactment of this Act    this year and will then
                    if the Secretary         determine appropriate next
                    determines that such     steps.
                    standards meet the
                    requirements and
                    considerations set
                    forth in the Vehicle
                    Safety Act (10/1/
                    2015).
------------------------------------------------------------------------
32705 Occupant     Complete research and    NHTSA research is ongoing,
 protection,        testing by 3 years       and we will determine
 collision          after date of            appropriate agency actions
 avoidance, fire    enactment (10/1/2015).   upon the completion of the
 causation and      Final rule by 2 years    required research and
 fire               after completion of      testing.
 extinguisher       each research and
 research &         testing initiative if
 testing            the Secretary
                    determines that such
                    standards meet the
                    requirements and
                    considerations set
                    forth in the Vehicle
                    Safety Act.
------------------------------------------------------------------------

                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                           David J. Friedman
    Question 1. According to the Valukas report, in 2004, GM and NHTSA 
had a secret meeting in which the attendees inexplicably agreed that 
cars stalled all by themselves, but that this was not necessarily a 
safety problem. During the hearing, I asked you whether you believed 
NHTSA erred in 2004. In response to this and other related questions, 
you said ``Senator, in this GM case, the ignition switch and the stall 
was linked to airbags not deploying, and that is clearly a safety 
issue,'' that ``There's no doubt that stalling can be a serious safety 
issue'' but also that ``If a consumer can safely pull their vehicle 
over to the side of the road and restart that vehicle, then that's a 
situation where the consumer can be safe, but obviously, the car 
company does need to address any stalling issue that represents a 
safety risk'' and that stalling ``hasn't always posed an unreasonable 
safety risk.''
    Some of the victims who were killed after their GM vehicles stalled 
were driving in cars that were, at the time of the stall, i) traveling 
at high speeds, or ii) in the middle of making a turn at an 
intersection before being struck by another car traveling in another 
direction. Is it NHTSA's position that drivers should be able to pull a 
car that stalls in such circumstances over to the side of the road and 
restart it so that ``the consumer can be safe''?
    Answer. No. Stalls represent an unreasonable risk to safety 
depending on when, where and how often they occur. NHTSA's numerous 
stalling investigations and the stalling recalls influenced by these 
investigations demonstrate that NHTSA would consider stalling to be a 
safety issue under the conditions you describe. While the Valukas 
report discusses communications between NHTSA and GM about stalling on 
pages 74 and 75, the report finds that there is ``no documentary 
evidence'' of any agreement between NHTSA and GM regarding stalling, 
and the evidence showed that the agency rejected the approach adopted 
by GM toward stalls as a safety problem.

    Question 1a. Given your statement that it was only the linkage 
between the ignition switch defect and the airbags not deploying that 
was ``clearly a safety issue,'' is it NHTSA's position that the GM 
ignition switch defect would not have posed a safety problem as long as 
a consumer could either ``safely pull their vehicle over to the side of 
the road and restart the vehicle'' or be assured that the airbags would 
have deployed as designed?
    Answer. As the record shows, NHTSA did not open an investigation on 
stalling for these vehicles, so we have not performed the evaluation 
that would be needed to take a position on your question. Note, 
however, that subsequent examination of the available complaint data 
does not demonstrate that the recalled GM vehicles exhibited high rates 
of stalling compared to peer vehicles.

    Question 1b. Does NHTSA believe that passengers sitting in the back 
seats of the recalled vehicles hit by other cars traveling at high 
speeds would be protected by airbags, even if the airbags did deploy as 
designed?
    Answer. Frontal airbags do not provide a safety benefit to rear 
seat occupants in frontal crashes.

    Question 1c. If the response to either a, b or c is no, then why 
can't you state simply that in 2004, NHTSA should not have agreed with 
GM that cars stalling all by themselves did not necessarily pose a 
safety problem?
    Answer. There was no ``agreement'' between GM and NHTSA on 
stalling. The Valukas report does not conclude that such agreement 
existed, and in fact, supports the conclusion that such an 
``agreement'' did not exist.

    Question 1d. Does NHTSA today believe that a defect that causes 
cars to stall on their own is a safety problem, irrespective of whether 
there are actions drivers can take to avoid a fatal accident and 
whether the airbags deploy in the event the accident occurs?
    Answer. NHTSA does not believe that all stalls represent a safety 
problem. The Safety Act requires the recall and remedy of safety-
related defects when such defects present an unreasonable risk of death 
or injury in an accident. Stalls create an unreasonable safety risk 
depending on where, when and how often the stalls occur.

    Question 2. In 2007, NHTSA asked for and received a secret document 
from GM related to the death of two Wisconsin teenagers. That document 
was first made public by me at our May 7 hearing, and it is referenced 
repeatedly in Mr. Valukas's report. This response to NHTSA's Death 
Inquiry included a report by the Wisconsin State Patrol Academy that 
said that the ignition switch defect prevented the airbags from 
deploying. It also found other examples of the same problem happening 
in other cars and identified a 2005 GM warning to dealers about the 
issue. In short, it correctly identified the safety defect. During the 
hearing you seemed to confuse this document that NHTSA requested and 
received with a different Special Crash Investigation document, stating 
that ``Well, Senator, the special crash investigation report that 
included these same assertions was a public document, and no one 
brought that issue to our attention.'' In fact, the document I was 
referring to was NOT a public document. That document, which NHTSA 
obtained in 2007 but kept secret until it provided it to me in 2014, 
was DI07-044, requested by NHTSA upon its review of the Early Warning 
Report submitted by GM on the Wisconsin accident. The 2007 report 
established the very linkage between the ignition switch defect and 
airbag non-deployment that you have claimed repeatedly that NHTSA 
lacked--but would have taken action to address if only it had had 
access to such linkage--until early 2014. Do you acknowledge that NHTSA 
requested and received this document in 2007 as part of a Death 
Inquiry, but neither took action on its contents nor made it publicly 
available?
    Answer. NHTSA received the police accident report for the October 
2006 Wisconsin incident as part of GM's responses to DI07-044 in June 
2007. The Wisconsin report was reviewed by NHTSA staff. The agency 
considered the circumstances of the Wisconsin crash as part of its 
investigation of the issue, but did not believe that the position of 
the ignition switch would prevent airbags from deploying on reserve 
power. Because of privacy issues, the agency does not typically make 
DIs available to the public and did not make the Wisconsin police 
accident report available to the public. However, the Wisconsin police 
accident report is discussed in the Special Crash Investigations (SCI) 
report which was posted on NHTSA's public website. Furthermore, the 
Wisconsin police accident report could be obtained by the public from 
Wisconsin authorities.

    Question 2a. Do you agree with me, GM CEO Mary Barra and others 
that if the public had been able to read this secret document and 
warned about its conclusions at the time, it is possible that some of 
the deaths and injuries caused by the ignition switch defect could have 
been avoided?
    Answer. No. The Wisconsin police accident report could be obtained 
by the public from Wisconsin authorities and was directly referenced in 
the publicly released SCI report on April 2, 2008. The SCI report 
contains a full recitation of the facts based on observations made 
regarding the ignition switch issue described in the Wisconsin police 
accident report. Although it is possible that people or organizations 
outside of NHTSA could have brought greater attention to the issue by 
reviewing the SCI report and obtaining the Wisconsin police accident 
report from Wisconsin authorities, the record indicates that did not 
happen and it is unclear that making the information available through 
a third venue would have altered the outcome.

    Question 2b. During the hearing, in response to my question about 
whether documents such as this and other EWR information should be 
publicly released in the future, you stated that you ``agree that 
making this kind of information, with privacy protections, public can 
be a positive and helpful thing. What I don't agree with, though, is 
the--is putting the burden for making that information public with 
privacy protections should fall on NHTSA. I believe that burden should 
fall onto the industry who is causing these problems.'' You also stated 
at many points during the hearing that GM ``hid the ball,'' encouraged 
a culture of ``denial and delay that cost lives and endangered the 
American public'' and that GM never provided key information to NHTSA. 
Why does NHTSA believe that automakers, rather than the agency that, 
according to its webpage, ``is dedicated to achieving the highest 
standards of excellence in motor vehicle and highway safety'', would be 
in a better position and could be trusted to fully inform the public 
about potentially deadly automobile defects?
    Answer. If an automaker were intent on hiding information that a 
law required them to make public, requiring NHTSA to make such 
information public would not help. If the automaker's intent was to not 
fully inform the public and the law required NHTSA to make such 
information public, it is unclear why the automaker would not also fail 
to provide that information to NHTSA in its EWR submission. As a 
result, NHTSA would not have that information and therefore would not 
have it in order to make public. We share your concern about the 
potential for automakers to be less than forthright, which is why GROW 
AMERICA includes a provision to substantially increase maximum fines to 
$300 million to increase NHTSA's ability to deter such actions. In 2014 
alone, NHTSA has aggressively used the limited financial penalties 
available to issue record fines of more than $126 million in civil 
penalties, exceeding the total amount collected by the agency during 
its forty-three year history.
    As a Federal agency, NHTSA is subject to a number of laws, such as 
the Freedom of Information Act and the Privacy Act, that limit the 
disclosure of personal information. To make such information public 
with privacy protected would create significant costs for taxpayers and 
a significant burden on NHTSA staff, diverting resources from other 
efforts, including pursuing enforcement activities that regularly save 
lives and prevent injuries. These GM recalls are a lesson learned not 
only for GM but for other automobile manufacturers--good corporate 
governance requires compliance with the law, especially with regard to 
the safety of the motoring public. With NHTSA oversight, requiring the 
manufacturers to disclose information publicly will be less expensive 
for taxpayers and would make it available to the public faster since it 
would eliminate the added step of NHTSA processing the information 
first.

    Question 2c. Why couldn't NHTSA require automakers to provide the 
additional information and documents required in S. 2151 in a form that 
redacted personally identifiable information or information properly 
classified as confidential business information to NHTSA, which would 
require the use of NHTSA resources only to validate the automakers' 
redactions? In fact, NHTSA staff informed my office that this was the 
process NHTSA utilized when it publicly released the lengthy Valukas 
report after receiving it a few hours before posting it online.
    Answer. The Privacy Act and the Freedom of Information Act require 
NHTSA to maintain the privacy of individuals and ensure that personal 
privacy information is not disclosed without consent. The additional 
documents required in S. 2151 such as court complaints and police 
accident reports are laden with personal privacy information. 
Accordingly, NHTSA would still have to devote significant resources to 
ensure that the information it receives pursuant to S. 2151 has all 
personal privacy information removed in order to make the information 
publicly available. In contrast, manufacturers bear the burden of 
protecting their confidential business information from public 
disclosure by submitting redacted copies of documents to NHTSA, as 
required by NHTSA's regulation on confidential business information. 
Unlike privacy information, where potential liability for disclosure 
rests with the agency, manufacturers have a self-interest in ensuring 
the accuracy of their redactions of confidential business information.

    Question 2d. For each of years 2010, 2011, 2012 and 2013, how many 
fatality reports were submitted to NHTSA's Early Warning Reporting 
system?
    Answer. See attached file that contains the count of fatality 
incidents and the sum of the numeric values reported in each incident 
submitted to NHTSA's Early Warning Reporting system for each of the 
years specified above.

    Question 3. A recent Detroit News article \1\ referenced some 
140,000 missing vehicles that GM could not account for at the time of 
publication. While it is possible that some of these vehicles are owned 
by a second or third owner and thus more difficult to track, it is also 
possible that some of the vehicles are in automotive recycling or 
salvage facilities. How specifically does NHTSA enable the 
identification of vehicles with safety recalls that are found in 
automotive recycling/salvage facilities so that they can be factored 
into the Agency's remedy rate calculations? How can one be assured that 
a recalled part from a vehicle found in a recycling or salvage facility 
is not used to repair another vehicle without the consumer's knowledge? 
In what manner are automakers expected to work with the owners of 
recycling and salvage facilities to ensure that such situations do not 
occur? Shouldn't any VIN database include the ability to track vehicles 
from cradle to grave, and if not, why not? Shouldn't automakers ensure 
that information that includes the recalled part numbers, remedy part 
numbers, and other data/direction that could be needed by recyclers or 
salvagers is provided in a usable format, and if not, why not?
---------------------------------------------------------------------------
    \1\ http://www.detroitnews.com/article/20140807/AUTO0103/
308070116#ixzz3EFrvBSJm
---------------------------------------------------------------------------
    Answer. Automakers should ensure that information about recalled 
part numbers, remedy part numbers, and such data that would help 
identify vehicles with safety defects is made available directly to 
recyclers and salvagers. NHTSA, however, does not collect, and does not 
have feasible means or resources to collect information on specific 
vehicles that may reside in scrap yards or other salvage facilities. 
Nevertheless, as part of their quarterly reporting on a recall, 
manufacturers are required to report the number of vehicles or items of 
equipment determined to be unreachable for inspection due to export, 
theft, scrapping, or other reasons. From this information, NHTSA 
adjusts the population of vehicles covered by a safety recall to more 
accurately reflect the numbers of vehicles potentially affected on U.S. 
roadways.
    Sales of defective parts are strictly prohibited under the Vehicle 
Safety Act. See 49 U.S.C. Sec. 31020(j). NHTSA can use its 
investigative and enforcement authorities to take actions against a 
person selling defective parts for installation on a motor vehicle if 
evidence is available to support such action.
    NHTSA does not agree that its VIN look up tool should be expanded 
to include information concerning the life cycle of a vehicle. First, 
we believe the tool should be focused on the information for which it 
was originally intended--a quick and easy check for recalls that have 
not been completed on a vehicle. Second, this information would be 
redundant of other Federal and State resources for this information, 
namely the National Motor Vehicle Titling and Information System, as 
well as the State departments of motor vehicles. If NHTSA were to start 
engaging in tracking and disseminating this information, there is also 
a risk that an owner could obtain inconsistent and confusing results 
between systems due to incompatibilities and variances in data quality 
and data timing.

    Question 4. The Tire Pressure Monitoring System provisions in the 
TREAD Act were added by me during House consideration of that bill. 
NHTSA's implementation of the TPMS provisions (FMVSS No. 138 is the 
implementing rule for the TPMS provision in TREAD) has been the subject 
of litigation and a court decision that the rule was arbitrary and 
capricious under the Administrative Procedure[] Act. Of particular 
concern in these court cases was the manner in which the rule addressed 
indirect TPMS technology.
    In November 2012, NHTSA published a report entitled Evaluation of 
the Effectiveness of TPMS in Proper Tire Pressure Maintenance.\2\ The 
study found that severe under-inflation of tires is 21 percent less 
common in vehicles equipped with direct systems than those equipped 
with indirect systems.\3\ Further, NHTSA stated in the study that the 
agency ``did not collect sufficient data from post-FMVSS No. 138 
indirect systems to evaluate their effectiveness.'' \4\ What has NHTSA 
done since this report was written to (i) collect the data it lacked in 
2012 that would have enabled it to evaluate the post-FMVSS No. 138 
indirect systems and (ii) consider a revision to FMVSS No. 138 to 
ensure that ineffective systems are no longer allowed? If no such 
efforts have been undertaken, why not?
---------------------------------------------------------------------------
    \2\ http://www-nrd.nhtsa.dot.gov/Pubs/811681.pdf
    \3\ http://www-nrd.nhtsa.dot.gov/Pubs/811681.pdf Page 20.
    \4\ Id. at 3.
---------------------------------------------------------------------------
    Answer. NHTSA's 2012 report ``Evaluation of the Effectiveness of 
TPMS in Proper Tire Pressure Maintenance'' found that that the rate of 
severe tire under-inflation, defined as one or more tires with pressure 
25 percent or more below the vehicle manufacturer's recommended value, 
was 12 percent for passenger vehicles with direct TPMS systems and 15 
percent for vehicles with indirect TPMS systems. Given that the rate of 
severe under-inflation was 23 percent for vehicles without TPMS, the 
report indicates that both systems are effective at reducing severe 
under-inflation.
    All of the vehicles in the study with indirect TPMS were from model 
years prior to the requirements of FMVSS No. 138. The report 
hypothesizes that the performance of indirect TPMS systems that meet 
the requirements of FMVSS No. 138 may be as effective as direct systems 
because of changes made to the indirect systems to become compliant 
with the standard. However, our preliminary analysis indicates that 
there is not sufficient fleet penetration of FMVSS No. 138 compliant 
indirect systems to conduct a meaningful comparison of the real-world 
performance of the two systems at this point.

    Question 4a. Please provide me with a list of all waivers from the 
requirements of FMVSS No. 138 that have been requested for TPMS 
systems, indicating for each such waiver i) which manufacturer 
requested the waiver, ii) whether the waiver was for indirect or direct 
TPMS, iii) whether the waiver was granted, rejected or is still pending 
and iv) for waivers that were granted, the safety basis NHTSA relied on 
to allow the non-compliant system to be used.
    Answer. NHTSA has not received any requests pursuant to 49 U.S.C. 
Sec. 30113 to exempt any vehicle from any requirement of FMVSS No. 138. 
NHTSA has received the following FMVSS No. 138 petitions for 
inconsequential noncompliance:

------------------------------------------------------------------------
                                                    If granted, safety
  NHTSA                                                  basis for
  Docket     Manufacturer   TPMS Type    Status       inconsequential
   No.                                                   decision
------------------------------------------------------------------------
2009-0084  Honda            Direct     Granted    TPMS telltale required
                                                   to activate at 27 psi
                                                   for optional tire but
                                                   not reset from 25
                                                   psi, optional tire
                                                   able to support
                                                   greater load.
------------------------------------------------------------------------
2010-0095  Volkswagen       Indirect   Granted    Malfunction telltale
                                                   not illuminated on
                                                   2nd start, vehicle
                                                   speed 6-12.5 mph for
                                                   5 minutes or less
------------------------------------------------------------------------
2012-0007  Mercedes         Direct     Rejected   NA
------------------------------------------------------------------------
2012-0118  Mazda            Direct     Granted    Owner's manuals for
                             except                vehicles delivered in
                             255                   Puerto Rico missing
                             Indirect              TPMS instructions in
                                                   English but available
                                                   on Mazda website
------------------------------------------------------------------------
2012-0147  Honda            Direct     Pending
------------------------------------------------------------------------
2013-0139  Aston Martin     Direct     Pending
------------------------------------------------------------------------
2014-0034  Maserati         Direct     Pending
------------------------------------------------------------------------
2014-0035  McLaren          Direct     Pending
------------------------------------------------------------------------
2014-0077  Lamborghini      Direct     Pending
------------------------------------------------------------------------
2014-0094  Ferrari          Direct     Pending
------------------------------------------------------------------------
2014-0096  Tesla            Direct     Pending
------------------------------------------------------------------------

    Question 4b. Has NHTSA obtained, produced or reviewed additional 
data on or reports of other potential incidences of non-compliance of 
indirect TPMS? Please list any such data or reports, along with any 
enforcement or regulatory determination NHTSA made following its review 
thereof. Does NHTSA plan on revising FMVSS No. 138 or the associated 
testing procedure, TP 138-03, in response to its review of any such 
data or reports? Has NHTSA conducted any testing of its own on vehicles 
that utilize indirect TMPS, and if so, please describe the nature of 
that testing, including the vehicle(s) that were tested and the results 
of the tests.
    Answer. NHTSA's Office of Vehicle Safety Compliance (OVSC) tested 
four vehicles with indirect TPMS to FMVSS No. 138 as a part of the 
Model Year 2014 compliance program. The vehicles tested were a 
Volkswagen Beetle, a Honda CR-V, a Honda Accord, and a Mazda 6. The 
Volkswagen Beetle and the Honda CR-V passed all requirements. The Honda 
Accord passed all requirements except one test simulating a 
malfunction. We have informed Honda of the issue and plan to continue 
with our investigation. To date, NHTSA has received test results from 
Honda on the Honda Accord, Civic and CR-V showing that only the Accord 
failed the malfunction test.
    NHTSA received test information from Schrader, a TPMS equipment 
manufacturer, identifying a potential safety issue with the Mazda 6's 
indirect TPMS using a test procedure that is not included in the 
current test procedure TP-138. OVSC conducted a similar test on all 
four vehicles. Although the Mazda 6 passed the TP-138 tests, it failed 
the additional test by not illuminating a telltale warning when all 
four tires were gradually deflated below the required activation 
threshold of 25 percent below Mazda's recommended inflation pressure. 
The other three vehicles correctly produced a low pressure telltale 
warning in the additional test. Mazda submitted test results confirming 
the failure of the Mazda 6. It also provided test data for the Mazda 3 
and CX-5 showing passing results. On October 24, Mazda submitted a Part 
573 noncompliance report to NHTSA. The test reports for all of these 
vehicles are currently being finalized. No decision has been made at 
this time regarding changes to the Standard or TP-138.

    Question 4c. Indirect TPMS requires a calibration system to compare 
tires' rotational speeds and from that, extrapolate their inflation 
levels. Currently, NHTSA's TPMS testing protocol allows for a manual 
reset/recalibration button to be placed on the dashboard, which could 
result in the inadvertent recalibration of a TPMS system to set the 
baseline to be an unsafe tire pressure level if a driver hits the 
button by mistake. Has NHTSA obtained any consumer complaints, EWR 
submittals or other reports of such an occurrence? If so, please 
describe the quantity and nature of these complaints, submittals or 
reports. Please also describe any other efforts NHTSA has made to 
assess this risk.
    Answer. NHTSA's Office of Defects Investigation reviewed complaints 
for all vehicles where manufacturers indicated the models are equipped 
with the TPMS reset switches. There were no complaints indicating a 
failure resulting from inadvertent recalibration of the TPMS switch. A 
number of complaints against the 2014 Honda CR-V describe the TPMS 
light repeatedly coming on--the consumer checks the tire pressure, 
which is at the required pressure, and then resets the switch. No 
complaint describes recalibrating the TPMS setting to a lower tire 
pressure. NHTSA will continue to monitor the situation to determine 
whether a defect exists that presents an unreasonable risk to safety.
    On July 24, 2014, OVSC sent information requests to 19 vehicle 
manufacturers to obtain data on manual reset/recalibration buttons. 
OVSC is in the process of reviewing the information and determining 
appropriate next steps.
                               Attachment


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                          Robert Strassburger
    Question 1. According to the Valukas report, in 2004, GM and NHTSA 
had a secret meeting in which the attendees inexplicably agreed that 
cars stalled all by themselves, and that this was not necessarily a 
safety problem. Do you disagree that many members of the public would 
probably have rejected this conclusion if they had known about it, and 
if so, why?
    Answer. According to the Valukas report, in a meeting on June 3, 
2004, GM officials described a number of factors that should be 
considered in assessing stalls, and NHTSA officials responded that the 
factors ``should be considered but did not necessarily `immunize' a 
manufacturer from conducting a safety recall'' indicating that NHTSA 
believed that stalling could indicate a safety problem. (pg. 73)

    Question 2. Mr. Valukas's report describes warnings of accidents 
that GM was aware of involving their vehicles, but some of these 
warnings and reports were not publicly disclosed or acted on. Do you 
disagree that if the public knew about these reports of cars stalling 
on their own at the time, it is possible that some of the deaths and 
injuries caused by this defect could have been avoided, and if so, why?
    Answer. It is not clear which ``warnings of accidents'' the 
question refers to, but under the Early Warning Reporting (EWR) system, 
auto manufacturers are required by law to provide ``all data necessary 
to assist in the identification of safety-related defects,'' which 
includes notifying the agency of death and injury claims/notices 
involving its vehicles. Information about these reports is publicly 
available on NHTSA's website.
    In a March 26, 2014 letter to Acting Administrator David Friedman, 
Clarence Ditlow of the Center for Auto Safety alleged that NHTSA 
``turned a blind eye to the ignition switch defect,'' because the 
agency did not act on information it possessed, ranging ``[f]rom 
consumer complaints to Technical Service Bulletins to Special Crash 
Investigations to Early Warning Reporting death claims'' (emphasis 
added). Notably, all of the information cited by Mr. Ditlow is publicly 
available on NHTSA's website.

    Question 3. In 2006 and 2007, NHTSA received investigative reports 
from its contractors relating to two fatal crashes involving GM 
Cobalts. Both of these reports described airbags that did not deploy in 
cars because ignition switches had turned off. Do you disagree that if 
NHTSA had reviewed these reports and informed the public about the 
safety defect, it is possible that some of the deaths and injuries 
caused by the defect could have been avoided, and if so, why?
    Answer. NHTSA officials testified that the agency reviewed the 
investigative reports from its contractors; however, it does not appear 
that the agency concluded that the reports identified a safety defect. 
Had NHTSA concluded that the reports identified a safety defect, it 
presumably would have conveyed this finding to the company; if the 
company did not initiate a recall, NHTSA would have used its existing 
broad authority to compel the company to do so.

    Question 4. In 2007, NHTSA asked for and received a document from 
GM related to the death of two Wisconsin teenagers. That document was 
first made public by me at our May 7 hearing, and it is referenced 
repeatedly in Mr. Valukas's report. It included a report by the 
Wisconsin State Patrol Academy that said that the ignition switch 
defect prevented the airbags from deploying. It also found other 
examples of the same problem happening in other cars and identified a 
2005 GM warning to dealers about the issue. In short, it correctly 
identified the safety defect. Do you disagree that if the public had 
been told about this document and warned about its conclusions at the 
time, it is possible that some of the deaths and injuries caused by 
this defect could have been avoided, and if so, why?
    Answer. According to the Valukas report, GM provided State Trooper 
Young's report to NHTSA as part of its quarterly EWR submission. (pg. 
117-8) In his report, Trooper Young cited consumer complaints and 2005 
and 2006 Technical Service Bulletins related to Cobalt ignition 
switches. Trooper Young found these documents on NHTSA's publicly 
available EWR website. (pg. 115)

                                  [all]
</pre></body></html>
